<html>
<title> - A FALSE NARRATIVE ENDANGERS THE HOMELAND</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                A FALSE NARRATIVE ENDANGERS THE HOMELAND

=======================================================================

                                HEARING

                               before the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 15, 2014

                               __________

                           Serial No. 113-47

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/


                                 ______

                   U.S. GOVERNMENT PRINTING OFFICE 
87-941                     WASHINGTON : 2014
____________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="583f2837183b2d2b2c303d3428763b373576">[email&#160;protected]</a>  

                               __________

                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Paul C. Broun, Georgia               Yvette D. Clarke, New York
Candice S. Miller, Michigan, Vice    Brian Higgins, New York
    Chair                            Cedric L. Richmond, Louisiana
Patrick Meehan, Pennsylvania         William R. Keating, Massachusetts
Jeff Duncan, South Carolina          Ron Barber, Arizona
Tom Marino, Pennsylvania             Dondald M. Payne, Jr., New Jersey
Jason Chaffetz, Utah                 Beto O'Rourke, Texas
Steven M. Palazzo, Mississippi       Tulsi Gabbard, Hawaii
Lou Barletta, Pennsylvania           Filemon Vela, Texas
Richard Hudson, North Carolina       Steven A. Horsford, Nevada
Steve Daines, Montana                Eric Swalwell, California
Susan W. Brooks, Indiana
Scott Perry, Pennsylvania
Mark Sanford, South Carolina
Vacancy
                        Vacancy, Chief of Staff
          Michael Geffroy, Deputy Chief of Staff/Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Michael T. McCaul, a Representative in Congress 
  From the State of Texas, and Chairman, Committee on Homeland 
  Security.......................................................     1
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security..............................................     3

                               Witnesses

Hon. Joseph I. Lieberman, Former Senator From the State of 
  Connecticut:
  Oral Statement.................................................     5
  Prepared Statement.............................................     8
Hon. Jane Harman, Former Representative From the State of 
  California:
  Oral Statement.................................................    11
  Prepared Statement.............................................    13
General John M. Keane, (Ret. U.S. Army), Chairman of the Board, 
  Institute for the Study of War:
  Oral Statement.................................................    14
  Prepared Statement.............................................    16
Mr. Seth G. Jones, Associate Director, International Security and 
  Defense Policy Center, The Rand Corporation:
  Oral Statement.................................................    18
  Prepared Statement.............................................    20

                             For the Record

The Honorable Jeff Duncan, a Representative in Congress From the 
  State of South Carolina:
  Article........................................................    49

                                Appendix

Questions From Honorable Paul C. Broun for Honorable Joseph I. 
  Lieberman......................................................    63
Questions From Honorable Richard Hudson for Honorable Joseph I. 
  Lieberman......................................................    63
Questions From Honorable Paul C. Broun for Honorable Jane Harman.    64
Questions From Honorable Richard Hudson for Honorable Jane Harman    64
Questions From Honorable Paul C. Broun for John M. Keane.........    64
Questions From Honorable Richard Hudson for John M. Keane........    65
Questions From Honorable Paul C. Broun for Seth G. Jones.........    65
Questions From Honorable Richard Hudson for Seth G. Jones........    66


                A FALSE NARRATIVE ENDANGERS THE HOMELAND

                              ----------                              


                      Wednesday, January 15, 2014

             U.S. House of Representatives,
                    Committee on Homeland Security,
                                                    Washington, DC.
    The committee met, pursuant to call, at 10:08 a.m., in Room 
311, Cannon House Office Building, Hon. Michael T. McCaul 
[Chairman of the committee] presiding.
    Present: Representatives McCaul, King, Broun, Miller, 
Meehan, Duncan, Marino, Barletta, Hudson, Brooks, Perry, 
Sanford, Thompson, Jackson Lee, Higgins, Richmond, Payne, 
O'Rourke, Horsford, and Swalwell.
    Chairman McCaul. The Committee on Homeland Security will 
come to order. The committee is meeting today to examine the 
danger to the homeland from the threat of extremism. I now 
recognize myself for an opening statement.
    Today the President's rhetoric on the threat of al-Qaeda 
and its franchises are in stark contrast to the reality we are 
witnessing in the Middle East and Northern Africa. Whether or 
not the downplaying of the spread of these Islamic extremist 
groups and the real threat they pose, which are metastasizing 
from the civil war in Syria, is to further a political agenda 
or simply to avoid the conflict altogether, I believe this 
false narrative greatly endangers our National security.
    Protecting this Nation requires that we correctly identify 
the threats against it. It also requires that the United States 
lead on the world stage. I am increasingly concerned that we 
are doing very little of both. The administration has labeled 
the Fort Hood massacre in my home State ``workplace violence,'' 
explained Benghazi away with a protest to a video as opposed to 
an al-Qaeda-driven attack, and removed words like ``violent 
Islamist extremism'' from their vernacular. With each attack, 
the administration appears to distance itself from who is 
behind it.
    President Obama repeatedly tells us that al-Qaeda is on its 
heels and on the run. In May of last year, the President said 
that Osama bin Laden is dead and so are most of his top 
lieutenants, there have been no large-scale attacks on the 
United States, and our homeland is more secure. Killing bin 
Laden was an important accomplishment, but it has not put al-
Qaeda on its heels or secured the homeland. In fact, Peter 
Bergen just recently wrote in an article last week that al-
Qaeda appears to control more territory in the Arab world than 
it has done at any time in its history.
    Foremost in the narrative is the administration's frequent 
use of the ``core al-Qaeda concept.'' This is a false construct 
in my judgment and misleading for a number of reasons. Today 
there is no central al-Qaeda nucleus. References to a ``core 
al-Qaeda'' imply that its defeat would dismantle terrorist 
efforts around the world and eliminate the terrorist threat to 
the homeland. This is simply not the case. Over time the term 
``al-Qaeda'' has come to symbolize an ideology of hate towards 
the West, with the goal of establishment of a Caliphate ruled 
by Sharia law and the pathway there through violent jihad. We 
are seeing it spread, play out in the Middle East, in Africa, 
and in the Caucasus. And although many terrorist groups 
subscribe to this ideology, we must understand that they are 
independent organizations planning and conducting operations 
without the oversight of an al-Qaeda central command.
    The only core is the ideology itself, and the defeat of an 
ideology requires more than just drone strikes. The failure to 
recognize this truth prevents us from understanding the real 
threat from Islamic extremism and clouds our judgment in 
fighting against it. Ultimately, you cannot defeat an enemy you 
are unwilling to define.
    The second part of the false narrative is our increasing 
willingness to abdicate our responsibility as a world leader. 
In the aftermath of World War II, President Truman said, ``The 
peoples of the Earth face the future with grave uncertainty, 
composed almost equally of great hopes and great fears. In this 
time of doubt they look to the United States as never before 
for goodwill, strength, and wise leadership.'' Again today the 
people of the world face the future with grave uncertainty and 
they look to the United States for stable leadership.
    We are witnessing a worldwide rebalancing as we have never 
seen before in modern history. This time, however, it is 
exacerbated by a Sunni-Shia sectarian conflict that has 
consumed the Middle East, caused great unrest across the 
region, and is forcing countries around the world to intercede. 
Yet our steadfast leadership is notably absent.
    Terrorist groups are multiplying. They are spreading like 
wildfire, I would submit, like a spider web across Northern 
Africa. Foreign fighters are pouring in every day into Syria at 
an alarming rate, while Syria itself is being pulled apart by 
Saudi Arabia and Iran. Red lines are drawn and crossed, 
diminishing our world standing and forcing other countries to 
act where we have failed.
    Our negotiations with Iran damaged our relationship with 
Saudi Arabia and Israel. American forces pulled out of Iraq, 
and al-Qaeda now has taken over Fallujah, once the symbol of 
the United States' commitment to stability in Iraq. We are 
pulling out of Afghanistan, where not so long ago the 9/11 
masterminds plotted against the United States. In Egypt, we 
have been indecisive with our support while radical elements 
are growing.
    Our lack of leadership has damaged our standing in the 
world and created a power vacuum being filled by terrorists who 
are prospering in our absence. President Kennedy told us, ``Our 
strength, as well as our convictions, have imposed upon this 
Nation the role of leader in freedom's cause.'' I believe that 
statement is as true today as it was then. It is through our 
stable leadership and clearly identifying our enemies that we 
will secure the homeland and protect the American people.
    I look forward to this distinguished panel's testimony and 
today's discussion. I want to thank all of the witnesses for 
being here today.
    The Chairman now recognizes the Ranking Member, the 
gentleman from Mississippi, Mr. Thompson.
    Mr. Thompson. Thank you, Mr. Chairman.
    I also welcome our witnesses today.
    Ms. Harman, good to see you. As you know, you were an 
original Member of this body when it was a select committee, 
without any jurisdiction. We still have a little bit around.
    Chairman McCaul. We are working on that.
    Mr. Thompson. Today's hearing seeks to examine whether U.S. 
policy to address unrest in the Middle East, the splintering of 
al-Qaeda, and the withdrawal of U.S. forces from Afghanistan 
and Iraq adversely affect homeland security in the United 
States. Such an examination must begin with an authoritative 
statement of this administration's policies and actions in each 
area.
    However, because there is no witness from the 
administration for us to question about these policies, it is 
unclear how this hearing will aid this committee's 
understanding of these critical issues or help inform our 
oversight of the policies necessary to impact this Nation's 
homeland security.
    It appears that this hearing begins with the assumption 
that to maintain safety and security within its borders this 
Nation must use its military to address every threat outside of 
its shores. Given such a perspective, the United States would 
be in a position of constantly engaging in military action 
abroad. After $1.5 trillion and 6,000 American lives lost, 
there are many in this country who want us to consider a viable 
exit strategy. There are also many people who believe that the 
safety of this Nation can be secured by means that are tailored 
to each circumstance based on a realistic assessment of the 
threat.
    As we consider the threat, we must acknowledge our current 
posture. Most experts agree that the death of Osama bin Laden 
has substantially weakened al-Qaeda. Its capabilities to mount 
large-scale attacks have been reduced. However, al-Qaeda is 
more decentralized, more dependent on its affiliates, and has 
come to rely on its ability to radicalize and recruit distant 
recruits to carry out attacks. The lack of a clear 
organizational and leadership structure has severely diminished 
the group's ability to develop joint plans and wage large-scale 
attacks.
    I am not advocating that America return to a pre-September 
11 posture. I don't know anyone who would advocate such a 
position. However, we must plan based on the facts as they are, 
not the facts as they were. As a legislative body, we must ask 
serious questions about our homeland security policies and how 
our posture should be given the on-going dismantling of al-
Qaeda. The Congressional Research Service has said that some of 
the questions we should ask involve the costs associated with 
continued U.S. military presence and the challenges of 
restoring the readiness of our forces. We must discuss a 
strategy that protects U.S. interests, as well as the 
integration of efforts across U.S. Government agencies in 
support of a broad U.S. political strategy.
    As we consider our policies, we need to ask about the 
National security apparatus that has developed in this country. 
The revelations about the massive collection of information and 
the operation of the FISA courts have caused people to question 
how these activities have improved our homeland. I understand 
that the administration will announce its plans to revamp the 
NSA surveillance programs. I look forward to hearing about 
those plans. This committee needs to be part of the discussion 
about the effects that these metadata collection programs have 
on our homeland security.
    Mr. Chairman, I agree that we need to take a serious look 
at how world events play into our homeland security policies. 
This Congress must be willing to legislate and make changes in 
the laws that affect the homeland security of this Nation. 
However, before we legislate, we need to be willing to discuss 
the law and the underlying policies with all the relevant 
parties, the Congress and the administration, in the room. I 
look forward to having that discussion. I also look forward to 
the administration being invited here to testify about how 
their overseas policies will affect our homeland security.
    With that, Mr. Chairman, I yield back.
    Chairman McCaul. I thank the Ranking Member.
    Other Members are reminded that opening statements may be 
submitted for the record.
    We are pleased here today to have four distinguished 
witnesses with us to discuss this important topic. First, we 
are delighted to have Senator Joseph Lieberman. He represented 
the State of Connecticut in the United States Senate from 1989 
to 2013. In the months after September 11, Senator Lieberman 
led the fight to create the Department of Homeland Security, 
which led to the creation of this committee and the Senate 
Committee on Homeland Security, which he chaired until his 
retirement from Congress last year.
    Next, we have our dear friend who served on this 
committee--she actually was sort of my boss, if you will. She 
was the Chairwoman of the Intelligence Subcommittee as I was 
Ranking Member--Congresswoman Jane Harman.
    It is great to see you here today.
    She represented California's 36th District in the U.S. 
House of Representatives from 1993 to 2011, served on multiple 
Congressional committees, boards, and commissions, including 
this committee and the House Permanent Select Committee on 
Intelligence and the House Committee on Armed Services. She is 
currently the president of the Woodrow Wilson International 
Center for Scholars and is a member of the Defense Policy Board 
and the Homeland Security Advisory Committee, among others.
    It is great to see you.
    Next, we are pleased to have a very distinguished witness, 
General Jack Keane, a retired four-star general who completed 
37 years in public service in December 2003, culminating as 
acting chief of staff and vice chief of staff of the U.S. Army. 
He currently serves as chairman of the board of the Institute 
for the Study of War and sits on the board of directors for 
MetLife and General Dynamics.
    Thank you, sir, for being here.
    Next is Dr. Seth Jones, the associate director of the 
International Security and Defense Policy Center at the RAND 
Corporation. He served as plans officer and adviser to the 
commanding general of the U.S. Special Forces in Afghanistan, 
as well as representative for commander of U.S. Special 
Operations Command to the assistant secretary of defense for 
special operations.
    The witnesses' full written statements will be included in 
the record. The Chairman now recognizes Senator Lieberman for 
his testimony.

STATEMENT OF HON. JOSEPH I. LIEBERMAN, FORMER SENATOR FROM THE 
                      STATE OF CONNECTICUT

    Mr. Lieberman. Thank you, Chairman McCaul, Ranking Member 
Thompson. It is great to be back before you. Thank you for 
convening this hearing. Thanks for inviting me to testify. 
Thanks for putting me in the great company of the other 
witnesses at the table.
    I think it is very important that you are holding this 
hearing, and let me briefly explain why. In the aftermath of 
the attacks of September 11, 2001, the overwhelming focus of 
our Government and of the American people was on the threat of 
terrorism. Twelve years later, this is no longer the case. Our 
loss of focus is in part a consequence of the success we have 
achieved, namely, that we have not had another catastrophic 
attack on our homeland since that terrible Tuesday morning in 
September 2001.
    But pride in this achievement must be tempered by an 
awareness of some harsh realities. First, al-Qaeda and its 
affiliates remain a ruthless, determined, and adaptive 
adversary. Second, the underlying ideology that inspires and 
drives al-Qaeda to attack us and our allies, namely, the 
ideology of violent Islamist extremism, is neither defeated nor 
exhausted. It manifests itself not just in a resurgent al-
Qaeda, but in terrorist organizations that are either 
unaffiliated with al-Qaeda or loosely affiliated with it but 
have exactly the same goals and capability to use violence 
against innocents.
    For that reason, our safety as a Nation is ultimately 
inseparable from our ability to meet the fullness of the 
threat. Our security as a Nation also requires, as you have 
said, that we stay engaged in the world beyond our borders. 
That is the best way to prevent another terrorist attack 
against America like the one that occurred on 9/11.
    Yet increasingly we hear voices on both sides of the 
political spectrum who say that the threat of terrorism is 
receding, that the end of this conflict is here or near, and 
therefore that we can withdraw from much of the rest of the 
world. That narrative, as the title of this hearing suggests, 
is false and really does endanger our homeland.
    There is no question that the United States under President 
Bush and President Obama has inflicted severe damage to core 
al-Qaeda, the senior leadership that reconstituted itself in 
the mid-2000s in the tribal areas of northwestern Pakistan 
after they were driven by the courageous American military from 
neighboring Afghanistan after 9/11. But to borrow a phrase from 
General Petraeus, while the progress we have achieved against 
core al-Qaeda is real and significant, it is also fragile and 
reversible. For example, and this is a very timely example, 
core al-Qaeda in the tribal areas of Pakistan has been degraded 
by the persistent, targeted application of military force 
against those individuals and networks.
    The precondition for those operations and the intelligence 
that enables them has been America's presence in Afghanistan. 
If the United States withdraws all our military forces from 
Afghanistan at the end of this year, the so-called ``zero 
option,'' which some now advocate, you can be sure that al-
Qaeda will regenerate on both sides of the Afghan-Pakistan 
border. If you doubt that, I urge you to look at what is now 
happening in western Iraq, where just a few years ago, during 
the U.S.-led surge, al-Qaeda was dealt an even more crippling 
blow than core al-Qaeda has suffered in Pakistan. Yet now it is 
al-Qaeda that is surging back in Iraq, hoisting its black flag 
over cities like Fallujah and Ramadi and murdering hundreds of 
innocent Iraqis just in the last year.
    To me this leads to an important conclusion, which is that 
while space for core al-Qaeda in tribal Pakistan has been 
shrunk, thanks to persistent U.S. action and leadership, new 
territory where al-Qaeda affiliates can find sanctuary has 
grown significantly during the same period, particularly in the 
Middle East and North Africa and sub-Saharan Africa. Al-Qaeda 
and other violent Islamist extremist groups have long exploited 
Muslim-majority countries that have been weakened or fragmented 
by conflict and neglected by the international community, 
including the United States. They take advantage of these 
places to recruit, radicalize, and train the next generation of 
extremist foot soldiers. They use these places to plot and plan 
attacks, including against our homeland.
    That is why al-Qaeda and its affiliates first went to 
Afghanistan in the 1990s, that is why they later turned to 
Yemen and Somalia in the 2000s, and that is why today they are 
fighting to build sanctuaries in Syria, Iraq, and Libya. There 
is now a clear, present, and increasing threat to America and 
our allies from those three countries, but administration 
policymakers have signified that any involvement, and I stress 
any involvement by the U.S. military there is for all intents 
and purposes off the table. That means that the United States 
will not be able to assist our local allies in combating the 
rise of al-Qaeda in these countries. It also means that we are 
failing to help deal with the underlying conditions that are 
making al-Qaeda's resurgence possible.
    To put it as bluntly as I can, I do not today see a 
credible or coherent American strategy for these countries--
Syria, Iraq, and Libya--that most threaten to emerge as al-
Qaeda's newest and most dangerous footholds, places from which 
terrorist attacks against our homeland can and will originate.
    This failure, it should be added, has consequences for our 
National security that extend beyond counterterrorism. Across 
the Middle East and beyond, the credibility of American 
leadership is being questioned as it has not been for a very 
long time. Among friends and enemies alike there are doubts 
about our staying power, questions about our reliability as an 
ally, and suspicions that at the end of the day America will 
hesitate to back up our promises and historic commitments with 
the use of force if necessary in a dangerous world. That is the 
reality, I believe, of how the United States is seen right now 
in too many places in the world.
    Some in Washington look at what is happening in Syria, 
Iraq, and Libya and downplay their significance for our 
security and with it our need to get involved. Yes, al-Qaeda-
affiliated groups are there, these skeptic say, but they are 
mostly focused on fighting other Muslims. The situation is 
confusing and chaotic, we are told, and after all, these Sunni-
Shia conflicts have gone on forever and will go on forever. 
``It is someone else's civil war'' is a familiar refrain we are 
hearing often again. That is, again, a very false and dangerous 
narrative.
    But keep in mind that 20 years ago, during the 1990s, most 
people in Washington dismissed what was happening in 
Afghanistan as ``someone else's civil war,'' and thus began the 
road to 9/11. I fear very much that 20 years from now, or less, 
someone else is going to be sitting here testifying before this 
committee saying much the same about pulling back from Syria, 
Libya, and Iraq today.
    In brief, what do I think the United States should be doing 
now to protect our people against future 9/11 attacks? First, I 
don't advocate sending tens of thousands of troops to these 
countries. I don't believe it is within our power or our 
responsibility to solve every problem these countries face. 
These are the standard, and I think hollow, straw man arguments 
against what we can and should do. There is a lot we can and 
should do.
    In Syria, we can and should much more aggressively provide 
militarily-relevant support to non-extremist rebel forces. In 
Iraq, we can and should make clear to the government that we 
are willing to support Iraqis against al-Qaeda with U.S. air 
power, as well as putting a small number of embedded advisers 
on the ground while using that increased assistance as leverage 
to encourage the Maliki government to politically reconcile, 
particularly with Sunnis. In Libya, we can put in place, and 
should, a large-scale, well-resourced U.S.-led effort to build 
up the new Libyan Army and security forces as quickly as 
possible.
    In Afghanistan, we can choose not to squander the gains of 
the past decade and dishonor the brave Americans who risked and 
lost their lives there. Instead, we can keep a sufficient 
follow-on military presence to sustain the increasingly-capable 
Afghan National Security Forces in our shared fight against al-
Qaeda and the Taliban. That will also safeguard, incidentally, 
the gains that have been made in human rights and human 
development more broadly, particularly among Afghan women, all 
of which will be erased if the Taliban returns.
    Mr. Chairman, Ranking Member, none of these possible 
actions by the United States represent simple or quick 
solutions. There are no easy solutions to this threat. But 
there are smart, strong steps we can take that will put us in a 
better position to deal with the evolving threats we face here 
at home and that will ultimately make us safer as a country.
    Mr. Chairman, I would just ask unanimous consent that the 
rest of my statement be entered into the record as if read. I 
thank you again.
    Chairman McCaul. Without objection, so ordered. Thank you, 
Senator, for your analysis.
    [The prepared statement of Mr. Lieberman follows:]

               Prepared Statement of Joseph I. Lieberman
                            January 15, 2014

    Thank you, Chairman McCaul, Ranking Member Thompson, distinguished 
Members of this committee. I am grateful for the opportunity to appear 
before you to testify today.
    Let me begin by commending you for holding this hearing. In the 
aftermath of the attacks of September 11, 2001, the overwhelming focus 
of our Government and of the American people was on the threat of 
terrorism. Twelve years later, that is no longer the case. Our loss of 
focus is in part a consequence of the success we have achieved--namely, 
the fact that we have not had another catastrophic attack on our 
homeland since that terrible Tuesday morning in September, 2001.
    The absence of such an attack, however, is not because of an 
absence of terrorist plots or plans against us. Rather, it has been the 
consequence of vigilance, determination, courage, and creativity by 
National security professionals and National leaders across two 
administrations, as well as the close cooperation and help of America's 
allies and partners around the world. It is also due to a series of 
sweeping National security reforms and innovations enacted in the 
aftermath of 9/11 that have made our Nation safer.
    Pride in this achievement, however, must be tempered by an 
awareness of several harsh realities. First, al-Qaeda and its 
affiliates remain a ruthless, determined, and adaptive adversary. 
Second, the underlying ideology that inspires and drives al-Qaeda to 
attack us and our allies--the ideology of violent Islamist extremism--
is neither defeated nor exhausted. It manifests itself not just in al-
Qaeda but in terrorist organizations that are either unaffiliated with 
al-Qaeda or loosely affiliated with it.
    For that reason, our safety as a Nation is ultimately inseparable 
from our own ability to adapt to meet this changing threat. It also 
requires that we stay engaged in the world beyond our borders. That is 
the best way to prevent another terrorist attack against America like 
the one that occurred on 9/11.
    Yet increasingly we hear voices--on both sides of the political 
spectrum--who say that the threat from terrorism is receding, the end 
of this conflict is here or near, and therefore that we can withdraw 
from much of the rest of the world.
    This narrative is badly and dangerously mistaken.
    There is no question, the United States--under President Bush and 
President Obama--has inflicted severe damage to ``core'' al-Qaeda, the 
senior leadership that reconstituted itself in the mid-2000s in the 
tribal areas of northwestern Pakistan, after being driven by the 
American military from neighboring Afghanistan after 
9/11.
    To borrow a phrase from General David Petraeus, while the progress 
we have achieved against core al-Qaeda is real and significant, it is 
also fragile and reversible.
    What has degraded core al-Qaeda in the tribal areas of Pakistan has 
been the persistent, targeted application of military force against 
these individuals and networks. The precondition for these operations, 
and the intelligence that enables them, has been our presence in 
Afghanistan. If the United States withdraws all of our military forces 
from Afghanistan at the end of this year--the so-called ``zero 
option,'' which some now advocate--you can be sure that al-Qaeda will 
regenerate, eventually on both sides of the Afghan-Pakistan border.
    If you doubt this, I urge you to look at what is now happening in 
western Iraq, where just a few years ago, during the U.S.-led surge, 
al-Qaeda was dealt an even more crippling blow than core al-Qaeda has 
suffered in Pakistan. Yet now it is al-Qaeda that is surging back in 
Iraq, hoisting its black flag over cities like Fallujah and Ramadi, 
murdering hundreds of innocent Iraqis this year, with violence surging 
back to 2008 levels.
    This leads to an important conclusion. While space for core al-
Qaeda in tribal Pakistan has been shrunk thanks to persistent U.S. 
action in recent years, new territory where al-Qaeda affiliates can 
find sanctuary has grown significantly during this same period, in the 
Middle East, North Africa, and Sub-Saharan Africa.
    Al-Qaeda and other Islamist extremist groups have long exploited 
Muslim-majority countries that have been weakened or fragmented by 
conflict, and neglected by the international community. They take 
advantage of these places to recruit, radicalize, and train the next 
generation of extremist foot soldiers. They use them to plot and plan 
attacks.
    That is why al-Qaeda and its affiliates first went to Afghanistan 
in the 1990s. That is why they later turned to Yemen and Somalia in the 
2000s. And it is why today they are fighting to build sanctuaries in 
Syria, Iraq, and Libya.
    Several factors make the prospect of al-Qaeda sanctuaries in these 
three countries especially dangerous for the United States and our 
allies. The first is their respective locations. Syria and Iraq are in 
the heart of the Arab Middle East, bordering key American allies like 
Jordan, Saudi Arabia, Lebanon, Turkey, and Israel. Libya and Syria are 
Mediterranean countries--comparatively easy to reach by terrorist 
recruits from the West, in contrast to remote Afghanistan and Pakistan. 
And Libya is also adjacent to the vast Sahel, with its weak and poorly-
governed states.
    In the face of the clear, present, and increasing threat to America 
and our allies from these places, American policymakers have signaled 
that any involvement by the U.S. military is for all intents and 
purposes off the table. This means that the United States is not 
effectively able to assist our local allies in combating the rise of 
al-Qaeda in these countries. It also means that we are failing to help 
deal with the underlying conditions that are making al-Qaeda's 
resurgence possible.
    Put very bluntly, I do not see a credible or coherent U.S. strategy 
right now for exactly those countries--Syria, Iraq, and Libya--that 
most threaten to emerge as al-Qaeda's newest and most dangerous 
footholds--places, from which terrorist attacks against our homeland 
can and will originate.
    According to one estimate, there are now more foreign fighters in 
Syria than in Iraq and Afghanistan combined over the past 10 years.
    This failure, it should be added, has consequences for our National 
security that extend far beyond counterterrorism. Across the Middle 
East and beyond, the credibility of American leadership is being 
questioned as it has not been for a very long time. Among friends and 
enemies alike, there are doubts about our staying power; questions 
about our reliability as an ally; and suspicions that, at the end of 
the day, we will hesitate to back up our promises and historic 
commitments with the use of force--if necessary.
    This is the reality of how the United States is seen right now in 
too much of the rest of the world.
    Some in Washington look at what is happening in Syria, Iraq, and 
Libya and downplay their significance for our security, and with it, 
our need to get involved. Yes, al Qaeda-affiliated groups are there, 
these skeptics say, but they are mostly focused on fighting other 
Muslims. The situation is confusing and chaotic, we are told, and these 
Sunni-Shia conflicts have gone on forever. It is ``someone else's civil 
war'' is a familiar refrain we are hearing often again.
    But keep in mind that 20 years ago, during the 1990s, most people 
in Washington dismissed what was happening in Afghanistan as ``someone 
else's civil war.'' And thus began the road to 9/11. I fear very much 
that 20 years from now or less, someone else will be sitting here, 
testifying before this committee, saying much the same about pulling 
back from Syria, Libya, and Iraq today.
    What do I believe the United States can and should do now to 
protect our people against future 9/11 attacks? First, I do not 
advocate sending tens of thousands of troops to these countries. Nor do 
I believe it is within our power, or our responsibility, to solve every 
problem these countries face. These are hollow straw man arguments 
against what we can and should do.
    And there is much we can and should be doing today that we are not. 
In Syria, we can much more aggressively and creatively provide 
militarily-relevant support to non-extremist rebel forces. In Iraq, we 
can make clear to the government that we are willing to support Iraqis 
against al-Qaeda with U.S. airpower, as well as putting a small number 
of embedded advisors on the ground, while using that increased 
assistance as leverage to encourage political reconciliation. In Libya, 
we can put in place a large-scale, well-resourced, U.S.-led effort to 
build up new Libyan army and security forces as quickly as possible--
rather than the balkanized, poorly-resourced, decades-long effort now 
in place.
    And in Afghanistan, we can choose not to squander the gains of the 
past decade and dishonor the brave Americans who lost or risked their 
lives there. Instead we can keep a sufficient follow-on military 
presence to sustain the increasingly capable and courageous Afghan 
National Security Forces in our shared fight against al-Qaeda and the 
Taliban, that will also safeguard the gains that have been made in 
human rights and human development more broadly, particularly among 
Afghan women, all of which will be erased if the Taliban returns.
    None of these possible actions by the United States represent 
simple or quick solutions. There are no easy solutions to the problems 
here. But there are smart, measured steps we can take that will put us 
in a stronger position to deal with the evolving threats we face and 
that will ultimately make us safer as a country here at home.
    It is worth noting that, in all of these countries, we have 
repeatedly seen that al-Qaeda and its extremist vision for society are 
rejected by the overwhelming majority of people living there. In Iraq, 
Syria, and Libya, we have seen popular, grassroots movements rise up 
against al-Qaeda and other extremist groups. The question is whether we 
provide these anti-extremist popular movements with the help and 
support they need to succeed, or leave them on their own to fail.
    This is especially urgent in Syria right now. In just the past 
several days, there has been a grassroots uprising in the northern part 
of the country against the al-Qaeda affiliate in Syria, because al-
Qaeda has alienated the local population with its brutality and 
violence. The question is, do we now come to the aid of these rebels 
who are in a two-front fight against al-Qaeda and Bashar al Assad--
which is to say, against Iran--and who desperately need our help? If we 
fail to do so, and al-Qaeda defeats them, the consequences will be dire 
not only for Syria, but for our own National security.
    Let me make one final point. The Obama administration has 
repeatedly narrowed the rhetorical scope of this conflict from what it 
criticized as an amorphous and open-ended ``war on terrorism'' to an 
armed conflict against a discrete and identifiable group: al-Qaeda and 
its affiliates. Our goal, the President has said, is to disrupt and 
ultimately dismantle the entity known as al-Qaeda and those affiliated 
with it.
    There is an argument for this approach. After all, the enemy we are 
fighting is not ``terrorism,'' which is simply a tactic. But an 
organization-centric approach to counterterrorism, as the Obama 
administration has advocated, is ultimately inadequate because al-Qaeda 
as an organization can be eviscerated, but it will regenerate as long 
as the ideology that inspires it survives. An organization-centric 
approach may also inadvertently cause us to miss the threat posed by 
groups that share al-Qaeda's ideology and ambitions to harm us, but 
that lack meaningful organizational ties to it. Indeed, it seems 
plausible that this is part of what happened in Benghazi in 2012.
    The fact is, ultimate success in the struggle we are in depends not 
simply on the death of particular terrorist leaders or the destruction 
of a particular terrorist group, important though that is. Rather, it 
requires the discrediting of violent Islamist extremism as a worldview.
    And let me underscore here, the enemy is violent Islamist 
extremism--a political ideology that seeks to justify totalitarian 
governance by perverting religion. The enemy, we can never stress 
enough, is not Islam itself.
    Nor, I would add, our enemy is political Islam per se. In fact, 
there are political Islamists who are neither violent nor extremist, 
and who recognize al-Qaeda to be a mortal threat just as much if not 
more than we do. In Tunisia, for instance, we see an Islamist party 
that has proven thus far to be respectful of democracy and of political 
pluralism.
    In fact, such Islamists--operating in a democratic framework--may 
ultimately prove to be the most powerful and effective force to 
delegitimize and destroy violent Islamist extremism. Conversely, 
repressive regimes in Muslim countries are likely in the long run to 
radicalize people and push them towards violent extremism. For this 
reason, the United States does have a core National interest in the 
political development of the Muslim world towards greater freedom.
    Mr. Chairman, the progress we have made since 9/11 in securing our 
homeland is real. But we should not delude ourselves into thinking that 
this fight is anywhere near over. Perhaps the best description of where 
we find ourselves can be found in the familiar words of a great 
statesman of the last century, speaking of a very different struggle 
against another totalitarian foe.
    In late 1942, after the first British victories in North Africa, 
Winston Churchill told the House of Commons: ``Now this is not the end. 
It is not even the beginning of the end. But it is, perhaps, the end of 
the beginning.''
    So, too, perhaps it is for us now ``the end of the beginning'' of 
our war against violent Islamist extremism. If so, that should give us 
reason to hope--but also grounds to recognize much danger, difficulty, 
and hard work lies ahead.

    Chairman McCaul. The Chairman now recognizes our former 
colleague, Congresswoman Jane Harman, for her testimony.

 STATEMENT OF HON. JANE HARMAN, FORMER REPRESENTATIVE FROM THE 
                      STATE OF CALIFORNIA

    Ms. Harman. Thank you, Mr. Chairman. Good morning to so 
many good friends. This feels like a homecoming. As you pointed 
out, I spent 8 years on this committee, 4 when it was a select 
committee and then 4 when we finally eked out a little 
jurisdiction to form a real committee. I worked with most of 
you, certainly all of you in the top row. As you pointed out, 
Chairman McCaul, you and I were partners on the Subcommittee on 
Intelligence. Mr. Thompson, when he chaired the committee and 
when he was the Ranking Member, and I traveled the world 
looking at garden spots where terror cells are growing.
    I feel that the history of bipartisanship of this committee 
has set an example for this House, and I hope it will continue 
to set an example for this House--and, oh, by the way, that 
other body somewhere in the Capitol--because my little 
deathless phrase that I have been repeating for years is the 
terrorists won't check our party registrations before they blow 
us up. We need to focus on this. Sorting ourselves out by party 
is not helpful.
    Now I am at the Wilson Center, a garden of 
nonpartisanship--I have to say that feels very good--but I 
continue to focus on these issues. As you pointed out, I am on 
the Defense Policy Board, the State Department's Foreign Policy 
Board, the DNI board, and recently joined the Homeland Security 
Board, where I will hopefully advise Jeh Johnson in his new 
role, and I care intensely about the policies here and getting 
them right.
    So in true bipartisan fashion, let me start with something 
not in my testimony, but that is an endorsement of some of the 
things you said, Chairman McCaul, and some of the thing you 
said, Ranking Member Thompson, in your opening statements, 
because I think they are both true, as are many of the things 
my dear friend Joe Lieberman just said.
    Chairman McCaul, you said that the terror threat is growing 
and some are not paying adequate attention to that. The terror 
threat has changed from the 9/11 days. The core al-Qaeda, as I 
think you said, and I know Senator Lieberman said, has been 
substantially destroyed by the efforts of two administrations, 
one a Republican and one a Democrat. I think most people would 
agree that President Obama not only continued the efforts of 
President Bush, but he increased those efforts against core al-
Qaeda, and most of those high-value targets have been removed. 
So it is less of a force.
    But the terror threat has morphed. It is now a loosely-
affiliated horizontal threat. Many of those groups are called 
al-Qaeda, some are, some aren't, but they are opportunistic, 
and they come together like cancer cells when necessary. The 
new organization, ISIS, the Islamist State in Iraq and Syria, 
is called al-Qaeda. It really isn't technically al-Qaeda. It 
was the old Zarqawi organization, that Osama bin Laden 
disliked, Zarqawi in Iraq was then taken out. But his 
successors run this organization, and it has taken advantage of 
an unfortunate vacuum in Iraq because, unfortunately, President 
Maliki, I think, makes inadequate efforts in some of the Sunni 
parts of his country, but also in Syria for obvious reasons.
    So the terror threat has changed. But Ranking Member 
Thompson is also correct that to defeat this threat we need 
more than kinetic force. Playing Whac-A-Mole, which we have 
done pretty well and which we should continue to do in some 
parts of the world using drones and other activities, will 
eliminate individuals, but it won't defeat the threat. We 
really in the end have to win the argument.
    That is why a whole-of-Government approach is so important. 
That approach is embraced by our Defense Department, oh, by the 
way, which has done some of this as a Defense Deferment, by our 
State Department, by public-private partnerships, by NGOs, and 
by many both in this body and around the world. We need, in 
addition to applying these strategies, to project an American 
narrative, and I think all of us agree on that, that explains 
what we are doing, why we are doing it, and persuades some kid 
in the boonies of Yemen not to strap on a suicide vest but 
rather to hopefully join a productive economy in his country, 
go to a school that doesn't teach extremism in the guise of 
having people memorize the Koran but teaches reasonable 
subjects in a truly dispassionate way. We have to help build 
those schools, by the way, and we have to make sure that girls 
get to go to them.
    So I have a long statement here, but I want to now turn my 
focus, because I remember the 5-minute rule and I am about to 
exceed it, as did my buddy here, on two things that I think are 
the more immediate threats to the homeland, and they relate to 
terror, obviously, but I don't want us to lose sight as we are 
thinking about foreign terror organizations.
    One of them is home-grown terror, something this committee 
has focused on extensively. Since 9/11, there have been almost 
400 home-grown terrorists indicted on terror-related charges or 
killed before they could be indicted in this country. Lone 
wolves are a big part of this problem. This committee has 
studied--I know this because I was involved in it--how people 
who have radical beliefs, which are protected under our 
Constitution, then transition to wanting to be engaged in 
violent acts which are not protected. We passed legislation a 
couple of times, which unfortunately died in the Senate. But it 
is a huge issue, and we have to look at it in our country. Then 
we have to look at these disaffected Americans being recruited 
for attacks abroad by al-Shabaab, by groups in Syria, et 
cetera, all of which has been recently in the press.
    But the other issue that is a huge imminent problem, and 
you and I were just talking about this, Mr. Chairman, is cyber 
terror. It is absolutely imperative that Congress pull together 
to pass legislation that gives our Government the tools to work 
with private industry, which is a huge partner in this, on 
solving this problem. Congress has been, alas, extremely 
partisan; there have been all kinds of problems why bills 
haven't passed. I know that Senator Lieberman and my dear 
friend Senator Collins had a bill in the Senate that they 
couldn't move. You just told me that there may be some chance 
of moving a bill here. I hope so, Godspeed, because we are way 
behind the curve in understanding, responding to, adapting to, 
and preventing cyber intrusions, especially in the private 
sector. Sadly, the leaks by Edward Snowden have given some of 
our tool kit to bad guys, our technical tool kit, and I think 
this is pernicious.
    So in conclusion, the threats today are different. They are 
on a smaller scale, but they are very serious and we have to 
keep focused on it. We need a narrative and a whole-of-
Government approach as much as or more than we need a kinetic 
approach, in my view. But endless partisanship is a huge 
obstacle to progress, and I urge this committee, in true 
Homeland Security Committee fashion, to pull together and do 
the right things about cyber terror, home-grown terror, and 
helping us make the wise decisions about a U.S. international 
role. Thank you, Mr. Chairman.
    [The prepared statement of Ms. Harman follows:]

                   Prepared Statement of Jane Harman
                            January 15, 2014

    I've always said that terrorists won't stop to check our party 
registration before they blow us up. One of the hallmarks of my 
relationship with Chairman Michael McCaul was that we worked closely 
together to solve problems--we didn't let politics get in the way.
    I'd like to make three basic points:
    1. I watched closely for many years as al-Qaeda and associated 
terror groups changed. While the U.S. Government does not do a perfect 
job explaining the evolution, we are addressing new threats and in my 
own view making progress. A promising development is the indigenous 
push-back against the Islamic State of Iraq and Syria--or ISIS--in 
Syria. This is reminiscent of the Arab Awakening in Anbar, and might 
unify the Syrian opposition.
    The problem with the U.S. narrative is not that we are underplaying 
the terror threat. We are inadequately explaining our agenda to people 
in the United States--and in the region. If we leave a vacuum, the bad 
guys fill it with their narrative.
    2. Secretary John Kerry's efforts to negotiate peace in the Middle 
East and a nuclear deal with Iran are heroic and if successful will 
have a major impact on stability and security in the region. They will 
also ``reset'' how the United States is viewed.
    3. Since 9/11, there have been almost 400 home-grown terrorists 
indicted on terror-related charges or killed before they could be 
indicted. The biggest threats to the U.S. homeland are home-grown, 
lone-wolf terror attacks and cyber-terror attacks.
    a. Lone wolves
    <bullet> Radicalization is an individualized process and the 
            vulnerable come from varied backgrounds. Recent reports 
            that Syrian extremist groups are recruiting for U.S. 
            attacks are extremely concerning. (See my LA Times op-ed 
            dated January 6, 2014).
    <bullet> Reverse recruitment is also happening, like al-Shabaab in 
            Minnesota.
    b. Cyber terror
    <bullet> We are way behind the curve in understanding, responding 
            to, adapting to, and preventing cyber intrusions--
            especially in the private sector. We're just starting to 
            protect better our physical computer systems. But we've 
            barely touched security for mobile devices.
    <bullet> Snowden leaks have compromised a lot of our technical 
            ability. Some, like former Department of Homeland Security 
            Assistant Secretary for Policy Stewart Baker, suggest that 
            there are many countries that may have used the leaks to 
            bolster their own capabilities. That means we lose the 
            competitive edge.
    <bullet> Most terror groups or lone wolves don't have advanced 
            technical capability yet. But they learned quickly how to 
            use the internet to radicalize, recruit, and fundraise; why 
            wouldn't they learn how to launch attacks that way?
    <bullet> It's not hard to buy exploits and find someone with the 
            expertise to deploy them.
    <bullet> So we have an opportunity now to harden our critical 
            infrastructure. The President's Executive Order is a good 
            start. But legislation is essential to compel industry to 
            share threat data--not personal information about 
            individuals--with the Department of Homeland Security and 
            provide appropriate immunity when it does.
    <bullet> H.R. 624, the Cyber Intelligence Sharing and Protection 
            Act, (Rep. Mike Rogers) has passed the House. H.R. 756, the 
            Cybersecurity Enhancement Act, (Rep. Mike McCaul) has 
            passed the House. The Senate approach is different and 
            progress is urgently needed.
    <bullet> Spillover from the Snowden leaks has meant that businesses 
            are even more reluctant to cooperate. We need more brain 
            cells on this problem because it is the key to preventing a 
            catastrophic attack.
    So, what to do? Just as we've layered security across ports and 
transportation systems, we need to do the same in the cyber world. The 
SAFE Ports Act, a product of the House Homeland Security Committee 
(Lungren/Harman) in 2006, could be a model--leaving the more 
controversial pieces for stand-alone legislation.

                               CONCLUSION

    1. Threats today are different and on a smaller scale. Al-Qaeda in 
the Arabian Peninsula describes this shift in its English-language on-
line magazine Inspire as a ``strategy of a thousand cuts.'' And they 
aren't expensive: ``Operation Hemorrhage''--AQAP's printer-cartridge 
bombing attempt--cost less than $5,000.
    2. We need a narrative and whole-of-Government approach more than 
kinetics.
    3. But partisanship is a huge obstacle to progress.

    Chairman McCaul. Thank you, Jane Harman. It is great to see 
you again.
    Let me just say that today actually Congressman Pat Meehan 
and Yvette Clarke will be marking up our cybersecurity bill at 
the subcommittee level. I have enjoyed a good relationship with 
the Ranking Member, as you said, in the spirit of 
bipartisanship on this committee. I believe it will be passed, 
hopefully unanimously, just as the border security bill was 
passed unanimously out of this committee. I think when it comes 
to National security, as you say, they don't check our party 
affiliation, and we should be working together when it comes to 
National security. So thank you for that comment.
    Next, the Chairman now recognizes General Keane for his 
testimony.

STATEMENT OF GENERAL JOHN M. KEANE, (RET. U.S. ARMY), CHAIRMAN 
          OF THE BOARD, INSTITUTE FOR THE STUDY OF WAR

    General Keane. Good morning, Mr. Chairman, Ranking 
Minority, and distinguished Members of the committee. Thank you 
for inviting me to testify today on an important subject 
concerning the security of American people. I am honored to 
share this panel with three distinguished colleagues, 
particularly two friends, Senator Joe Lieberman and 
Congresswoman Jane Harman. Let me just say that they are both 
great American patriots, and I want to thank them publicly for 
their many years of devoted and selfless service to this great 
country.
    You have asked to us consider the President's speech in May 
at the National Defense University as a basis for our 
commentary on the security of the United States and the 
American people. It is true that bin Laden is dead, there have 
been no major attacks on the homeland, and fewer troops are in 
harm's way. But it is not true that our alliances are stronger. 
Indeed, they are weaker because our allies are fundamentally 
questioning the will of the United States. Many allies believe 
the United States will not be there for them in a time of 
peril, and sadly some recent polling are indicating that the 
United States' standing in the world is at its lowest since 
prior to World War II.
    How could this happen? Is this because of the protracted 
wars in Iraq and Afghanistan? Is it the U.S. backing of Israel 
and our inability to resolve the Israeli-Palestinian dispute? 
Absolutely not, in my judgment. It is because of American 
leadership. When American leadership is strong in the world, 
the world is a safer place. When American leadership is 
inconsistent, indecisive, and we are willing to permit others 
to lead who do not have the capacity, or when we are paralyzed 
by the fear of adverse consequence, then American leadership is 
weak and the world is a more dangerous place. As such, our 
adversaries are emboldened, they become more aggressive, they 
take more risk. The results are more death, more casualties, 
and the security of the American people is threatened. 
Tragically, this is where we are today.
    Despite our success in denying sanctuary and driving the 
al-Qaeda from Afghanistan to Pakistan, defeating the al-Qaeda 
in Iraq, while also killing Osama bin Laden and many al-Qaeda 
leaders, the harsh reality is that radical Islam, the al-Qaeda 
and its affiliates, represent an ambitious political movement 
with a committed ideology. It is on the rise, and the evidence 
is overwhelming.
    The al-Qaeda are quickly taking control of western Iraq, 
while they have seized control of northern Syria. The border is 
nonexistent, and today there is a bona fide sanctuary from 
which operations can be conducted against our allies in the 
region, specifically Jordan. The radical Islamists were not the 
catalysts for the revolutionary change that swept over the 
Middle East 3-plus years ago, but they see geopolitical change 
as opportunity to gain influence, and as such control territory 
and people. This is happening in Syria, Libya, Yemen, Tunisia, 
and Mali, while al-Qaeda affiliates are exerting pressure in 
Somalia and Kenya.
    Because of the failure, in my view, of American leadership, 
the term ``radical Islam'' or ``Islam extremism'' is not 
mentioned in U.S. policy, which is quite astounding. 
Furthermore, 12 years after 9/11 we still have no comprehensive 
strategy to defeat radical Islam or al-Qaeda. We do not even 
have a military strategy. We use drones to kill al-Qaeda 
leadership in Pakistan and Yemen, as we should, but that is not 
a military strategy, it is a tactic and an instrument of war. 
It has limitations also because leaders are replaced quickly in 
an ideological movement and the mission goes on.
    Contrast this current reality with our strategy and 
policies in the 20th Century when the United States was 
involved in another struggle, another ideological struggle, 
communism. We fashioned a grand strategy, we organized major 
alliances in Europe and Southeast Asia, in NATO and SEATO, to 
contain it by agreeing on a common political goal, as well as 
sharing intelligence, training, doctrine, equipment, and 
tactics. We encouraged some of our best universities to study 
the subject--whole departments grew up around the subject as a 
matter of fact--and think tanks like my colleague's, RAND and 
others, were initiated because of the challenge of communism.
    After all, ideas in an ideological struggle truly matter. 
To understand our adversaries' ideas, their history of 
development, their weaknesses and strengths, and to challenge 
our own ideas against them is fundamental to defining and 
understanding our enemy. Today there is no such strategy. We 
have no formal alliances to partner politically, 
intellectually, and militarily against them. This is not about 
our troops fighting against the radicals world-wide, but 
assisting our allies so their troops can do it only when it is 
necessary.
    I agree with Congresswoman Harman. This is a whole-of-
Government approach, and it is largely nonkinetic. The radical 
Islamists understand us better than we do them. As such, they 
fear our ideas, democracy, and capitalism. The advancement of 
these ideas in the region is a major threat to radical 
Islamists because it makes it all the more difficult to bend 
the people's will and force surrender.
    This is why the Arab Spring is such a threat to them. No 
one was demonstrating in the streets for radical Islam and 
jihad to achieve a better life. The people in the streets were 
looking at what the United States and the West has to help 
change their lives, political and social justice, economic 
opportunity. That is, democracy and capitalism. Therefore, the 
radicals are all in to influence the outcome that is so 
uncertain and unpredictable. On the contrary, ask any of our 
friends in the region about U.S. policy in the Middle East and 
the two most frequent descriptions are ``disengagement'' and 
``retreat.''
    No one can say with certainty, depending on open sources, 
that any one of these al-Qaeda hot spots that we have mentioned 
is a direct threat against the people of the United States. But 
this much we can say, that when we permit sanctuary and 
uninterrupted recruiting, training, planning, and equipping, as 
the al-Qaeda was able to do for almost 10 years prior to 9/11, 
then the risk to U.S. interests and the security of the 
American people is exponentially higher. After all, what makes 
this movement the most threatening we have ever faced is their 
stated and unequivocal desire to use WMD against the people of 
the United States.
    Unchecked, radical Islam, an ambitious political movement, 
is in an ideological struggle with the United States and its 
allies that will dominate most of the 21st Century. We lost 
3,000 Americans on our land and now almost 7,000 troops in 
foreign lands as we attempt to defeat it and our people and our 
way of life. We desperately need strong American leadership to 
define radical Islam for what it is, to fashion a comprehensive 
strategy, and to partner effectively with our allies to defeat 
it. We have a long way to go.
    Thank you, and I look forward to your questions.
    [The prepared statement of General Keane follows:]

                  Prepared Statement of John M. Keane
                            January 15, 2014

    Mr. Chairman, Ranking Minority, and distinguished Members of the 
committee, thank you for inviting me to testify today on such an 
important subject concerning the security of the American people. I am 
honored to share this panel with my distinguished colleagues and 
friends Senator Joe Lieberman and Congresswoman Jane Harman. They are 
both great American patriots and thank you so much for your many years 
of devoted and selfless service to the Nation.
    You have asked us to consider the President's speech in May at NDU 
as a basis for our commentary on the security of the United States and 
the American people. It is true, that bin Laden is dead, there have 
been no major attacks on the homeland and fewer troops are in harm's 
way. But it is not true that our alliances are stronger, indeed, they 
are weaker because our allies are fundamentally questioning the 
``will'' of the United States; many allies believe the United States 
will not be there for them in a time of peril and, sadly, U.S. standing 
in the world is at its lowest since prior to WWII. How could this 
happen? Is this because of the protracted wars in Iraq and Afghanistan, 
the U.S. backing of Israel and our inability to resolve the Israeli/
Palestinian dispute? Absolutely not. This is because of American 
leadership. When American leadership is strong in the world, the world 
is a safer place. And when American leadership is inconsistent, 
indecisive, and we are willing to permit others to lead who do not have 
the capacity or when we are paralyzed by the fear of adverse 
consequence, then American leadership is weak and the world is a more 
dangerous place. As such, our adversaries are emboldened, they become 
more aggressive, they take more risks and the results are more death, 
more casualties, and the security of the American people is threatened. 
Tragically, this is where we are today.
    It is undeniable that since 9/11 the United States has been at war 
with Radical Islam and, specifically, the al-Qaeda and its affiliates. 
This is a very ambitious political movement designed to control 
territory and people by first establishing a caliphate in Muslim lands 
and eventually seeking world domination. It is an ideology drawing 
extremist ideas from radical theologians and philosophers from the 14th 
Century on, yet grounded in Islam, which is its belief system. Jihad is 
the means to gain control using death and fear to force capitulation.
    Despite our success in denying sanctuary and driving the al-Qaeda 
from Afghanistan to Pakistan, defeating the al-Qaeda in Iraq (which 
they openly admitted), while also killing UBL and many al-Qaeda 
leaders, the harsh reality is that Radical Islam and the al-Qaeda 
affiliates are on the rise and the evidence is overwhelming.
  <bullet> After the strategic blunder of leaving no residual force in 
        Iraq (and immunity for U.S. troops was a false issue) equally 
        damaging, was distancing ourselves from a long-term strategic 
        partnership between the United States and Iraq, leaving the al-
        Qaeda to have re-emerged and the level of violence today is as 
        high as it was in 2008 and destined to get higher. The al-Qaeda 
        are quickly taking control of western Iraq while they have 
        seized control of northern Syria. The border between Syria and 
        Iraq from a Radical Islamist perspective is non-existent and 
        today there is a bona fide sanctuary from where operations can 
        be conducted against our allies in the region, specifically, 
        Jordan and other U.S. interests in the region.
  <bullet> The radical Islamists were not the catalyst for the 
        revolutionary change that swept over the Middle East 3-plus 
        years ago, but they see geo-political change as an opportunity 
        to gain influence and, as such, control territory and people. 
        This is happening in Syria, Libya, Yemen, Tunisia, and Mali, 
        while al-Qaeda affiliates are exerting pressure in Somalia and 
        Kenya. In Egypt the Muslim Brotherhood won an election but 
        failed their people when they attempted to impose an Islamist 
        state on a secular nation.
  <bullet> If we make the same mistakes in Afghanistan that we did in 
        Iraq and pull the plug on support for the Afghans then the 
        Taliban will truly threaten the regime and the al-Qaeda 
        leadership will return to their most desirable sanctuary, the 
        mountains of Afghanistan.
    Because of the failure of American leadership the term Radical 
Islam or Islamic extremism is not mentioned in U.S. policy which is 
quite astounding. The great military strategists, Clausewitz and Sun 
Tzu, indicated that a major tenet in defeating an adversary is to 
define that enemy and equally important the nature and character of the 
kind of war they are waging. Furthermore, after 12 years of war, we 
have no comprehensive strategy to defeat Radical Islam or the al-Qaeda. 
We do not even have a military strategy other than counter insurgency 
in Iraq and Afghanistan. We use drones to kill al-Qaeda leadership in 
Pakistan and Yemen, but that is not a military strategy it is a tactic 
and an instrument of war. And it has limitations because leaders are 
replaced quickly in an ideological movement and the mission goes on. 
Contrast this current reality with our strategy and policies in the 
20th Century when the United States was involved in another ideological 
struggle, Communism. We fashioned a grand strategy, we organized major 
alliances in Europe and Southeast Asia in NATO and SEATO to contain it 
by agreeing on a common political goal as well as sharing intelligence, 
training, doctrine, equipment, and tactics. We encouraged some of our 
best universities to study the subject and think tanks like Rand and 
others were initiated because of the challenge of Communism. After all, 
ideas in an ideological struggle truly matter--to understand our 
adversaries' ideas, their history of development, their weaknesses and 
strengths and to challenge our own ideas against them is fundamental to 
defining and understanding our enemy.
    As stated, we have no strategy to defeat Radical Islam, we have no 
formal alliances to partner politically and militarily against them. 
This is not about our troops fighting against the radicals world-wide 
but assisting our allies so their troops can do it effectively, only, 
when necessary. I have been speaking on college campuses every year 
since 9/11 and I can assure you there are no departments at our great 
universities devoted to understanding this ideological struggle with 
Radical Islam, quite the contrary, if an academic pursues this line of 
scholarship it is often denigrated as not worthy of serious study.
    The radical islamists understand us better than we do them. To 
illustrate, their initial strategic goal is to dominate and control 
Muslim lands. To accomplish this, their stated objective is to drive 
the United States out of this land, which is what 9/11 was about. But 
the reason is not the obvious one, U.S. military presence, which they 
do not fear and know they can harm but cannot defeat. Instead they do 
fear our ideas, democracy and capitalism. The advancement of these 
ideas in the region is a major threat to the Radical Islamists because 
it makes it all the more difficult to bend the people's will and force 
surrender. This is why the so called Arab Spring is such a threat to 
them. No one was demonstrating in the streets for Radical Islam and 
Jihad to help them achieve a better life. The drivers of the 
instability in this revolutionary change is political and social 
injustice and the lack of economic opportunity. The people in the 
streets are looking at what the United States and the West has to 
change their lives, democracy and capitalism. Therefore, the radicals 
are ``all in'' to influence the outcome that is so uncertain and 
unpredictable. On the contrary, ask any of our friends in the region 
about U.S. policy in the Middle East and the two most stated 
descriptions are ``disengagement'' and ``retreat''. The so-called 
``pivot'' to the East with the emergence of China is camouflage for an 
unstated policy to disengage from the Middle East and, at all costs, to 
avoid the potential of another Middle East war. No one can say with 
certainty, depending on open sources, that any one of these al-Qaeda 
hot spots in the world is a direct threat against the people of the 
United States. But this much we can say, that when we permit sanctuary 
and uninterrupted recruiting, training, planning, and equipping as the 
al-Qaeda was able to do for almost 10 years prior to 9/11, then the 
risk to regional U.S. interests and the security of the American people 
is exponentially higher. After all, what makes this movement the most 
threatening we have ever faced is their stated objectives to use WMD 
against the people of the United States.
    Unchecked, Radical Islam is an ideological struggle with the United 
States and its allies that will dominate most of the 21st Century. We 
lost 3,000 American citizens on our land and almost 7,000 troops in 
foreign lands as we attempt to defeat it and protect our people and our 
way of life.
    We desperately need strong American leadership to define Radical 
Islam for what it is, to fashion a comprehensive strategy, and to 
partner effectively with our allies to defeat it. We have a long way to 
go.
    Thank you and I look forward to your questions.

    Chairman McCaul. Thank you, General.
    I certainly agree, it is a war of ideology, that drone 
strikes have been effective, but I don't think alone they can 
kill an ideology and a movement. That is the great challenge we 
have today.
    The Chairman now recognizes Dr. Jones for his testimony.

 STATEMENT OF SETH G. JONES, ASSOCIATE DIRECTOR, INTERNATIONAL 
    SECURITY AND DEFENSE POLICY CENTER, THE RAND CORPORATION

    Mr. Jones. Thank you, Chairman McCaul, Ranking Member 
Thompson, Members of the committee.
    There are obviously a range of perspectives on al-Qaeda and 
the threat to the United States from Islamic extremists. My own 
view and those noted both in my written testimony and oral 
testimony are informed by on-going work, my own work on this 
subject, including a forthcoming report on this, work that I am 
overseeing, and then my past service within U.S. Special 
Operations, and particularly visits recently, including to 
those same units overseas, especially Afghanistan, which I will 
come back to.
    The argument that I will make here in my oral remarks will 
be several-fold. One is, while al-Qaeda and the broader 
movement has become decentralized, I think the data is 
important. What we have seen in running the numbers is an 
increase--an increase, a notable increase--in the number of 
what I will call Salafi-jihadist groups over the past several 
years, particularly since 2010, and especially in North Africa, 
in the Levant, Syria, Lebanon, and I am going to include the 
Sinai there.
    Second, there has been an increase--again, an increase--in 
the number of attacks perpetrated by these organizations, and 
as part of that an increase in the casualties and fatalities 
that have come out of that. Now, while this trend is troubling 
in one sense, it is worth noting that not all of these groups 
are plotting attacks against the U.S. homeland and its 
interests overseas. So as I will come back to in a moment, I 
think it is worth highlighting which of these groups presents 
the most serious threat.
    But I do want to note on the verge of the Sochi Olympics 
that we have multiple groups in the North Caucasus and in 
Central Asia that do present a threat to American citizens 
traveling to this area, to our athletes traveling to Sochi. So 
this threat obviously impacts us not just in our infrastructure 
overseas, like embassies, our homeland, but also major events 
like the Olympics.
    I won't rehash the structure of this organization because 
my colleagues here have noted that, but I do want to highlight 
the fact that the biggest increase in what some have called the 
al-Qaeda movement has been in the organizations that aren't 
sworn affiliates, that is, they don't pledge allegiance to 
Ayman al-Zawahiri, the emir, but who have a very similar 
Salafi-jihadist world view, who would like to establish an 
Islamic emirate in areas they control. In particular, we have 
seen that increase in groups operating in North Africa and the 
Levant.
    I will come back to the threat posed by those groups in a 
moment, but let me just shift to Afghanistan, where I visited 
not that long ago and where I have noted very serious concerns 
among U.S. military and intelligence units operating in these 
areas, that we have worked for a long time against groups 
operating in those areas. There is still a notable presence of 
those groups along a very porous border, both Afghanistan and 
Pakistan. We have tried for the last several years to kill or 
capture the emir of al-Qaeda in northeastern Afghanistan, Faruq 
al-Qatari, with limited success--no success, in fact. He has 
not been captured or killed.
    I would just ask a rhetorical question that as we pull out 
our forces, close down our bases, and potentially even exit, 
will it be easier or harder to continue to target these 
individuals? I don't mean just with forces, but I mean 
collecting information, intelligence, on these individuals 
operating in this area. The answer is straightforward: It will 
be much more difficult.
    I would say also that we have a number of groups that have 
plotted attacks against the U.S. homeland, this includes al-
Qaeda, the Tehrik-e Taliban Pakistan, this area, the Times 
Square bombers, U.S. forces and U.S. Government installations 
in the region, and U.S. citizens, to include other groups, like 
Lashkar-e-Taiba, the Mumbai attacks, and the Haqqani Network.
    Let me come just back briefly to this then what do these 
groups, what threat do they pose to the homeland? Again, in my 
view in looking at this problem set, the ones that pose the 
most significant threat at the moment to the homeland continue 
to be the group operating in Yemen, al-Qaeda in the Arabian 
Peninsula, and the inspired networks, like the Tsarnaev 
brothers that perpetrated the Boston bombings. But I would note 
that this was not just a home-grown plot. Both of the brothers 
listened extensively to al-Qaeda leaders, including the now-
deceased Anwar al-Awlaki. They specifically used al-Qaeda 
propaganda in their attacks in Boston, including from the 
Inspire magazine. So there was a connection, just happened to 
be on the internet to what we consider core al-Qaeda.
    We have got threats to U.S. embassies overseas from groups 
like al-Shabaab targeting plots, from Ansar al-Sharia in 
Tunisia, which has planned attacks against U.S. diplomats and 
infrastructure. We have got Americans, a growing number that 
has gone to Syria, Europeans that have gone to Syria. So again 
I would highlight that there is a very serious threat to U.S. 
infrastructure, citizens overseas. This is not just about 
homeland and this is definitely not just about the core al-
Qaeda.
    Let me just say in closing that we need a proactive policy. 
In my view, we have been reactive. We have now returned 
advisers and trainers into Somalia but we are reluctant to do 
that in Iraq. Trainers have been very useful on multiple 
levels. I think we did a phenomenal job during the Cold War of 
combatting Soviet Marxist-Leninist ideology. I think we have 
been very slow to develop a policy along those lines.
    Let me just end by saying, with the NSA debates we cannot 
lose our ability to monitor individuals that have linked up 
with websites that are radicalizing Americans like the Boston 
bombers. So whatever happens with this NSA discussion, we 
cannot lose our ability to monitor those websites. Thank you, 
Mr. Chairman.
    [The prepared statement of Mr. Jones follows:]

                Prepared Statement of Seth G. Jones \1\
---------------------------------------------------------------------------
    \1\ The opinions and conclusions expressed in this testimony are 
the author's alone and should not be interpreted as representing those 
of RAND or any of the sponsors of its research. This product is part of 
the RAND Corporation testimony series. RAND testimonies record 
testimony presented by RAND associates to Federal, State, or local 
legislative committees; Government-appointed commissions and panels; 
and private review and oversight bodies. The RAND Corporation is a non-
profit research organization providing objective analysis and effective 
solutions that address the challenges facing the public and private 
sectors around the world. RAND's publications do not necessarily 
reflect the opinions of its research clients and sponsors.
---------------------------------------------------------------------------
                            January 15, 2014
    Chairman McCaul, Ranking Member Thompson, and Members of the 
committee, thank you for inviting me to testify at this hearing, ``A 
False Narrative Endangers the Homeland.''\2\
---------------------------------------------------------------------------
    \2\ This testimony is available for free download at http://
www.rand.org/pubs/testimonies/CT403.html.
---------------------------------------------------------------------------
    There are a range of perspectives today on the threat to the United 
States from Islamic extremists. Some argue that al-Qaeda--especially 
core al-Qaeda--has been severely weakened, and there is no longer a 
major threat to the United States.\3\ Former CIA operations officer 
Marc Sageman concludes that ``al-Qaeda is no longer seen as an 
existential threat to the West.''\4\ Some contend that the most acute 
threat to the United States comes from home-grown terrorists.\5\ Others 
maintain that al-Qaeda is resilient and remains a serious threat to the 
United States.\6\ Finally, some claim that while the al-Qaeda 
organization established by Osama bin Laden is in decline, ``al-
Qaedism''--a decentralized amalgam of freelance extremist groups--is 
far from dead.\7\
---------------------------------------------------------------------------
    \3\ R. Clapper, Worldwide Threat Assessment of the U.S. 
Intelligence Community (Washington, DC: Office of the Director of 
National Intelligence, March 2013). Academic arguments include, for 
example, John Mueller and Mark G. Stewart, Terror, Security, and Money: 
Balancing the Risks, Benefits, and Costs of Homeland Security (New 
York: Oxford University Press, 2011).
    \4\ Marc Sageman, ``The Stagnation of Research on Terrorism,'' The 
Chronicle of Higher Education, April 30, 2013. See the response to 
Sageman by John Horgan and Jessica Stern, ``Terrorism Research Has Not 
Stagnated,'' The Chronicle of Higher Education, May 8, 2013.
    \5\ Sageman, ``The Stagnation of Research on Terrorism''; Sageman, 
Leaderless Jihad: Terror Networks in the Twenty-First Century 
(Philadelphia: University of Pennsylvania Press, 2008).
    \6\ Bruce Hoffman, ``Al Qaeda's Uncertain Future,'' Studies in 
Conflict and Terrorism, Vol. 36, 2013, pp. 635-653; Bruce Riedel, ``Al 
Qaeda is Back,'' The Daily Beast, July 26, 2013.
    \7\ Andrew Liepman and Philip Mudd, ``Al Qaeda is Down. Al Qaedism 
Isn't,'' CNN, January 6, 2014. Accessed on January 12, 2014 at http://
globalpublicsquare.blogs.cnn.com/2014/01/06/al-Qa'ida-is-down-al-
qaedism-isnt/.
---------------------------------------------------------------------------
    Which of these arguments is right? This testimony argues that while 
the al-Qaeda movement has become increasingly decentralized, there has 
been an increase in the number of Salafi-jihadist groups and followers 
over the past several years, particularly in North Africa and the 
Levant. Examples include groups operating in such countries as Tunisia, 
Algeria, Mali, Libya, Egypt (including the Sinai), Lebanon, and Syria. 
There has also been an increase in the number of attacks perpetrated by 
al-Qaeda and other Salafi-jihadist groups. While this trend is 
troubling, only some of these groups are currently targeting the U.S. 
homeland and its interests overseas like U.S. embassies and its 
citizens--a particular worry on the verge of the 2014 Sochi Winter 
Olympics. The most concerning are al-Qaeda in the Arabian Peninsula and 
inspired individuals like the 2013 Boston Marathon bombers, though the 
growing number of Western fighters traveling to Syria to fight against 
the Assad government presents a medium-term threat. These developments 
should cause serious concern among U.S. policymakers and, more broadly, 
the American population.
    The rest of this testimony is divided into four sections. The first 
examines the organizational structure and capabilities of al-Qaeda and 
other Salafi-jihadist groups. The second section explores reasons for 
the resurgence of Salafi-jihadists. The third outlines implications of 
the U.S. withdrawal from Afghanistan, an important component of this 
hearing. And the final section outlines threats to the U.S. homeland 
and U.S. interests overseas.

         THE ORGANIZATION AND CAPABILITIES OF SALAFI-JIHADISTS

    Al-Qaeda and the broader Salafi-jihadist movement have become more 
decentralized over time. The unfortunate tendency among some 
journalists and pundits to lump all Islamic terrorists as ``al-Qaeda'' 
has clouded this debate. Consequently, I will focus on al-Qaeda and 
other Salafi-jihadists. Used in this context, Salafi-jihadists refer to 
individuals and groups--including al-Qaeda--that meet two criteria. 
First, they emphasize the importance of returning to a ``pure'' Islam, 
that of the Salaf, the pious ancestors. Second, they believe that 
violent jihad is ``fard `ayn'' (a personal religious duty).\8\ Salafi-
jihadists consider violent jihad a permanent and individual duty.\9\ 
Many Salafists are opposed to armed jihad and advocate the da'wa or 
``call'' to Islam through proselytizing and preaching Islam. But 
Salafi-jihadists like al-Qaeda leader Ayman al-Zawahiri support both 
Salafism and armed jihad.\10\
---------------------------------------------------------------------------
    \8\ See, for example, bin Laden's fatwa published in the London 
newspaper ``Al-Quds al-`Arabi'' in February 1998, which noted that ``to 
kill Americans is a personal duty for all Muslims.'' The text can be 
found at: http://www.pbs.org/newshour/updates/military/jan-june98/
fatwa_1998.html.
    \9\ Gilles Kepel, Muslim Extremism in Egypt: The Prophet and the 
Pharaoh, translated by John Rothschild (Berkeley, CA: University of 
California Press, 1993); Olivier Roy, Globalized Islam: The Search for 
a New Ummah (New York: Columbia University Press, 2004), p. 41.
    \10\ On Salafi-jihadists, for example, Alain Grignard, ``La 
litterature politique du GIA, des origines a Djamal Zitoun--Esquisse 
d'une analyse,'' in F. Dassetto, ed., Facettes de l'Islam belge 
(Louvain-la-Neuve: Academia-Bruylant, 2001). Also see Assaf Moghadam, 
``The Salafi-Jihad as a Religious Ideology,'' CTC Sentinel, Vol. 1, No. 
3 (February 2008), pp. 14-16.
---------------------------------------------------------------------------
    Today, this movement is increasingly decentralized among four 
tiers: (1) Core al-Qaeda in Pakistan, led by Ayman al-Zawahiri; (2) a 
half-dozen formal affiliates that have sworn allegiance to core al-
Qaeda (located in Syria, Iraq, Somalia, Yemen, and North Africa); (3) a 
panoply of Salafi-jihadist groups that have not sworn allegiance to al-
Qaeda, but are committed to establishing an extremist Islamic emirate; 
and (4) inspired individuals and networks.
    1. Core al-Qaeda.--This tier includes the organization's leaders, 
most of whom are based in Pakistan. Al-Qaeda leaders refer to this 
broader area as Khurasan, a historical reference to the territory that 
included Persia, Central Asia, Afghanistan, and parts of northwestern 
Pakistan during the Umayyad and Abbasid caliphates.\11\ Core al-Qaeda 
is led by Ayman al-Zawahiri, but there are still a range of Americans 
in core al-Qaeda (such as Adam Gadahn) and operatives that have lived 
in America (such as Adnan el Shukrijumah). Al-Qaeda's senior leadership 
retains some oversight of the affiliates and, when necessary, may 
adjudicate disputes among affiliates or provide strategic guidance. But 
Zawahiri's challenges with the Islamic State of Iraq and al-Sham 
highlight core al-Qaeda's limitations in enforcing its judgments. 
Around July 2013, Zawahiri took an unprecedented step by appointing 
Nasir al-Wuhayshi, the emir of al-Qaeda in the Arabian Peninsula, as 
his deputy, elevating the importance of Yemen for core al-Qaeda.
---------------------------------------------------------------------------
    \11\ See, for example, letter from Ayman al-Zawahiri to Abu Bakr 
al-Baghdadi and Abu Muhammad al-Jawlani, May 2013.
---------------------------------------------------------------------------
    2. Affiliated Groups.--The next tier includes affiliated groups 
that have become formal branches of al-Qaeda. What distinguishes 
``affiliates'' from other types of Salafi-jihadist groups is the 
decision by their leaders to swear bay'at (allegiance) to al-Qaeda 
leaders in Pakistan. These organizations include Islamic State of Iraq 
and al-Sham (ISIS) based in Iraq, al-Qaeda in the Arabian Peninsula 
(AQAP) based in Yemen, al-Shabaab based in Somalia, al-Qaeda in the 
Islamic Maghreb (AQIM) based in Algeria and neighboring countries, and 
Jabhat al-Nusrah based in Syria. All of the groups became formal 
affiliates within the past decade: ISIS in 2004, initially as al-Qaeda 
in Iraq; AQIM in 2006; AQAP in 2009; al-Shabaab in 2012; and Jabhat al-
Nusrah in 2013 after breaking away from ISIS.\12\
---------------------------------------------------------------------------
    \12\ These dates refer to the year in which the affiliate publicly 
announced that their emirs had sworn bay'at to al-Qaeda central 
leaders.
---------------------------------------------------------------------------
    Figure 1 highlights the number of attacks by al-Qaeda core and 
affiliates since 1998. The data indicate a substantial rise in the 
number of attacks over time. Most of these attacks have occurred in 
``near enemy'' countries and against local targets. A further breakdown 
of the data shows that violence levels are highest in Yemen (from 
AQAP), Somalia (from al-Shabaab), Iraq (from ISIS), and Syria (from 
ISIS and Jabhat al-Nusrah). These attacks include a mixture of suicide 
attacks, complex attacks using multiple individuals and cells, 
assassinations, and various types of improvised explosive devices 
against local Government targets and civilians.
Figure 1.--Number of Attacks by al-Qaeda and Affiliates, 1998-2012 \13\
---------------------------------------------------------------------------
    \13\ Data are from the Global Terrorism Database at the University 
of Maryland's National Consortium for the Study of Terrorism and 
Responses to Terrorism (START). Accessed on January 12, 2014, at 
www.start.umd.edu/gtd/.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    In Yemen, for example, AQAP retains a sanctuary in several 
governorates, including in southern Hadramawt, Shabwah, and Abyan along 
the Gulf of Aden--as well as around such cities as Rada' (in Al Bayda' 
governorate), Sana'a (Sana'a), Wadi Abidah (Ma'rib), and Yatamah (Al 
Jawf). The group has demonstrated an ability to mount large-scale, 
mass-casualty attacks across Yemen, especially in southern Yemen. AQAP 
has also benefited from limited Yemeni government operations. Since 
mid-2012, President Abd Rabbuh Mansur Hadi has avoided major ground 
offensives in favor of airstrikes and small-scale raids against al-
Qaeda sanctuaries, perhaps to minimize government casualties. On 
September 30, 2013, for instance, al-Qaeda operatives overran the 
military's regional headquarters in Mukallah, Hadramawt governorate, 
killing at least 6. On September 20, al-Qaeda conducted a vehicle-borne 
improvised explosive device and small arms to attack military 
facilities in Shabwah Governorate, killing as many as 56 Yemeni 
security personnel. On December 5, al-Qaeda operatives launched a 
complex attack against the Yemeni Ministry of Defense complex in 
Sana'a, killing 40 Yemeni personnel and civilians, and wounding dozens 
more. They detonated a suicide vehicle bomb that breached a fence 
inside the compound, which allowed 6 or more militants to attack the 
military leadership hospital on the compound.\14\ And on January 2, 
2014, AQAP operatives were responsible for the assassination of a 
senior Yemeni security official in Aden. Most concerning, however, AQAP 
continues to plot attacks against the United States and American 
targets overseas.
---------------------------------------------------------------------------
    \14\ Al-Qaeda in the Arabian Peninsula's media arm, al-Malahim, 
released a Twitter statement on @shomokhalislam regarding the December 
5, 2013, and other attacks. See also HIS Jane's, Al Qa'ida in the 
Arabian Peninsula, December 2013, accessed Jane's World Insurgency and 
Terrorism database on December 19, 2013; ``Al Qa'ida Claims 
Responsibility Over DOD Attack,'' Yemen Post, December 7, 2013.
---------------------------------------------------------------------------
    3. Allied Groups.--Next are a series of allied Salafi-jihadist 
groups, whose leaders have not sworn bay'at to core al-Qaeda in 
Pakistan. This arrangement allows these Salafi-jihadist groups to 
remain independent and pursue their own goals, but to work with al-
Qaeda for specific operations or training purposes when their interests 
converge. There are a substantial number of allied Salafi-jihadist 
groups across Asia, the Middle East, Africa, and the Caucasus. Perhaps 
most concerning, there has been an increase in the number, size, and 
activity of Salafi-jihadist groups in two areas: North Africa and the 
Levant. Examples include the Mohammad Jamal Network (Egypt), Ansar Bayt 
al-Maqdis (Egypt), Mujahideen Shura Council (Egypt), Ansar al-Sharia 
Libya (Libya), al-Murabitun (Algeria and other countries), Ansar al-
Sharia Tunisia (Tunisia), Harakat Ansar al-Din (Mali), and Boko Haram 
(Nigeria).
    4. Inspired Individuals and Networks.--The last tier includes those 
with no direct contact to al-Qaeda central, but who are inspired by the 
al-Qaeda cause and outraged by perceived oppression of Muslims in 
Afghanistan, Chechnya, Palestinian territory, and other countries. They 
tend to be motivated by a hatred of the West and its allied regimes in 
the Middle East. Without direct support, these networks tend to be 
amateurish, though they can occasionally be lethal. Tamerlan Tsarnaev, 
the ringleader of the 2013 Boston Marathon bombings, was motivated by 
the extremist preaching of now-deceased al-Qaeda leader Anwar al-
Awlaki, among others. Tsarnaev and his brother also used al-Qaeda 
propaganda materials, including an article from Inspire magazine, to 
build the bombs.\15\ But many others were rudimentary and their half-
baked plots would have been difficult to execute.
---------------------------------------------------------------------------
    \15\  ``Make a Bomb in the Kitchen of Your Mom,'' Inspire, Issue 1, 
Summer 1431 (2010), pp. 31-40.
---------------------------------------------------------------------------
                           WHY A RESURGENCE?

    The rise in Salafi-jihadists groups has likely been caused by two 
factors. One is the growing weakness of governments across Africa and 
the Middle East, which has created an opportunity for Salafi-jihadist 
groups to secure a foothold. The logic is straightforward: Weak 
governments have difficulty establishing law and order, which permits 
militant groups and other sub-state actors to fill the vacuum.\16\
---------------------------------------------------------------------------
    \16\ Ann Hironaka, Neverending Wars: The International Community, 
Weak States, and the Perpetuation of Civil War (Cambridge, Mass.: 
Harvard University Press, 2005); James D. Fearon and David D. Laitin, 
``Ethnicity, Insurgency, and Civil War,'' American Political Science 
Review, Vol. 97, No. 1 (February 2003), pp. 75-90. On the importance of 
building institutions, see Roland Paris, At War's End: Building Peace 
After Civil Conflict (New York: Cambridge University Press, 2004).
---------------------------------------------------------------------------
    Governance, as used here, is defined as the set of institutions by 
which authority in a country is exercised.\17\ It includes the ability 
to establish law and order, effectively manage resources, and implement 
sound policies. A large body of quantitative evidence suggests that 
weak and ineffective governance is critical to the onset of sub-state 
actors--including insurgent and terrorist groups. One study, for 
example, analyzed 161 cases over a 54-year period and found that 
financially, organizationally, and politically weak central governments 
render insurgencies more feasible and attractive due to weak local 
policing or inept counterinsurgency practices.\18\ The reverse is also 
true: Strong governance decreases the probability of insurgency. In 
looking at 151 cases over a 54-year period, one study found that 
governance is critical to prevent insurgencies, arguing that success 
requires the ``provision of temporary security, the building of new 
institutions capable of resolving future conflicts peaceably, and an 
economy capable of offering civilian employment to former soldiers and 
material progress to future citizens.''\19\ In addition, governmental 
capacity is a negative and significant predictor of civil war, and 
between 1816 and 1997 ``effective bureaucratic and political systems 
reduced the rate of civil war activity.''\20\
---------------------------------------------------------------------------
    \17\ World Bank, Governance Matters 2006: Worldwide Governance 
Indicators (Washington, DC: World Bank, 2006), p. 2.
    \18\ Fearon and Laitin, ``Ethnicity, Insurgency, and Civil War,'' 
pp. 75-76.
    \19\ Michael W. Doyle and Nicholas Sambanis, Making War and 
Building Peace (Princeton, NJ: Princeton University Press, 2006), p. 5.
    \20\ Hironaka, Neverending Wars, p. 45.
---------------------------------------------------------------------------
    There are good reasons to believe that weak governance has 
contributed to the rise of Salafi-jihadist groups. Since 2010, a year 
before the Arab uprisings, there has been a significant weakening of 
governance across the Middle East and North Africa, according to World 
Bank data. Levels of political stability dropped by 17 percent from 
2010 to 2012, government effectiveness by 10 percent, rule of law by 6 
percent, and control of corruption by 6 percent across the Middle East 
and North Africa.\21\ Of particular concern, governance deteriorated in 
numerous countries that saw a rise in Salafi-jihadist groups. Take rule 
of law, which measures the extent to which agents have confidence in 
and abide by the rules of society, as well as the quality of contract 
enforcement, property rights, the police, and the courts, as well as 
the likelihood of crime and violence. Between 2010 and 2012, rule of 
law dropped by 21 percent in Egypt, 31 percent in Libya, 25 percent in 
Mali, 20 percent in Niger, 17 percent in Nigeria, 61 percent in Syria, 
and 39 percent in Yemen. To make matters worse, most of the countries 
had low levels of rule of law even before this drop.\22\ This decline 
appears to be, in part, a consequence of the uprisings.
---------------------------------------------------------------------------
    \21\ World Bank, Worldwide Governance Indicators Data Set. Accessed 
December 16, 2013.
    \22\ World Bank, Worldwide Governance Indicators Data Set. Accessed 
December 16, 2013.
---------------------------------------------------------------------------
    A second factor is the spread of Salafi-jihadist militant networks 
within the Middle East and Africa. The logic is that operatives who 
have spent time training at al-Qaeda and other Salafi-jihadist camps or 
fighting in countries such as Iraq, Afghanistan, and Libya have moved 
to new countries in North Africa and the Levant and established Salafi-
jihadist groups.
    Individuals that spend time at training camps generally establish 
trusted social relationships.\23\ Training camps provide a unique 
environment for terrorists to pray together, reinforcing their 
ideological views; share meals; train together in classrooms, at 
shooting ranges, and through physical conditioning; socialize with each 
other during breaks; and, after training is completed, sometimes fight 
together. Camps create and reinforce a shared religious identity and 
strategic culture dedicated to overthrowing infidel regimes.\24\ For 
example, Umar Farouk Abdulmutallab, who attempted to blow up an 
airplane landing in Detroit on Christmas day 2009, attended an al-Qaeda 
training camp in the Shabwah region of Yemen. There were over 2 dozen 
fighters who dug trenches, crawled through barbed wire, and practiced 
tactical movements such as clearing buildings. The daily routine at the 
training camp consisted of rising early, praying, reading the Qur'an, 
completing warm-up drills, and conducting tactical training. After 
lunch, the students completed additional tactical training drills and 
stayed in tents at night.\25\ The social interaction during daily 
routines experienced by individuals like Abdulmutallab creates a strong 
bond among operatives.
---------------------------------------------------------------------------
    \23\ Thomas Hegghammer, ``The Recruiter's Dilemma: Signaling and 
Rebel Recruitment Tactics,'' Journal of Peace Research, Vol. 50, No. 1 
(2012), pp. 3-16; Max Abrahms, ``What Terrorists Really Want: Terrorist 
Motives and Counterterrorism Strategy,'' International Security, Vol. 
32, No. 4 (Spring 2008), pp. 100-101.
    \24\ On identity and strategic culture see, for example, Alexander 
Wendt, Social Theory of International Politics (New York: Cambridge 
University Press, 1999); Peter J. Katzenstein, The Culture of National 
Security: Norms and Identity in World Politics (New York: Columbia 
University Press, 1996).
    \25\ See, for example, Umar Farouk Abdulmutallab Comments, Training 
Video of Abdulmutallab, Al Malahim Media Foundation (al-Qaeda in the 
Arabian Peninsula), Released in 2010.
---------------------------------------------------------------------------
    The syllabi in many of these camps include theoretical and 
practical courses on weapons and explosives.\26\ Individuals often 
study common religious texts in training camps, in addition to the 
Qu'ran and the hadiths.\27\ Testimonies of former fighters suggest the 
camps foster a culture obsessed with weaponry.\28\ Participants also 
engage in nasheeds, or battle hymns sung a capella during training and 
socializing. A similar component is poetry. Arab fighters in 
Afghanistan, Bosnia, Chechnya, and Iraq composed new poems and recited 
them in the camps. Veterans are often familiar with this material and 
share it during social gatherings. Another aspect of jihad culture is 
telling war stories from the time of the Prophet Muhammad and his 
immediate successors.\29\ In short, the socialization process in camps, 
and later on the battlefield, develops and strengthens social bonds.
---------------------------------------------------------------------------
    \26\ Rohan Gunaratna, ``The Terrorist Training Camps of al Qaida,'' 
in James JF Forest, ed., The Making of a Terrorist: Recruitment, 
Training and Root Causes (Westport, CT: Praeger, 2006), pp. 172-193.
    \27\ See, for example, the study of Sayyid Imam Abd al-Aziz al-
Sharif's works in al-Qaeda camps. Muhammad Hasan Khalil al-Hakim, 
``Jihad Revisions: Truths and Presuppositions,'' June 11, 2007, posted 
on a jihadist website.
    \28\ Omar Nasiri, Inside the Jihad: My Life with Al Qaeda 
(Cambridge, MA: Perseus, 2006). Also see the experiences of al-Qaeda 
operatives Jose Padilla and Najibullah Zazi. Declaration of Mr. Jeffrey 
N. Rapp, Director, Joint Intelligence Task Force for Combating 
Terrorism, submitted for the Court's consideration in the matter of 
Jose Padilla v. Commander C.T. Hanft, USN, Commander, Consolidated 
Naval Brig, Case Number 04-CV-2221-26AJ; United States of America v. 
Najibullah Zazi, United States District Court, Eastern District of New 
York, Docket No.: 09 CR 663 (S-1), Transcript of Criminal Cause for 
Pleading, February 22, 2010.
    \29\ Thomas Hegghammer, ``The Recruiter's Dilemma: Signalling and 
Rebel Recruitment Tactics,'' Journal of Peace Research, Vol. 50, No. 1 
(2012), pp. 3-16; Omar Nasiri, Inside the Jihad: My Life with Al Qaeda 
(Cambridge, MA: Perseus, 2006).
---------------------------------------------------------------------------
    While there is limited data on foreign fighter flows, there is some 
evidence that individuals from al-Qaeda and other Salafi-jihadist camps 
and battle fronts have migrated to the Middle East and North 
Africa.\30\ In Syria, for example, Jabhat al-Nusrah leaders, including 
Abu Mohammed al-Jawlani, were veterans of the Iraq war and members of 
al-Qaeda in Iraq. Mohktar Belmokhtar, the emir of Al-Murabitun, split 
off from al-Qaeda in the Islamic Maghreb in 2012 and had spent time in 
al-Qaeda training camps in Africa in the 1990s. In Egypt, Muhammad 
Jamal al-Kashif trained in Afghanistan in the late 1980s with al-Qaeda, 
where he learned to make bombs.\31\ In Tunisia, Ansar al-Sharia's 
leader, Sayfallah Ben Hassine, spent considerable time at training 
camps in Afghanistan in the late 1990s and early 2000s, where he 
apparently met Osama bin Laden and Ayman al-Zawahiri.\32\
---------------------------------------------------------------------------
    \30\ On the transnational movement of terrorists see, for example, 
Thomas Hegghammer, ``Should I Stay or Should I Go? Explaining Variation 
in Western Jihadists' Choice between Domestic and Foreign Fighting,'' 
American Political Science Review, Vol. 107, No. 1, February 2013, pp. 
1-15; Hegghammer, ``The Rise of Muslim Foreign Fighters: Islam and the 
Globalization of Jihad,'' International Security, Vol. 35, No. 3, 2011, 
pp. 53-94.
    \31\ United Nations, Security Council Al-Qaida Sanctions Committee 
Adds Two Entries to Its Sanctions List (New York: United Nations, 
October 2013). Available at: http://www.un.org/News/Press/docs/2013/
sc11154.doc.htm.
    \32\ U.S. Department of Defense, JTF-GTMO--CDR, MEMORANDUM FOR 
Commander, United States Southern Command, SUBJECT: Recommendation for 
Continued Detention Under DoD Control (CD) for Guantanamo Detainee, ISN 
US9TS-000510DP, September 15, 2008; U.S. Department of Defense, JTF-
GTMO-CDR, MEMORANDUM FOR Commander, United States Southern Command, 
SUBJECT: Recommendation for Continued Detention Under DoD Control (CD) 
for Guantanamo Detainee, ISN US9TS-000502DP, June 22, 2007; Haim Malka 
and William Lawrence, Jihadi-Salafism's Next Generation (Washington, 
DC: Center for Strategic and International Studies, October 2013).
---------------------------------------------------------------------------

          IMPLICATIONS OF THE U.S. WITHDRAWAL FROM AFGHANISTAN

    The downsizing and potential exit of U.S. forces from Afghanistan--
a focus of this hearing--could increase the terrorism problem from 
groups based in Pakistan, Afghanistan, and Central Asia. Al-Qaeda's 
global leadership is still located along the Afghanistan-Pakistan 
border, though it has been weakened by persistent U.S. strikes. A civil 
war or successful Taliban-led insurgency would likely allow al-Qaeda 
and other terrorist groups such as the Tehreek-e-Taliban Pakistan, 
Haqqani network, and Lashkar-e-Taiba to increase their presence in 
Afghanistan. Most of these groups have already expanded their presence 
in Afghanistan over the past several years and have attempted to 
conduct attacks either against the U.S. homeland (such as al-Qaeda and 
Tehreek-e-Taliban Pakistan), U.S. forces and U.S. Government 
installations in Afghanistan (such as the Taliban and Haqqani network), 
or U.S. citizens in the region (such as Lashkar-e-Taiba and al-Qaeda). 
Several Central Asian groups--such as the Islamic Movement of 
Uzbekistan (IMU), Islamic Jihad Union (IJU), and Jamaat Ansarullah 
(JA)--also could increase their presence in Afghanistan after the U.S. 
withdrawal.
    Al-Qaeda leaders likely believe the U.S. drawdown will allow them 
more freedom of movement in provinces such as Kunar and Nuristan. Al-
Qaeda's paramilitary commander and emir for northeastern Afghanistan, 
Faruq al-Qatari, is already attempting to expand al-Qaeda's footprint 
in the northeast.\33\ Since al-Qaeda currently lacks the legitimacy and 
power to establish a sanctuary in Afghanistan and Pakistan on its own, 
it has attempted to leverage the capabilities of local militant 
networks like the Haqqani network. This symbiotic arrangement provides 
al-Qaeda some operational flexibility to access existing resources.
---------------------------------------------------------------------------
    \33\ Author interview with Western government officials, 
Afghanistan, September 2013.
---------------------------------------------------------------------------
    A burgeoning war could also increase regional instability as India, 
Pakistan, Iran, and Russia support a mix of Afghan central government 
forces, substate militias, and insurgent groups. Pakistan, in 
particular, would likely experience increasing violence and refugee 
flows if the war in Afghanistan spills over its border, as it did in 
the 1980s and 1990s. Growing conflict and radicalization in Pakistan, 
in turn, raises concerns about the security of its nuclear 
stockpile.\34\ In short, a U.S. military departure from Afghanistan--if 
it were to happen--could foster a perception among some countries and 
organizations that the United States is not a reliable ally. Al-Qaeda 
and associated movements would likely view a withdrawal of U.S. 
military forces as their most important victory since the departure of 
Soviet forces from Afghanistan in 1989 and provide inspiration to core 
al-Qaeda, affiliated groups, allied groups, and inspired individuals 
and networks.
---------------------------------------------------------------------------
    \34\ Author interviews with Pakistan officials, Washington, 
September 2013.
---------------------------------------------------------------------------
                    THE THREAT TO THE UNITED STATES

    Not all Salafi-jihadist groups present a direct threat to the U.S. 
homeland. In the near term, al-Qaeda in the Arabian Peninsula likely 
presents the most immediate threat, along with inspired individuals and 
networks like the Tsarnaev brothers that perpetrated the April 2013 
Boston Marathon bombings. The growth in social media and the terrorist 
use of chat rooms, Facebook, Twitter, YouTube, and other sites has 
facilitated radicalization inside the United States. While al-Qaeda 
leaders did not organize the Boston attacks, they played a key role by 
making available the propaganda material and bomb-making instructions 
utilized by the Tsarnaevs.
    Other affiliates do not appear to pose an immediate threat to the 
U.S. homeland. Al-Qaeda in the Islamic Maghreb is focused on 
overthrowing regimes in North Africa, including Algeria. Al-Shabaab's 
objectives are largely parochial, and it has conducted attacks in 
Somalia and the region. But al-Shabaab possesses a competent external 
operations capability to strike targets outside of Somalia. The 
Westgate Mall attack was well-planned and well-executed, and involved 
sophisticated intelligence collection, surveillance, and reconnaissance 
of the target. These skills could be used for other types of attacks 
directly targeting the United States and its citizens. In addition, 
Americans from cities like Phoenix and Minneapolis have traveled to 
Somalia over the past several years to fight with al-Shabaab. Between 
2007 and 2010, more than 40 Americans joined al-Shabaab, making the 
United States a primary exporter of Western fighters to the al-Qaeda-
affiliated group.\35\ And the Islamic State of Iraq and al-Sham, along 
with Jahbat al-Nusrah, are primarily interested in establishing Islamic 
emirates in Iraq, Syria, and the broader region.
---------------------------------------------------------------------------
    \35\ Committee on Homeland Security, Al-Shabaab: Recruitment and 
Radicalization Within the Muslim American Community and the Threat to 
the Homeland, Majority Investigative Report (Washington, DC: U.S. House 
of Representatives, July 27, 2011), p. 2.
---------------------------------------------------------------------------
    Still, several Salafi-jihadist groups pose a threat to the United 
States overseas. Ansar al-Sharia in Tunisia, for instance, has planned 
attacks against U.S. diplomats and infrastructure in Tunis, including 
the U.S. embassy. Operatives from Ansar al-Sharia Libya, the Muhammad 
Jamal Network, and al-Qaeda in the Islamic Maghreb were involved in the 
2012 attack that killed U.S. Ambassador Christopher Stevens. Several 
Salafi-jihadist groups pose a threat to the forthcoming Sochi Winter 
Olympics, including Imirat Kavkaz based out of the North Caucasus and 
the Islamic Movement of Uzbekistan.
    Other groups, like Jabhat al-Nusrah, could be a long-term threat. 
Jabhat al-Nusrah's access to foreign fighters, external network in 
Europe and other areas, and bomb-making expertise suggest that it may 
already have the capability to plan and support attacks against the 
West. There appears to be a growing contingent of foreign fighters--
perhaps several thousand--traveling to Syria to fight in the war. A 
substantial portion of these fighters are coming from the region, 
including Jordan, Saudi Arabia, and Iraq. Some have come from Chechnya. 
Others have apparently come from Afghanistan and Pakistan. But a 
significant number also appear to be coming from the West, especially 
from Belgium, France, and Sweden. Extremists have traveled to Syria 
from other European countries. According to Spanish officials, for 
example, a network based in Spain and Morocco sent approximately 2 
dozen fighters to Jabhat al-Nusrah over the past year. It is unclear 
how many of these fighters have returned to the West, but some have 
apparently returned to Germany, Denmark, Spain, and Norway among 
others. In October 2012, authorities in Kosovo arrested the extremist 
Shurki Aliu, who had traveled from Syria to Kosovo and was involved in 
recruiting and providing material to Syrian opposition groups. A small 
number of Americans--perhaps less than a dozen--have apparently 
traveled to Syria to fight with the Syrian opposition.\36\
---------------------------------------------------------------------------
    \36\ Author interview with government officials from Europe and the 
Middle East, April and May 2013.
---------------------------------------------------------------------------
    It is currently unclear whether most of these fighters will remain 
in Syria over the long run, move to other war zones such as North 
Africa, or return to the West. And even if some return, it is uncertain 
whether they will become involved in terrorist plots, focus on 
recruiting and fundraising, or become disillusioned with terrorism. 
Still, foreign fighters have historically been agents of instability. 
They can affect the conflicts they join, as they did in post-2003 Iraq 
by promoting sectarian violence and indiscriminate tactics. Perhaps 
more important, foreign fighter mobilizations empower transnational 
terrorist groups such as al-Qaeda, because volunteering for war is the 
principal stepping-stone for individual involvement in more extreme 
forms of militancy. When Muslims in the West radicalize, they usually 
do not plot attacks in their home country right away, but travel to a 
war zone first. A majority of al-Qaeda operatives began their militant 
careers as war volunteers, and most transnational jihadi groups today 
are by-products of foreign fighter mobilizations.\37\
---------------------------------------------------------------------------
    \37\ Thomas Hegghammer, ``The Rise of Muslim Foreign Fighters: 
Islam and the Globalization of Jihad,'' International Security, Vol. 
35, No. 3, Winter 2010/11, pp. 53-94.
---------------------------------------------------------------------------
    Based on these developments, U.S. policymakers should be concerned 
about the number, size, and activity of al-Qaeda and other Salafi-
jihadist groups. Some of these groups pose a direct threat to the U.S. 
homeland, embassies, and citizens overseas, while others are currently 
targeting local regimes. Still, an effective U.S. strategy needs to 
begin with an honest assessment of the problem.

    Chairman McCaul. Thank you, Dr. Jones.
    I agree that, you know, as al-Qaeda does spread--in a 
different form, Jane, you are absolutely right, they have 
evolved--but as it spreads, as Peter Bergen said, al-Qaeda has 
the largest presence now in the Arab world in history. So, too, 
does the threat to the homeland. That is my concern as Chairman 
of Homeland Security. I would also submit that the Boston, 
particularly Tamerlan, was not only inspired over the internet, 
but he did travel to Dagestan. He got through some of our 
flags, unfortunately. We will be releasing our report later 
this month on the Boston bombings, which I think will document 
some of these influences he had while he was over there.
    General Keane, I would like to ask you my first question. 
In his new book, Secretary Gates wrote that under President 
Obama, the National security staff was, in his words, filled 
primarily by former Hill staffers, academics, and political 
operatives with little experience in managing large 
organizations, and that the National security staff became 
increasingly operational, resulting in micromanagement of 
military matters, a combination that has proven disastrous in 
the past. We have seen that in history.
    This political heavy-handedness and the President's 
statements about al-Qaeda being on the run are concerning to 
me. Do you believe the administration is downplaying the threat 
of al-Qaeda to further their political goal of claiming victory 
in the Middle East?
    General Keane. Well, in my view, there is no doubt that 
they are downplaying it. You know, certainly championing the 
success of killing bin Laden and many of its leaders. But the 
fact of the matter is, as we have all testified here, it is 
clearly on the rise. It clearly is a threat to us here in the 
homeland and to our interests in the region.
    Listen, this business of al-Qaeda becoming more 
decentralized is part of the plan. The al-Qaeda has always 
intended to take territory and gain control of people and to 
use affiliate groups in those countries as the start place, and 
then they bring foreign fighters to that scene. So what is 
being played out in front of us is part of their overall 
strategy.
    Now, we have severed the command and control of that 
strategy to a large degree where they do not maintain 
operational control over this because of the pressure we have 
put on them, and that is a good thing.
    Does that answer your question, Mr. Chairman? Okay.
    Chairman McCaul. Well, I think so. But again I think the 
al-Qaeda is on the run, this war on terror is over, I have 
personally experienced with the State Department and other 
agencies, traveling overseas, an attempt not to even use these 
words, to change the vernacular. Look, Jane, you know I am 
about as bipartisan as they come, but it concerns me that this 
language is taken out of the vernacular.
    General Keane. Well, I agree. Listen, I have had problems 
with the Bush administration in not educating the American 
people to what this movement is and keeping us posted on what 
our progress is against it. I challenged them for not having a 
comprehensive strategy to deal with this. It was taking 
sanctuary away in Afghanistan initially and then going after 
WMD in Iraq. But that is not a comprehensive strategy to defeat 
al-Qaeda, believe me.
    This administration doesn't have it either. But it is even 
worse because it has got its head in the sand about it. One, it 
will not call it for what it is, it will not describe what it 
is, and it is downplaying the success the movement is having as 
it takes advantage of the revolutionary change that is sweeping 
through the Middle East.
    Chairman McCaul. I think that goes to the point, you can't 
defeat an enemy you cannot define. I think the head-in-the-sand 
analogy is correct. I think, frankly, they just want to say it 
is over and let's move on to something else. I don't know.
    I do applaud the President with respect to bin Laden. I 
think that was a courageous effort, to go in with military 
forces and not just bomb the place, to prove to the world that 
bin Laden was killed. But I don't think that has solved the 
problem. It is not case closed anymore. This threat is growing 
throughout Northern Africa and the Middle East.
    Senator Lieberman, just last week the House Armed Services 
Committee declassified testimony after months of hearing, and 
General Carter Ham, AFRICOM commander during the attack, 
testified. He said: To me it started to become pretty clear 
quickly that this was certainly a terrorist attack and not just 
something sporadic. I believe Leon Panetta was a part of this 
as well. The response, though, was not that this was an al-
Qaeda attack, but blamed on some video and the protest over a 
video. What do you make of that?
    Mr. Lieberman. Well, a couple of things. The first is that 
it was obviously a terrorist attack by any generally-held 
definition of terrorism, which is the use of violence to 
achieve a political end or convey a political message. I mean, 
these are people who were attacking the U.S. consulate in 
Benghazi, and they obviously weren't there just to have a good 
time or because they didn't like that the consulate was there. 
They were there to make a statement against America, so it was 
classic terrorism.
    Why there was hesitancy to do that at the beginning--
frankly, even if it was in some way affected by the video, 
which I ended up concluding that if it was, it was only that 
the terrorist saw this as a moment of opportunity to strike--
still it was terrorism. It is not as if, if you were affected 
by an awful grotesque anti-Muslim video and your response to 
that is to attack the U.S. consulate in Benghazi and burn it 
down and kill the U.S. ambassador, that is not terrorism.
    The other thing I want to say, and this is based on an--
unfortunately quick, because the session was ending--
investigation that Senator Collins and I did of Benghazi in the 
last few months of 2012, one of the things we concluded--and I 
will say first for myself, I think some of the terrorists 
involved were either inspired or loosely connected to al-Qaeda, 
but a lot of them were indigenous and separate. Part of the 
problem, when you limit the enemy to al-Qaeda and affiliates 
and not to the broader category of violent Islamist extremists 
and terrorists is that you will miss part of the enemy, and 
part of our conclusion, Senator Collins and mine, was that we 
don't have adequate intelligence, at least we didn't at that 
point, on non-al-Qaeda clearly violent Islamist extremists.
    Incidentally, in the last month, Ansar al-Sharia, Benghazi, 
was finally put on the foreign terrorist organization list, 
bringing about many things, including, I am sure, increased 
intelligence oversight of those groups.
    Chairman McCaul. I agree with you. I think, you know, the 
distinction between core al-Qaeda, al-Qaeda, al-Qaeda 
affiliates, jihadists, I think they are all jihadists, and it 
is a movement that--that is a common thread, and the 
distinction without a difference, I think we need to be focused 
on the movement itself and not distinguish between all these 
different groups. They all stand for the same philosophy.
    So, I would be remiss if I didn't give my colleague Jane 
Harman, who may not agree with me on everything, the last word.
    Ms. Harman. Well, thank you, I appreciate that. I do think 
there was a terror attack in Benghazi, just to go over that 
point, and I do think we were underprepared. I recall that 
immediately afterwards Secretary--then-Secretary Hillary 
Clinton asked for a report and got 25 or 26 recommendations and 
implemented all of them. Hopefully, we will all learn the 
lessons of Benghazi, so that is point No. 1.
    No. 2, though, I sit on these various boards in this 
administration, and they are bipartisan boards. I participate 
in discussions about these subjects because I am passionately 
interested in this stuff, as you all know, and I don't think we 
are being reactive. I think there are a lot of brain cells on 
this, both in these boards and in the administration in various 
departments.
    I just came from 10 hours at the Defense Policy Board, and 
your old department, Jack, is all over this subject. Sure, 
maybe could be doing even better, but there was a discussion of 
South Asia that was pretty bone-chilling and a lot of people 
wanting to do a most effective job, but it does come back to 
something that General Keane said, which is whole-of-Government 
is a better approach to this than kinetics only.
    I would just suggest, with respect, Mr. Chairman, that 
calling all of these different groups al-Qaeda emboldens al-
Qaeda. That is something we don't want to do. If we can 
separate them and have strategies that take some of them out, 
which we do, not just with kinetics--I support the limited use 
of drones, but I also support other strategies--I think we will 
get farther.
    Just, finally, you know, the world is extremely dangerous, 
but viewing this set of threats as the only threats I don't 
think is going to help us get to a place where the United 
States can project our power, all of our power, our smart power 
in the way that we need to. Looking at failing states and how 
we can support them is a high priority. Helping a transition to 
democratic with a small ``d'' regimes is another high priority, 
and building modern world structures. Some of the structures we 
deal with are pretty antiquated. That can project the whole of 
the world against, for example, the possibility of a nuclear 
action between India and Pakistan--those are Government 
decisions probably, although possibly could be loose-nuke-
driven--it seems to me are also priority, so I just want to put 
this in a context.
    Chairman McCaul. Let me close by saying, I think--and you 
will probably disagree with me on this. There has been a bit of 
a failure of leadership globally. I think our enemies view us 
as weaker, and they test us as a result of that more because 
they do view it that way, and our traditional allies, quite 
frankly, there is a lot of confusion over, where do we stand? 
Are we standing with them or not? Are we going to take out--are 
they going to be the next enemy of the United States we take 
out and create more instability that we have seen in the Middle 
East, particularly after this so-called Arab Spring?
    With that, I now recognize the Ranking Member.
    Mr. Thompson. Thank you, Mr. Chairman.
    I don't think anyone on this committee, individually or all 
of us, want to do anything other than to keep Americans safe. I 
think how we approach keeping us safe is why we hold hearings 
like this, and we all have different approaches to keeping us 
safe. I think it is safe to assume that the collective of what 
I have heard today is really important. The difference of 
opinion is important. Somewhere between those differences is 
the security that we all are looking for. But a lot of us are 
faced, when we go to our districts, with an effort that has 
gone on a long time. People are becoming weary, not defeated 
but weary, and they say, why don't you do something to bring 
this to an end?
    If we had a magic wand, we could do that. So, listening to 
some of our constituents who talk about the 6,000 people who 
died and the enormous cost so far, and I will go--because I 
have heard it--what would you suggest as a response to those 
constituents going forward as to what Members of Congress or 
the House and the Senate should do to bring that to an end?
    I will start with you, Senator.
    Mr. Lieberman. Thanks, Congressman Thompson.
    That is a really important question. I am very glad you 
asked it because that is the reality, and I know that is what 
you face and probably Members of both parties face when they go 
home.
    So, here is the point at which--I mean, one first reaction 
I have, which won't really convince people, but it is an 
important one, and I will tell you that every time I went to a 
funeral of a soldier from Connecticut who was killed in Iraq or 
Afghanistan, I was amazed and moved by the families saying, 
please make sure that our son, daughter, husband, whatever, 
didn't die in vain. So, there is that element. I mean, if we 
just--we learned some lessons from Iraq and Afghanistan, but if 
we just walk away, we do risk saying to those families, whose 
family members gave their lives, because we ordered them to go 
there in our defense, that they did die in vain. I don't think 
we ever want that to happen.
    The second thing I am going to go back to and in some sense 
is I want to make this personal about President Obama. Put it 
in this context. President Obama ran for office in 2008 and 
again in 2012 with one of the basic themes, in addition to all 
the change in dealing with domestic problems, was that, that he 
was going to get us out of the wars we were in and not get us 
into additional wars around the world. You know, fair enough, 
but sometimes, the world doesn't cooperate with a Presidential 
narrative, and I think that is where we are in the countries 
that I have talked about--Iraq, Afghanistan, Syria, Libya--
which if we don't do something more than we are doing now, they 
are going to tip over.
    So, I say this personally. I am not here just to criticize 
what the Obama administration has done. In some sense I am here 
to appeal to the Obama administration, which after all, the 
President is going to be our President for 3 more years, and a 
lot that could be good or bad for our security can happen.
    I repeat: What is a lesson learned that is consistent with 
the message that the President, the policy that the President 
has adopted? We are not going to send tens of thousands of 
troops on the ground to any of these countries, but there is 
something in between that and just pulling out, and I think 
what we have all in different ways tried to argue today, both 
militarily and in other ways in terms of aid and support, we 
are--if we don't--and this is what I would say to the 
constituents--if we don't at least maintain a presence, we 
don't help the freedom fighters in Syria, the non-extremists 
anti-Assad people, if we don't build up the Lybian military to 
maintain order against the militias, if we don't make the kind 
of agreement and support the government in Iraq, then we are 
going to get attacked again. Same in--from Afghanistan, and 
then we are going to go back in there and have to spend even 
more and risk even more American lives.
    It is not an easy argument, particularly not in tough 
economic times, but--so I think, bottom line, we learn from 
Iraq and Afghanistan. It is not going to be hundreds of 
thousands of troops, but if we just turn away, we are going to 
suffer, and therefore, we need your support, Mr. and Mrs. 
Constituent, to help us do that.
    Ms. Harman. I can think--I can think of five things, some 
of which I have already mentioned, but I will tic them off.
    One, honor the service of those who followed orders and 
went to Iraq and Afghanistan: 6,000 died, they leave behind 
families; many came home, tens of thousands grievously wounded; 
many came home in decent shape. Honor their service. Make sure 
we have in place a welcome mat that includes all the benefits 
they are entitled to but also, hopefully, efforts to build good 
jobs for them. The unemployment rate among returning vets is 
disproportionate to the unemployment rate of others.
    Second, engage in a whole-of-Government approach to solve 
this problem. We have discussed that at length. I won't go into 
it again.
    Third, continue the counterterrorism mission in not just 
the greater Middle East but around the world. The United States 
has interests in other places other than our own country, but 
we surely don't want training grounds to develop again in--pick 
a place--and we know that some are, and we need to be active 
there using all the tools that we have.
    Fourth, continue our surveillance system, although I think 
some reforms are in order. The President will speak on Friday. 
I was quite impressed with the report that was presented to 
him. It is not clear exactly what he will adopt, but we need to 
have an effective system that can spot bad guys and prevent and 
disrupt plots against us.
    Finally, enact cybersecurity legislation so that we are 
protected against what is a growing threat and could, in the 
end, be a more--many predict--a much more severe threat than 
some other form of terror threat against the homeland.
    Mr. Thompson. General.
    General Keane. Yes. I would first say to them that never 
before in the history of the country have so few sacrificed so 
much for so many and have done it for so long. The fact of the 
matter is, the reason why it has been so long is because of the 
mistakes that we made, and be honest about it. The fact of the 
matter is, our strategy initially in Afghanistan, military 
strategy I am talking about here, and our military strategy in 
Iraq after we liberated Iraq was flawed, and that led to 
protracted wars, and we should have that honest discussion, you 
know, with the American people and also with your constituents.
    Now, the fact of the matter is, if you know America's 
military, and I can say this with some knowledge, that we 
normally get off on the wrong foot, and we have throughout most 
of our history with some rare exceptions. But because we are 
reflections of the American people and American society, we are 
intellectually flexible and operationally adaptable, and we 
sort of get to the answer faster than other people would when 
we are at a much larger war than what we are dealing with here, 
and we did figure it out eventually in Iraq, and we have 
figured it out in Afghanistan as well, and the sacrifice is 
definitely worth it to protect the American people.
    I mean, when you talk to the troops that we deployed in the 
1990s, and we were all over the world doing things in Somalia, 
Haiti, Bosnia-Herzegovina, you name the place, there were 
problems, and we were there, not necessarily fighting to the 
degree that we have done post-9/11, but nonetheless, 
deployments and some fighting. From 9/11 on, and we have a 9/11 
generation in the military, we have a 9/11 generation in the 
Central Intelligence Agency, the fact of the matter is when you 
talk to these troops, it is all about the American people. 
Before it was about helping others. This was about protecting 
the American people, and they get it. That is why they 
willingly go back and do four, five, six tours. We have 
generals that been away from their family for 8 out of 10 
years. I mean, it is quite extraordinary the sacrifice that is 
willingly being made. Tell that story. It is extraordinary, 
because they are protecting the American people and our way of 
life, and they are willing do something that most of the 
American people cannot do, and that is, die for that, and that 
is really quite extraordinary.
    So, I say be honest with them, and then, in terms of this 
troublesome area, I know intellectually we like to talk about 
we are pivoting to the east because of the emergence of China; 
does anybody in this room believe in the anywhere near term, we 
are going to war with China? Not that we shouldn't be vigilant 
about them. We can't be serious about that. The fact of the 
matter is, we have--we have huge problems in the Middle East 
that threaten the United States, and we have to stay engaged, 
Mr. Congressman. That is a word that we need to use. We partner 
with our allies in that region, and we support people who want 
to overthrow dictatorial regimes, like in Libya, like in 
Tunisia, like in Syria. Libya and Syria, they just want us to 
help them. They don't want our troops. In Iraq, where we did 
help them, we walked away, and look at the mess we have as a 
result. That should inform us of how dangerous this situation 
is and how important American commitment is to stay engaged. We 
have to do that if we are going to protect the American people.
    Mr. Thompson. Dr. Jones.
    Mr. Jones. I would say three things that are worth 
reminding constituents and all Americans that we talk to. One 
is, as much as we would like this war and the struggle to end, 
there are organizations committed to fighting Americans and 
conducting attacks overseas that will not end. They don't have 
a desire to end this, and the struggle on their part will 
continue. Therefore, the struggle continues. As much as we want 
to end it, the terrorists that we have talked about today are 
committed to continuing the struggle.
    Second, I would say, as everybody here has noted, the days 
of large numbers of American forces targeting terrorists 
overseas, particularly conventional forces, are over. I think, 
as we have seen over the past several years, they have tended 
to radicalize populations rather than facilitate. So what that 
does leave us is, I would say, a third point, that there is a 
more modest approach. I think we have learned we are talking 
about smaller numbers of the forces but lethal ones overseas as 
well as civilians. We are talking about a smaller amounts of 
American dollars that are being spent. There is a need for 
direct action, some direct-action activity. We have stopped 
plots targeting the U.S. homeland from overseas with some of 
this action.
    We also have an interest in building some local partnership 
capacity so that we don't have to do all of this, so that we 
don't have to do all the fighting and dying and that locals can 
do it. This is the direction we have moved on in several 
fronts, so I would say there has been a learning process. But 
let me just conclude by just, again, reminding constituents and 
Americans that from the al-Qaeda, the jihadist perspective, the 
war continues, and in that sense, we cannot retreat.
    Mr. Thompson. Thank you.
    Chairman McCaul. The Chairman now recognizes the Chairman 
Emeritus, Mr. Peter King from New York.
    Mr. King. Sounds like I am dead, anyway.
    Chairman McCaul. No, you are not dead.
    Mr. King. Thank you, Mr. Chairman, and thank you for 
calling this hearing.
    Let me thank all the witnesses for being here today.
    I know Senator Lieberman and General Keane and Dr. Jones 
have all testified before.
    Jane Harman, somehow, I think, she is still part of the 
committee. She was such an integral part in the formative years 
of this committee and the great work that you did. I also want, 
for the record, to point out that General Keane and I are the 
only two who do not have an accent.
    I agree with virtually everything that was said here today, 
especially with the tone and the rational level of debate that 
we have had, and I do agree that there is a narrative which is 
hurting our country, and I think it comes from both--people in 
both parties, people in the media from all sides, really.
    For instance, Congresswoman Harman, you mentioned, you 
know, the threat from domestic terrorism or home-grown 
terrorism. Well, there was no more effective force against, I 
believe, than the NYPD, and you have a personal interest in 
that since you have family members living in New York. Yet, if 
you read the New York Times for the last 3 years, it was 
editorial after editorial denouncing the NYPD, accusing them of 
profiling and going after innocent people, and yet, they did 
more to protect a major urban area than any other element in 
the country.
    Dr. Jones, you mentioned the NSA and so did Congresswoman 
Harman, about the importance of it. We can have an intelligent 
debate about whether or not there should be certain reforms or 
what to be done and not done. I don't see that. In politics, we 
are talking about spying, about snooping. When you look at the, 
you know, the lettering during the TV shows, it is ``NSA 
Scandal,'' despite the fact that the President's panel or no 
one has come up with even one abuse in all the years. So, 
rather than have an intelligent conversation, we go off on 
these, I think, too often, histrionics. You have people in both 
parties, including my own party, who talk about the U.S. being 
an imperial power, that somehow we want to be in wars. I think, 
as General Keane said, anyone who has been in the military 
knows, the last thing you want to do is be in a war, but that 
is the way the debate has been framed. There is virtually no 
talking about al-Qaeda.
    I wish some of the people who rally against the NSA would 
spend equal time rallying against al-Qaeda. Sometimes you 
forget who the enemy is if you just listen to the media or 
listen to people in both parties. So I really want to thank you 
for coming here today, and really, I think, injecting a level 
of common sense that there is a real threat. In many ways, the 
threat is worse than it was before and more dangerous than it 
was before, and we have to deal with it in an intelligent way. 
Probably no one has done that as much or certainly not more 
than Joe Lieberman did during the time that he was in the 
Senate.
    Congresswoman Harman, what you did in this committee.
    General Keane, your service.
    Dr. Jones, I am a great consumer of all the materials you 
put out, and thank you for the help you have given us.
    Let me just talk about one particular area, and that is 
Syria, because there have been reports about how dozens of 
Americans, if not more, are going to Syria to take part in the 
fighting in Syria. They are siding with the al-Qaeda leading 
elements in Syria, and there is certainly the threat of them 
coming back here, you know, to this country, but even apart 
from that, when you are talking about western Iraq and Syria 
becoming a sanctuary for al-Qaeda, I would ask each of the four 
of you really, do you think it is too late for us to be 
providing aid to moderate elements in the Syrian resistance, or 
is it too much of a risk of that just enabling al-Qaeda itself 
or al-Qaeda affiliates, you know, to use it against us? So, I 
will just ask--and that will be my last question, ask each of 
the four of you, if you could respond, is what we should be 
doing in Syria, is it too late, and how effective can we be? 
Thank you very much.
    Mr. Lieberman. Thanks, Congressman King, thanks for your 
opening statement.
    May I say personally, for a Chairman Emeritus, you are 
looking very good.
    Mr. King. Not as good as you, though.
    Mr. Lieberman. So, what was the question?
    Oh, Syria. Okay. I got so embraced in how good you look, I 
forgot.
    Okay. So, look, this is--this has been sort of a--this has 
been a story that has gotten more tragic as it is going on, and 
from the beginning, it seemed to me that we had--I went over 
there early on with Senator McCain. We met with the opposition 
figures there. As much as anybody can tell visiting, these were 
not extremists. These were genuine Syrian patriots, 
nationalists. They just were sick and tired of Assad's 
dictatorship, and frankly, just to go to both parts of what 
Jack Keane said earlier, democracy, capitalism, they felt that 
the Assad gang was stealing the Nation's wealth, and they 
didn't have an equal opportunity to build better lives for 
their family. We should have supported them from the beginning. 
It spun out of control.
    But these people are not going to give up. They are still 
there. They are the moderate non-extremists sort of Syrian 
patriots, and since then, as you have said, Syria has become 
probably the front line of the al-Qaeda violent Islamist 
extremist war today because they are all pouring in, and they 
are linked now with what is happening in Iraq, but it is--the 
answer to your question, in my opinion, Chairman King, it is 
not too late.
    If we sit back, frankly, it can only get worse. There are 
two bad results here. One is that Assad wins, which is a win 
for Iran incidentally, and the other is that the al-Qaeda 
groups win, so we still have a, what I would call, still, 
believe it or not, a pro-American element there, a group that 
we can work with. They are angry at us, they were disappointed 
with us, but they still need our help. You know, if it wasn't 
for the Saudis pouring money in there, they would have been--
less moderate group would have been out already, so not too 
late. We have a lot on the line. If we don't act, Syria will 
become a base for future acts against the American homeland.
    Ms. Harman. Congressman King, I have lots of positive 
things to say about the NYPD, in addition to the fact that they 
keep my kids and grandkids safe, and I think Ray Kelly's 
service was impressive. As you know, now, the new chief is Bill 
Bratton, who came from New York, but then he went to Los 
Angeles, where his skills improved as head of the LAPD, so now 
we send him back, the sleeker, better version of Bratton, and 
you will love him.
    On Syria, it is a humanitarian catastrophe. This could be 
worse, in the end, than Rwanda and some of the egregious--
certainly it is a humanitarian catastrophe of the 21st Century, 
as John Kerry just said. I think we should have acted years 
ago. Joe Lieberman and I agree, we didn't do it.
    I do think there still is room to act, but we have to be 
quite careful about what we give to home. Wouldn't it be 
terrible if MANPADS surfaced and were used against Israelis by 
Hezbollah, or something of that nature? Because, again, of the 
way that these terror groups morph and unmorph and disperse, 
there is that risk, and the Intelligence Committees here and in 
the Senate looked at this and were pretty cool to giving them 
military weapons.
    That said, however, I think the fact that Bashar has 
surrendered his chemical weapons should not be a permission 
slip for him to continue as head of the country, and I do think 
we need, and I think we are doing this through John Kerry, to 
focus on Geneva II, to getting the opposition there, including 
some of the more scary elements. Al-Nusra is part of the 
opposition that is not ISIS, and I think the goal has to be to 
provide humanitarian assistance, maybe, in some way, find a way 
to build humanitarian corridors so they can--that assistance 
can get to people who have been without food for--or any kind 
of sustenance for a long time, but then to shore up the 
opposition so that it can be the transition to a stable 
government without Bashar in it.
    General Keane. Yes, we certainly squandered a huge 
opportunity to be able to assist them. The fact of the matter 
is there was, even in the Central Intelligence Agency, when I 
was having discussions with General Petraeus, they were pushing 
back early on that the rebels were fragmented, unreliable, and 
just too much risk associated with harming them. But then, by 
the summer of 2012, actually, the Institute for the Study of 
War had some impact on the Central Intelligence Agency, and 
because we had some real evidence that the groups could be 
vetted properly, and the CIA did that, and as a result of that, 
the Central Intelligence Agency, then led by General Petraeus, 
gave briefings in Washington, obviously Classified at the time, 
that the rebels could be--could be armed and they could vet 
them. Secretary Clinton agreed with that, and that briefing 
went to the White House in the summer of 2012, and the 
President said no.
    That, I think, was a strategic blunder on our part. As a 
result of that, the rebel organization, the Syrian Free Army, 
while still receiving weapons from Saudi Arabia, the fact of 
the matter is, they know, as a result of the last initiative 
dealing with chemical disarmament, they are probably not going 
to get help from the United States, and that group is less 
homogenous than what it was. A lot of the moderate Islamists 
that were associated with the Syrian Free Army have broken free 
of them because they don't think they are going to get the 
weapons.
    The fact of the matter is, there is still opportunity 
there, and it is overstated about weapons falling into the al-
Qaeda's hands. The Saudis have been giving these guys weapons 
now for 2-plus years, some of them are anti-aircraft weapons. 
To the best of my knowledge, and we stay pretty close on top of 
this, none of those weapons have found their way into the al-
Qaeda, and the vetting that the CIA has done and the leaders 
they vetted are still there.
    So, I do think there is opportunity, but we certainly did 
squander a huge opportunity a couple of years ago to truly make 
a difference.
    Mr. Jones. This is a fundamental question, and you have, in 
multiple hearings, Congressman King, been on top of this issue, 
so thank you for continuing to bring it up.
    In my view, it is not too late. We should have acted 
earlier. It is not too late. I would actually argue if we wait, 
if we continue waiting on this one, the trends are going to 
continue to get worse. So I think there is an incentive to do a 
couple of moderate things. I will not, I was in--in Europe, in 
Brussels, both to visit our partners, European partner 
agencies, intelligence agencies in December on the Syrian 
threat, and I have never seen the amounts of concern among the 
Europeans, number of Europeans that have gone to Syria to 
fight, well over a thousand, with, if they don't get on Watch 
Lists, will have Visa waiver access to the United States. 
Numbers up into the hundred, around a hundred or so Americans 
that have gone to either fight or otherwise participate in 
Syria.
    The control of the territory that groups like Jabhat al-
Nusra have had, have grown, and I think the more we wait, the 
bigger problem we have. What I would argue is--and there are 
two, I think, useful trends. One is the--the amount of support 
for the jihadist ideology in Syria is very small. As we have 
already seen recently with the push back against ISIL or ISIS, 
depending on which acronym you use, the al-Qaeda affiliate in 
the West, there has been active fighting against them because 
they have been involved in brutal killings, they have been 
involved in harsh reprimands against the local population, so I 
do think there is an opportunity, at the very least, to provide 
non-lethal communications equipment, information intelligence, 
and information could be actually quite useful for these 
organizations in their military and civilian strategies, 
blankets. I mean, there are a whole range of things, including 
to the refugees, that I think, again, that the longer we wait 
to act, the bigger this problem will continue to get.
    Mr. King. We thank all of them. I ask the Chairman if I 
could just have 10 seconds at the end. You know, in answer to 
the question of why these sacrifices were continuing, and every 
American death is absolutely tragic and profound, but keep in 
mind, on September 11, in less than 2 hours, we lost 3,000 
people, and that is important to realize, that we are going to 
factor in again why these sacrifices are made, how vital they 
are, and what are the consequences if we ever again do let our 
guard down--3,000 in less than 2 hours.
    I yield back. Thank you.
    Chairman McCaul. I thank the Chairman. I just have one 
quick comment, and that is, with respect to Syria, I am very 
concerned this is a culmination of the Sunni-Shia conflict, and 
that it is becoming one of the largest training--terrorist 
training grounds now globally, and every day, jihadists are 
pouring into Syria.
    I agree, General, that we squandered an opportunity 2 years 
ago when these forces were more moderate. I am concerned about 
the growing infiltration of the rebel forces by more extreme 
groups and the blow-back that that could present to the 
homeland.
    With that, I want to say, given the time and the number of 
Members left, that the Chairman is going to stick very strictly 
now, I think, to the 5-minute rule.
    The Chairman now recognizes the gentlelady from Texas, Ms. 
Sheila Jackson Lee.
    Ms. Jackson Lee. Let me thank the witnesses for their 
presentation today at a hearing that I hope, in its conclusion, 
will emphasize that there is no partisanship in the issue of 
domestic and National security.
    I want to thank the witnesses for their thoughtful 
presentation, and in particular, to thank Senator Lieberman, 
Congresswoman Harman, and General Keane for their service to 
the Nation.
    I think it is important to note that I hope in the course 
of the discussions about the issues of National and domestic 
security that we will quickly have before us the newly sworn-in 
Secretary of Homeland Security, which is a crucial issue, and 
that we will, like my Ranking Member has indicated, pursue the 
question of how you balance privacy and security with the 
question of the gathering of the mega data.
    As a Member of the House Judiciary Committee, under the 
business section 215, that was not the intent of Congress, but 
I, as a Member of this committee, truly believe there should be 
a balance, and my questions will be along those lines of 
balancing, and I thank you very much for your presentation.
    Let me also say that I am--I know Commissioner Kelly as 
well and certainly now Commissioner Bratton. Commissioner Kelly 
served in the Homeland Security department and respect his 
work. You can have security in New York, and frankly, we know 
the challenges it faces. Houston faces challenges because we 
are the epicenter of energy, but we can balance challenges with 
not having racial profiling. So I wanted to make sure I put 
that on the record because that is very important to us.
    It is important also to note that President Bush had a 
series of Homeland Security security strategies that he offered 
in the 2000s. When President Obama came in, he integrated 
National security and domestic security, and I, frankly, think 
that was a very smart approach because National security is 
interwoven, meaning the security beyond the borders, making 
sure that this country defends itself from foreign enemies is 
the same, I think, of having domestic security, and that kind 
of structure is what I think that we should be looking at.
    I have never conceded the point that al-Qaeda was dead, and 
I use the term rather than decentralizing, as franchising. 
Franchising was the shoe bomber. Franchising was the Christmas 
day bomber. Certainly in meetings that we have had, we know 
that al-Shabaab, although they have a pointed issue, they are 
after Kenya, but they are also reckless as it relates to 
Americans as well. So what goes on outside of our border 
impacts inside of our border, and frankly, this committee has 
worked hard, in particular, under HR 1417, a border security 
bill that has allowed us to work together.
    Let me ask this question to everyone. In the Chairman's 
comments, he commented from Peter Bergen about the idea of an 
immediate threat at home. Peter states that al-Qaeda controls 
much of the Arab world, and therefore, what is its impact here?
    My question is: Understanding that adjusting our approach 
to fighting terrorism is a broad perspective, can anyone 
identify areas of immediate need where the U.S. homeland is 
most vulnerable?
    Let me start with General Keane, and if I can ask Senator 
Lieberman. My other question is: Is there any evidence that 
suggests that scaling back U.S. involvement and presence in 
countries such as Afghanistan and Iraq may reverse the efforts 
of the last decade to eliminate terrorist groups?
    Might I also say, and I--your answers might also say that 
we wanted to pursue and stay in Iraq, but they had to protect 
our soldiers, and they refused to do it.
    General Keane.
    General Keane. Yes. Well, certainly the engagement we have 
currently with senior al-Qaeda leadership in Pakistan is 
critical to American security. To continue to be successful at 
that, two things have to happen. One is we have to continue our 
involvement with the Pakistani military and assisting them to 
conduct counterinsurgency. In other words, unconventional 
operations against that force as well as the thing that they 
are most interested in is the Taliban that is threatening their 
regime. So our presence in Afghanistan, as previously stated by 
my colleagues here, is very important to us to be able to 
continue to have the intelligence we need and also the means to 
be able to execute operations against them. That is crucial.
    Second, in my view, the developing situation in Syria and 
Iraq will become the largest al-Qaeda sanctuary, and it will 
threaten the region, to be sure, and we have to start now 
dealing with the harsh reality of that. The sooner we get on 
top of it in terms of intelligence, the better we are going to 
be with dealing with this reality.
    This is what al-Qaeda wants. They will--they seize 
territory, gain control of people so that they can become 
predator in nature in that area, and also, they have never 
given up on their desire to cause more harm to the United 
States. So I think that is a major area.
    I disagree with you, Congresswoman, on Iraq. The fact of 
the matter is, the immunity issue was not a serious issue. It 
was a false issue presented by Maliki as face-saving because 
the United States envoy came in. After the military had 
recommended 24,000 soldiers to stay in Iraq, the President's 
envoy put 10,000 on the table. Maliki knew that was not a 
serious proposal. That eventually got down to nothing. The 
immunity issue got brought up at the end, and it was more face-
saving for him inside of Iraq than anything else.
    But the fact of the matter is, that is a significant 
strategic blunder not leaving forces there, much as we did 
post-World War II, not for security reasons but for influence, 
and we lost this influence over Maliki, and even further than 
that. It is more than the troops. We disengaged--disengaged 
geopolitically with Iraq and in terms of partnering with them, 
which they wanted very much so. They forced the strategic 
framework agreement on us. We wanted to have a status of forces 
discussion about troops, and they said no. Maliki said we are 
not doing that until we agree to have a strategic partnership 
that will last for 20 years. That was their idea. We walked 
away from that as well, and now we have this debacle on our 
hands.
    So, that is the second-most--most critical area, I think, 
that we have to pay attention to, and without getting into the 
details of it, what has taken place in northern and 
northeastern Africa also is potentially threatening to us.
    In principle, in my judgment, what you deal with, you 
cannot let sanctuaries take hold, and we should be using 
partnering with other countries to deal with those sanctuaries. 
I am not talking about bringing U.S. troops to bear. I am 
talking about, in some cases, in helping people with training 
assistance so they know how to deal with this problem, and we 
may actually help them with equipment and intelligence to deal 
with it, to be sure. But we cannot let these sanctuaries take 
hold and fester because they will be predator in nature on 
their neighbors and then eventually potentially dangerous to 
the American people.
    Mr. Lieberman. Just briefly, in answer to, Congresswoman, 
your very good question, which is, is there any evidence that 
our pulling out of countries creates a threat to our homeland--
I am paraphrasing, but I think that is what you asked.
    Well, I look back first at Afghanistan during the 1990s 
when, as I said earlier, the general feeling in this country 
was that was someone else's civil war when the Taliban took 
over and al-Qaeda nested there, and of course, that led right 
to the 9/11 attacks against us. Iraq today is another example 
of that. We pulled out for all the reasons that have been given 
here, and now al-Qaeda is back in, and they will--they will use 
that as a base against us.
    I will summarize it this way. My reading of the last 15 
years tells me that the reason that we have--and this--the 
reason that we have so diminished and degraded core al-Qaeda in 
the mountains between Pakistan and Afghanistan is not because 
of a whole-of-Government approach, because we used the U.S. 
military. I believe in a whole-of-Government approach, but that 
has to, in these cases, include the U.S. military because al-
Qaeda is not a social organization. It has an ideological 
motivation to it, but it is a brutal military organization. We 
are only going to stop it by helping the heroes in each of 
these countries, who don't want al-Qaeda or the Taliban to 
control their lives and want to fight for something better. 
They need our help. They want our help, and if we give it to 
them, it will protect our homeland.
    Ms. Jackson Lee. Let me just say that I respect the 
testimony of the very fine witnesses. Many of us would disagree 
but agree that we have issues in both of those places, Iraq and 
Afghanistan, that I think we now need to collaboratively come 
together. I know the American people wanted out of the Iraq 
wars; they want out of Afghanistan. But they also want those 
countries to remain strong, to collaborate with them, to use 
resources, and as well they want us to have a strong National 
security policy that protects the homeland as well, and I think 
this is a very important hearing.
    With that, Mr. Chairman, I thank you, and I yield back.
    Chairman McCaul. Thank you.
    The Chairman now recognizes the Chairman of the 
Cybersecurity Subcommittee, Mr. Meehan from Pennsylvania.
    Mr. Meehan. I thank you, Mr. Chairman, and I want to thank 
again this very, very distinguished panel, not just for your 
presence here today but across the panel, your tremendous work 
on these issues on behalf of our Nation in so many different 
capacities.
    Congresswoman Harman, it is indeed a pleasure to once again 
have the capacity to share a moment in this room with you. You 
will be pleased to know that--and I thank you for raising the 
issue of cybersecurity, because it--it remains a remarkable 
focus, and in the aftermath of the incident which just occurred 
with Target, and that is one kind of a cyber incident. Criminal 
enterprise is likely, wholly separate from the kind of state-
sponsored cyber activity may take place.
    So I want you to know we have made great progress, and we 
will be marking up this afternoon a cyber bill. But I am 
worried as well about the concerns that we may have in this 
Nation as we deal with the narrative in this moment that 
appropriately reflects in the aftermath of the NSA revelations 
and other kinds of things, we have got a better understanding, 
but there is a narrative that may be taking place, which is 
privacy versus security, and it is so easy for us to move so 
quickly away from attention to the security.
    So I am going to ask if you would give me your sense of 
where we are in the form of the cyber preparation to deal with 
this issue of paying attention to protection of privacy but not 
surrendering in some kind of a knee-jerk effort our 
responsibility to protect Americans in so many different 
capacities.
    Ms. Harman. Well, thank you, Congressman Meehan. It is very 
good to see you, too.
    I--as I think about privacy and security, I often say they 
are not a zero-sum game. You didn't get more of one and less of 
the other. They are re-enforcing values, and things that we 
have worked on together in Congress, like the Intelligence 
Reform Law of 2004--Senator Lieberman, Senator Collins, 
Congressman Huckster, and I were the so-called Big Four on that 
one--not only find ways to reorganize our intelligence 
community so we leverage the strengths of all the agencies, but 
also to set up a privacy and civil liberties board, which was 
supposed to be stood up then and, unfortunately, hasn't--just 
finally was stood up last year. But at any rate, the point of 
that was to have, at the front end of policymaking, a group of 
people who worried about the privacy of Americans. We can do 
both. This needs to be a positive-sum game. It applies 
obviously to cybersecurity, and people are genuinely worried 
now that they see that there was a theft of I guess it is 70 
million pieces of crucial information on individuals. That is a 
large number.
    But they also need to be worried, it seems to me, about the 
purchase of exploits by bad guys, which are very inexpensive. 
These are back doors into our grids, our infrastructure in this 
country, and it is--so it is not just personal information. It 
is, you know, pick one, something very serious. It could be--
generate, you know, a life-and-death problem for our 
communities.
    So how to think about this? I think this committee has an 
opportunity, and I know you are doing it, to talk to the 
private sector, which controls most of the cyber capacity and 
persuade them to come on in. A cyber bill, Senator Lieberman 
knows this better than I do, has to grant immunity to those who 
come to play and has to respect the fact that personal 
information about companies is being shared and so on and so 
forth and make sure that again it is a win-win, and I think 
this is the climate to do it in.
    I would just add on surveillance, because that has come up, 
too. Same issue. There is not a zero-sum game here. There 
should be tweaks, my view, to the laws that we have. I think 
the public debate is healthy, and the tweaks should assure an 
anxious public that their privacy is protected, but we should 
never compromise on the basic parts of the system that lead us 
to find bad guys before they attack us.
    Mr. Meehan. Well, I thank you to for that, that answer. You 
will be pleased to see that I think we have made remarkable 
progress in the form of bringing together not just the private 
sector but our Governmental entities in the kind of a framework 
that would be effective, but the one place we haven't been able 
to touch, and you put your finger on it, is the kind of thing 
that will incentivize that sharing between the private and 
public sector which gives some kind of security really in the 
form of liability protection to those entities which are 
touched first. No better example than a Target who finds out, 
you know, weeks ahead of time that they are being impacted. We 
need to encourage that sharing in real time.
    I thank you for your focus on this very, very important 
issue and look forward to working with the entire panel as we 
move through these issues in the future.
    Thank you, Mr. Chairman. I yield back.
    Chairman McCaul. Thank you. Let me just commend the 
gentleman for your leadership on this issue, your dedication to 
get not only the private-sector support of your legislation but 
also the privacy groups. It is not an easy task, and it is 
not--it is an uphill battle and you were able to accomplish 
that, and I just want to thank you for that.
    The Chairman now recognizes the gentleman from New York, 
Mr. Higgins.
    Mr. Higgins. Thank you very much, Mr. Chairman.
    I just want to play a little bit more on this zero-sum game 
context. The one thing you know in a zero-sum game is that the 
sum will always be zero, but in game theory, there is also a 
variable-sum game where there can in fact be multiple winners, 
and there can only be multiple winners in a pluralistic society 
when the rights of minorities are protected.
    There was a debate here last year about--or last couple of 
months about military intervention in Syria. We certainly did 
not support the Assad regime, the justification for authorizing 
the administration to use military force, albeit not troops on 
the ground, was that Assad had murdered, through chemical 
weapons, 100,000 people in Syria. Well, the rebel fighters were 
beheading people, and in that part of the world and in that 
conflict, I think the concern is not that you are supporting 
Assad, but as a minority, you are afraid that all non-Sunnis 
will be murdered.
    Marwan Muasher just released a book called, ``The Second 
Arab Awakening,'' and in it, he identifies the Middle East as 
being a pluralistic society, a pluralistic region of Sunni, 
Shia, Kurds, Christians, and a lot of tribes--and a lot of 
tribes. He also says that 500,000 American troops in Iraq and a 
trillion dollars couldn't implant a lasting pluralism or peace 
in Iraq, and therefore, no outsider can.
    You know, what is going on in the Middle East today is it 
continued--the Chairman has said there was a culmination of 
Sunni-Shia conflict. It is really the continuation of it, and 
what is going on is Shia and Sunni are continuing to litigate a 
conflict that goes back to the Seventh Century as to who the 
rightful successor to the prophet Mohammed is. This is not 
about peace. This is not about democracy. This is about 
control, and so long as you don't have, as Fareed Zakaria would 
say, the inner stuffings, in his book, ``The Future of 
Freedom,'' in a constitution that protects minority rights, you 
are always going to have these conflicts.
    In Northern Ireland, George Mitchell was sent over there 
for 5 years, the last iteration was 22 months. He didn't think 
that peace was possible in Northern Ireland, and he says in his 
book ``Making Peace'' that the great intangible of solving 
conflict is exhaustion, not only at the negotiating table but 
also on the battlefield. The warring factions have to realize 
that their commitment to the fight, their commitment to the 
culture of violence has not produced any kind of lasting peace, 
and therefore, they need to move in a different direction.
    So, what are the two sides in Northern Ireland, what were 
they required to do, the Catholics and the Protestants, the 
extremists? They were required to denounce violence and 
actually participate in destruction of their arms so that the 
culture of physical force to achieve political ends was over, 
but both sides had to give something in order to achieve that.
    You know, you may say, you know, how can you compare 
Northern Ireland with the Middle East? Well, guess what, when 
George Mitchell was finished negotiating the Good Friday 
Accord, he was dispatched where? To the Middle East, because 
the conflict is very, very similar.
    So, I just think that, you know, American Presidents 
certainly can do more to keep leaders in those countries from 
going to extremes, but there is only so much that we can do. 
Our American military has been extraordinary, extraordinary in 
tamping down violence in Iraq, tamping down violence in 
Afghanistan. To what end? We can't impose a political solution. 
We can only provide a context, a breathing space within which 
the warring factions can do that. I am afraid that in that part 
of the world, there are no good allies of the United States in 
that part of the world. Not Nouri al-Maliki in Iraq, not Karzai 
in Afghanistan. We have to bribe his brother to help promote a 
lasting peace in Afghanistan. We don't have good allies there.
    What we can do I think is what we have already done, and I 
think we are limited. So, I am sorry I went on a little bit too 
long, but I am just interested in your thoughts about that.
    Ms. Harman. Congressman Higgins, I don't know if I should 
be first, but I just very quickly would offer, too, first, I 
think we have some allies in the region, one of which Israel, 
which is a pluralist democracy and under threat. I strongly 
favor the peace process. I think it is in Israel's interest and 
the Palestinian peoples' interest, but that is one.
    I also think there is another good news story maybe, and 
that is Tunisia, where an Islamist party, the Ennahda party, 
won the first election and has now in a peace deal with other 
parties surrendered power to a coalition, and just maybe that 
can show some success.
    So, I think a lot of what you said is very true, but I 
think there are ways--and our vigilance and focus will be 
necessary--that progress can be made.
    Mr. Lieberman. I will just add briefly, thanks for your 
statement. So it was a thought-provoking statement.
    In my opinion, we do have friends in the countries 
throughout the Middle East who essentially share our goals, 
that what is happening--and we won't have any friends if we 
just pull back. They are not asking, as General Keane said, for 
the U.S. Army to be or the military to be on the ground. They 
are asking for our help, and what is happening now, after the 
so-called Arab Spring, is really a remarkable historic 
development in the Arab world, which is an uprising against 
dictators, autocrats, by the people. They want freedom and they 
want a better opportunity to make some more money for their 
families, and in almost every case, these revolutions have been 
led by the under- or unemployed children of the middle class, 
who are well-educated, who understood how much better things 
could be.
    What is happening now in some of these countries in the 
conflicts that the revolutions have unleashed is not dissimilar 
to what has happened before when autocrats or totalitarian 
regimes are overthrown. They unleash this kind of conflict. It 
happened in Eastern Europe, Central Europe. In some sense, that 
is what happened in Bosnia-Herzegovina, but if we stand back, 
it is only going to get worse.
    I will--I know the Sunni-Shia conflict has been going on 
for a millennia-plus, but I also know that there is a lot of 
mixing between Sunnis and Shias throughout the Middle East, and 
this is, as you said, it is not a zero-sum game. We ought to be 
able to work out a system, and Tunisia is the hopeful example 
where everybody could feel that there is a way for them to win. 
Frankly, as we have said earlier over and over, it is in our 
interest to see that happen, not only because it reflects our 
best National values, but it also reflects what is best for our 
security.
    Mr. Jones. If I could just very briefly follow up with two 
points.
    One is I would just, on your Northern Ireland example, I 
think one of the useful lessons the United States is now in is 
the shift the British had, the mindset shifting from a heavy 
military footprint to target the IRA to one that was much 
lighter, focused on MI5 and the Royal Ulster Constabulary, that 
allowed a peace process to even be possible, in part because 
the IRA was so weakened by that point.
    The other thing I would say, just to reiterate, is we do 
have allies. We don't have common interests across the board 
with all of them. We do have allies that hate extremism. If you 
look at the progress that has been made in Somalia, tossing out 
Shabaab from Mogadishu, from Kismayo, tossing out extremists 
from other areas, we do have allies. We do have allies, local 
populations in Mali that hate extremism. So I think in that 
sense we have to gravitate towards those kinds of 
organizations.
    General Keane. You know, I think it is a thoughtful 
question and one that has been asked before. I think it is just 
too simplistic to categorize the entire Middle East as a 
conflict between Sunnis and Shias, a sectarian conflict. I am 
not minimizing the fact that it exists, I think you have to 
understand it does exist, but what is happening there is there 
are authoritarian regimes, every single one of them, except for 
Israel, and the drivers of instability as a result of these 
authoritarian regimes are the lack of political and social 
justice and the lack of economic opportunity. As a result of 
that, the radical Islamists use that and leverage that to gain 
support for what they are attempting to do.
    So we have to look at the region and see what has taken 
place in that region and how this very ambitious political 
movement that is trying to drive us out of the region so they 
can have their way--and that is what 9/11 was all about, it was 
about driving us out of the region, it is one of their major 
strategic objectives--and for us to make certain that that 
region doesn't explode with this radical Islamic movement, 
which would not only threaten the region but the world at 
large. They are a world domination objective organization. It 
is hard for us to get our head around that intellectually, I 
think, but nonetheless that is their idea, not ours.
    So the only answer here is to work this, I think, 
comprehensively--what are you trying to achieve here, is what I 
would love the administration to articulate--and then 
individually work with partners in the region to deal with the 
realities that they have. Some of these realities are dealing 
with our allies, Mr. Congressman, who are authoritarian 
regimes, who are repressive in dealing with their people, the 
lack of social justice that exists in these regions. Yet we 
have harmonious relationships with them that are financially 
rewarding. The fact of the matter is we should be leveraging 
these regimes to move in a different direction.
    That is why I am saying it is not just kinetic. What is our 
strategy, what we are trying to do? I am not suggesting we 
force democracy on everybody. But I am suggesting that if you 
focus on what the drivers of instability are, injustice to 
people and lack of economic opportunity, you can start to make 
some progress in the region. Certainly staying engaged is the 
answer, as opposed to just the sense of futility and 
hopelessness that we get. The culture is dramatically different 
from the United States, the geography is harsh, everything 
about it is hard. It is easy to say, let's just walk away from 
it. That would be a tragedy, and it would result in harm to the 
American people.
    Chairman McCaul. The Chairman now recognizes the Chairman 
of the Oversight Subcommittee, Mr. Duncan.
    Mr. Duncan. Thank you, Mr. Chairman. Thanks for having this 
very insightful hearing today.
    First off, I want to add my voice to the thanks to Senator 
Lieberman and Congresswoman Harman for your service to our 
country.
    General, for your service in the 101st Airborne, 10th 
Mountain Division, 1st Brigade. The Chairman and I were able to 
visit with the 3rd Brigade Combat Team in Afghanistan in 
November 2011, and the memories that I have of the men and 
women that are serving in harm's way go a long way. I just want 
to thank everyone that is serving to fight and counter the 
elements that we are talking about today around the globe, 
whether it is in the southern Philippines or Afghanistan or 
where it may be.
    Senator Lieberman, I want to also thank you for some 
comments in your opening statement, when you said, let me 
underscore here the enemy is violent Islamist extremism, a 
political ideology that seeks to justify totalitarian 
governance by perverting religion. The enemy, we can never 
stress enough, is not Islam itself, it is the Islamist 
extremists that use religion for its own use and gain.
    So I want to shift gears from some of the topics that we 
have talked about today, because talking about a false 
narrative that endangers the homeland, and as I sat here and 
listened to some of the testimony I thought about the false 
narrative with respect to our Nation's borders. That is the use 
of the term ``operational control,'' and that we have a secure 
Southern Border.
    So I want to ask each of you, in your opinion, how does 
border security, specifically the Southern Border in this 
instance, but we can't limit it just to the Southern Border. We 
have a long Northern Border with huge ports of entry. We have 
ocean and seaports, airports that are all playing into that 
border security element. So how does National border security 
play into your thoughts with regard to National security 
countering al-Qaeda elements, countering any other threats, but 
also the false narrative of an operational control element? So 
I will start with Senator Lieberman.
    Mr. Lieberman. Thanks, Congressman. Thanks for your kind 
words. Let me begin the discussion. I have been out for about a 
year, so I don't know the latest. But part of the challenge 
post-
9/11 was not just the security-privacy tension, but how do we 
maintain security in a country that has historically been as 
open as ours, and that includes the geographical fate of 
America which has always protected us? We are surrounded by two 
oceans, we have historically friendly allies to the north and 
south. We have enormous borders. You are never going to really 
maintain full security unless you do your best on those 
borders.
    I think we have come a long way since 9/11 toward achieving 
that. We are probably doing better at airport and airline 
security than we are at some other places. We have improved, I 
think, our ability at points of entry on the north and the 
south borders to stop people that want to do us harm from 
coming in. The Southern Border is obviously a unique problem 
because of the enormous flows of people across that border, 
including, obviously, illegal immigrants.
    So, bottom line, if you are talking about homeland 
security, you have got to in the post 9/11 age protect your 
borders, all of them, air, sea, land. We have done a lot 
better. But this is one of those journeys that doesn't have an 
end point, we are just going to keep having to do better and 
better.
    Mr. Duncan. Right. Let me just, before I go to 
Congresswoman Harman, let me just remind everyone that 
Hezbollah has exploited our Southern Border.
    Mr. Lieberman. That is correct.
    Mr. Duncan. So Ms. Harman.
    Ms. Harman. Thank you. I think it is an important question. 
This committee should take a victory lap for its authorship of 
the Safe Ports Act about 5 years ago. It was a bipartisan law 
that passed the House and Senate, was signed I think by 
President Bush. I think it predates President Obama. But what 
we did is push our borders out. We thought about how important 
it is to inspect cargo, for example, at the point of 
embarkation on ships and then to lock down those ships, and 
then of course to have security at the actual ports of entry. 
But we called it layered security. That layered security 
approach is now the approach that we take at our airports as 
well in a variety of ways. So there really should be an 
appreciation of that.
    On the physical land borders, Canada and the Southern 
Border, I would just point out that so far as I know, and again 
I may be a little stale, more terrorists have tried to enter 
our country through the Canadian border than through the 
Southern Border. That doesn't mean the Southern Border doesn't 
matter; of course it does. But one of the early bad guys that 
an astute I think customs official was able to spot was a guy 
named Ahmed Ressam, who was trying to cross the Canadian border 
in Washington State with a rental car full of explosives. His 
intended target was LAX, then in my Congressional district. So 
of course I would remember that and think it was a heroic act 
to have stopped the guy.
    But, yes, looking at all the borders, as you have 
described, should be, should remain a high priority. But let's 
not forget that home-grown terrorists who are already here, 
many of them legally, are getting radicalized on the internet, 
but also by live people in their neighborhoods, and we have to 
keep a focus on that.
    Mr. Duncan. Absolutely.
    General, can you give a military perspective on that real 
quickly?
    General Keane. Well, from our perspective, I think what our 
intelligence agencies have done to thwart terrorism is really 
notable since 9/11 and the cooperation that these agencies 
have.
    I am convinced in my own mind that no amount of fencing in 
and of itself is going to stop a determined terrorist from 
getting into this country. What we have do is stay focused on 
them. We have to be into their phone conversations, we have to 
be into their internet, we have to know what their thinking is, 
and we have to stop those kind of activities before they start.
    So our intelligence services, yes, the National Security 
Agency, the extraordinary work that they have been able to do 
is really critical to stopping this. Do we need a secure border 
in the southern part of the United States, given all the 
problems associated with it? Certainly, we do. As Congresswoman 
mentioned, the focus we have taken and the layered approach 
where it begins overseas is really critical for us. We have had 
a lot of success as a result of it. So the resources that are 
necessary for that kind of work is something that you are all 
doing and I applaud you for it.
    Mr. Jones. I think one of the more interesting discussions 
on this came from the bin Laden documents from the Abbottabad 
compound, where senior al-Qaeda leaders noted two things I 
would highlight on the subject. One is frustration at the 
closed borders and the progress the United States had made in 
making it more difficult for them to get inside, actually 
hearing it from senior leaders themselves. But also the 
commitment of finding and exploiting ways to get inside of the 
homeland, whether it was individuals, as bin Laden had said at 
one point, trying to get somebody with a Mexican visa that they 
could smuggle through the Southern Border or elsewhere.
    Look, we have had people leave the United States and go to 
train with militant groups overseas, senior levels of al-
Shabaab, Syrians, other locations, Afghanistan as well, and 
Pakistan. We have had people that have come back and been 
involved in plots and we had not discovered them. Zazi, 
Shahzad, Abdulmutallab were all back in the United States when 
they were involved in plots.
    Mr. Duncan. The Boston bombers.
    Mr. Jones. Exactly. The Boston bombers. So this will remain 
a problem.
    I think the issue with our border security has got to be 
border security is good up until the point that it has useful 
intelligence. I think one of the aspects about this then is--
and this is where Syria comes back into the picture--we are 
only as good as people whose names we have access to and we can 
pass to folks in the border security. One concern I have had in 
talking to folks that we have working in and around Syria is we 
don't know all the people over there. We know many of them, but 
not all of them. If those names don't get on lists, they don't 
get back to border security, they can come in or out without 
being stopped.
    So I would then fuse those two issues of border security 
and intelligence as being crucial and potentially vulnerable if 
we don't have access to that information.
    Mr. Duncan. Thank you for your time.
    Mr. Chairman, I want to point the committee to an article 
in the Weekly Standard by Thomas Joscelyn, ``Know Your Enemy, 
al-Qaeda's Grand Strategy.'' I would like to enter this for the 
record.
    Chairman McCaul. Without objection, so ordered.
    [The information follows:]

       Article Submitted For the Record by Honorable Jeff Duncan
                            January 20, 2014

             KNOW YOUR ENEMY: AL QAEDA'S GRAND STRATEGY \1\
---------------------------------------------------------------------------
    \1\ http://www.weeklystandard.com/articles/know-your-
enemy_774088.html?nopager=1.
---------------------------------------------------------------------------
By THOMAS JOSCELYN
    In the summer of 2008, Barack Obama, senator and presidential 
candidate, toured the war zones of Afghanistan and Iraq. Obama had 
endeared himself to the antiwar left by denouncing President Bush's 
decision to topple Saddam Hussein and repeatedly claiming that the war 
in Iraq had diverted resources from defeating al Qaeda and its allies 
in South Asia. Obama did not tone down this criticism even as he spoke 
with CBS News from Kabul on July 20, shortly before proceeding to 
Saddam's former abode. ``We got distracted by Iraq,'' Obama said. 
Afghanistan ``has to be the central focus, the central front [in] our 
battle against terrorism.''
    Some top U.S. military commanders, including General David 
Petraeus, then the face of the American war effort, disagreed with 
Obama's assessment. And in Iraq, the general and the senator squared 
off. The contentious meeting between Petraeus and Obama has been 
recorded in The Endgame: The Inside Story of the Struggle for Iraq, 
from George W. Bush to Barack Obama, by New York Times reporter Michael 
Gordon and General Bernard E. Trainor.
    Obama repeated that ``Afghanistan is the central front in the war 
on terror,'' and therefore a timetable for withdrawing troops from Iraq 
was necessary. Petraeus disagreed: ``Actually, Senator, Iraq is what al 
Qaeda says is the central front.''
    Obama was unpersuaded. ``The Al-Qaeda leadership is not here in 
Iraq. They are there,'' Obama said, pointing to Pakistan on a map.
    Petraeus, of course, knew this. The general did not need the 
senator to point out the obvious. And besides, Petraeus argued, Obama 
was missing the point. Whatever one thought of the decision to invade 
Saddam's neo-Stalinist state in the first place, al Qaeda had made the 
fight for Iraq its main priority.
    Obama pressed forward, questioning ``whether Al Qaeda in Iraq [AQI] 
presented a threat to the United States,'' Gordon and Trainor write. 
``If AQI has morphed into a kind of mafia then they are not going to be 
blowing up buildings,'' Obama said. Petraeus pointed to a failed 
terrorist attack in Scotland in 2007 as an example of why Obama's 
thinking was wrong. ``Well, think about the Glasgow airport,'' Petraeus 
warned. The general, according to Gordon and Trainor, ``also noted the 
potential of AQI to expand its influence to Syria and Lebanon.''
    The debate between Obama and Petraeus may seem like ancient history 
after more than five years have passed. And Obama went on to ``end'' 
the war in Iraq, or so he claimed during his reelection campaign and 
thereafter, by withdrawing all of America's forces at the end of 2011.
    The truth, however, is that the disagreement between Obama and 
Petraeus still resonates today. Al Qaeda has come roaring back in Iraq, 
capturing significant territory in Fallujah, Ramadi, and elsewhere. 
Obama does not believe this is a major concern. And, just as Petraeus 
warned, AQI has ``expanded its influence'' in neighboring Syria as a 
result of the revolution against Bashar al-Assad. Other al Qaeda 
affiliates have joined AQI in the fight for Syria.
    But there is something even more fundamental about the Obama-
Petraeus debate. It goes to the heart of how we define al Qaeda itself.
    More than a dozen years since the September 11, 2001, terrorist 
attacks, the United States is still confused about al Qaeda's goals and 
even how the group founded by Osama bin Laden is organized. The 
intellectual confusion is pervasive--and some of it is deliberate.

Political Revolutionaries
    Osama bin Laden will always be remembered for his success in 
attacking the United States within its own borders, thereby shattering 
Americans' illusion of security. To this day, if you listen to many 
commentators, this is al Qaeda's principal reason for existence. It is 
widely thought that if al Qaeda is not striking targets in the West, 
then the group must be close to defeat. This is simply not true.
    Terrorizing the United States and its Western allies was always a 
tactic, a step toward achieving al Qaeda's real goal--power for its 
leaders and their ideology in the heart of the Islamic world. Al 
Qaeda's jihadists are not just terrorists; they are political 
revolutionaries. They have sought, since al Qaeda's founding in 1988, 
to overturn the existing political order in various Muslim-ruled 
countries.
    Al Qaeda's ideologues believed that the status quo before the 2011 
Arab uprisings was heretical. They believed that Muslim rulers had 
abandoned true Islam by neglecting to implement sharia law as defined 
by al Qaeda. They also believed, and continue to believe, that an 
imaginary Zionist-Crusader conspiracy has prevented the real believers 
from achieving success. Therefore, al Qaeda deduced, the conspirators 
must be confronted.
    By striking America, al Qaeda's most senior leaders believed, they 
could cause the U.S. government eventually to withdraw its support for 
various Muslim rulers and Israel. According to bin Laden and other al 
Qaeda thinkers, American support was the main reason why early jihadist 
efforts to overthrow Muslim dictatorships ended in bloody fiascos.
    Strike America, al Qaeda argued, and it will crumble just as the 
Soviets did after their embarrassing loss to the mujahedeen in 
Afghanistan in the 1980s. As America's influence wanes, al Qaeda's 
theory of the world continued, the apostate tyrants who rule throughout 
the Muslim world will become susceptible to the jihadists' revolution. 
Al Qaeda and like-minded jihadists can then replace the dictators with 
pure Islamic states based on sharia law. And these states can then link 
up to resurrect the Caliphate, a supranational Islamic empire that was 
dissolved in 1924 and that has taken on a mythical status in al Qaeda's 
thinking.
    This is how al Qaeda has long seen the world and why America was 
struck on September 11, 2001. It is why U.S. interests were attacked 
well before 9/11 and have continued to be targeted ever since. Al 
Qaeda's conspiratorial view of Middle Eastern politics, its deep hatred 
of the West, and its resentment of Western influence in the Islamic 
world made such attacks necessary.
    Al Qaeda has repeatedly made this strategy clear. In his 2002 
letter to the American people, Osama bin Laden emphasized that ``our 
fight against these [Muslim] governments is not separate from our fight 
against you.'' Removing ``these governments is an obligation upon us, 
and a necessary step to free the Ummah [community of believers], to 
make the Shariah the supreme law and to regain Palestine.''
    In private correspondence recovered in bin Laden's Abbottabad 
compound nine years later, the terror master repeatedly made the same 
point. Bin Laden emphasized the necessity of striking American 
interests as a step towards building a true Islamic state. Bin Laden 
worried that, however much the United States had been weakened since 9/
11, the world's lone superpower retained the ability to destroy an al 
Qaeda-style nation should it arise. The ``more we can conduct 
operations against America, the closer we get to uniting our efforts to 
establish an Islamic State,'' bin Laden or one of his top lieutenants 
wrote in 2010. Still, al Qaeda's leaders believed that the ``time to 
establish an Islamic state is near, and the jihadist ideology is 
spreading abroad.''
    Al Qaeda adjusted its tactics in the post-9/11 world, especially 
with American troops on the ground in Iraq and Afghanistan. Bin Laden 
wrote in another letter that his organization must ``concentrate'' its 
``jihad efforts in areas where the conditions are ideal for us to 
fight.'' Bin Laden concluded that ``Iraq and Afghanistan are two good 
examples.''
    The centrality of the Iraq war, from al Qaeda's perspective, was 
emphasized in a letter from Ayman al Zawahiri, then bin Laden's top 
deputy, to the head of Al Qaeda in Iraq in 2005. Zawahiri wrote: ``I 
want to be the first to congratulate you for what God has blessed you 
with in terms of fighting in the heart of the Islamic world, which was 
formerly the field for major battles in Islam's history, and what is 
now the place for the greatest battle of Islam in this era.''
    The very fight that Barack Obama has long seen as tangential to al 
Qaeda's operations, and even similar to Mafia-style crime, was viewed 
quite differently by al Qaeda's leaders. It was the ``greatest battle 
of Islam in this era.''
    This was not empty rhetoric. Numerous public and private statements 
from al Qaeda emphasized the centrality of Iraq and their desire to 
establish an Islamic state in the heart of the Middle East.
    Al Qaeda has continued to adjust its operations in the wake of the 
2011 Arab uprisings. In Syria, the organization has devoted a 
substantial amount of its resources to defeating Bashar al-Assad's 
regime and establishing a new Islamic regime. Elsewhere, in countries 
ruled by newly installed Islamist governments, such as Tunisia, al 
Qaeda initially advised jihadists to refrain from fighting altogether. 
In such countries it was best, al Qaeda said, to concentrate on 
recruiting and to build a base of popular support for its ideology. 
Over time, that strategy has evolved, however, as the Tunisian 
government has cracked down on al Qaeda-allied organizations.
    But everywhere, the goal is the same: to advance a political 
revolution that al Qaeda sparked more than a quarter of a century ago.

Al Qaeda's Global Network
    Once you understand al Qaeda's true aspirations, the structure of 
its organization begins to make sense. Although much of al Qaeda's 
network remains clandestine, a vast amount of information on its 
operations is available to the public.
    The days when al Qaeda was a small cadre have long since passed. 
From its earliest days, al Qaeda devoted a substantial share of its 
efforts to insurgencies ranging from Chechnya to North Africa. Before 
9/11, most of the recruits who passed through al Qaeda-sponsored 
training camps in Afghanistan were tasked with doing something other 
than attacking America. ``Some experts even believe that the ratio of 
insurgent fighters to terrorists in al Qaeda's camps may be 15 to 1,'' 
notes the START Database's website, which is sponsored by the U.S. 
Department of Homeland Security. This created a deep well from which al 
Qaeda could draw manpower. Estimates of the number of jihadists trained 
in al Qaeda's camps prior to 9/11 vary, but easily totaled 10,000. 
(U.S. intelligence estimates cited by the 9/11 Commission range from 
10,000 to 20,000 fighters. Other estimates are much higher.) Only 19 of 
these trainees attacked the United States on 9/11.
    Going back to his days in Sudan in the early 1990s, bin Laden 
believed that his al Qaeda was the vanguard of the global jihadist 
movement. According to the 9/11 Commission, bin Laden ``had a vision of 
himself as head of an international jihad confederation.'' Bin Laden 
established an ``Islamic Army Shura,'' which ``was to serve as the 
coordinating body for the consortium of terrorist groups with which he 
was forging alliances.'' The Shura ``was composed of his own al Qaeda 
Shura together with leaders or representatives of terrorist 
organizations that were still independent.'' As of the early 1990s, bin 
Laden and al Qaeda pursued a ``pattern of expansion through building 
alliances'' and thus had laid the ``groundwork for a true global 
terrorist network.''
    Throughout the 1990s and thereafter, al Qaeda continued to pursue 
versions of this original vision. In some cases, other jihadist groups 
were outright absorbed into bin Laden's joint venture. In other 
instances, al Qaeda remained closely allied with jihadist organizations 
that did not formally merge with it. Al Qaeda also deliberately spawned 
new groups to expand its influence.
    Al Qaeda's policy of aggressive geographic expansion has been 
largely successful of late. While the group once relied almost entirely 
on a network of secret operatives embedded within countries ruled by 
hostile governments, al Qaeda now has formal branches (often called 
``affiliates'') operating in Africa, throughout the Middle East, and in 
South Asia. Each branch is fighting to create an Islamic state and has 
openly declared its loyalty to Ayman al Zawahiri, bin Laden's successor 
as the head of al Qaeda.
    Al Qaeda in the Arabian Peninsula (AQAP) is headquartered in Yemen 
and led by Nasir al Wuhayshi, Osama bin Laden's former protege. In 
August 2013, Zawahiri appointed Wuhayshi as the general manager of al 
Qaeda's global operations. This gives Wuhayshi great power across the 
network. Wuhayshi has been experimenting with al Qaeda-style 
governance, even creating a new brand (Ansar al Sharia, or Defenders of 
Sharia) for his efforts. Ansar al Sharia in Yemen was the first of 
several similarly named jihadist groups to emerge following the Arab 
uprisings.
    Al Qaeda in the Islamic Maghreb (AQIM) took over much of Mali in 
2012 until the French intervened in January 2013. The group continues 
to operate throughout West and North Africa. In Somalia, another al 
Qaeda branch, Al Shabaab, continues to hold some territory and wage an 
insurgency against African forces.
    The war in Syria has been a boon for al Qaeda. Jabhat al Nusra and 
the Islamic State of Iraq and Syria, the successor to Al Qaeda in Iraq, 
have thousands of fighters on the ground in Syria and Iraq. The two 
have quarreled over leadership and other matters. But they are still 
doing a considerable amount of damage while probably controlling more 
territory than al Qaeda has ever held before. There are other al Qaeda-
allied groups operating inside Syria as well.
    In addition to these five official branches, there are numerous 
jihadist groups that have said they are part of al Qaeda's global 
jihad. And in South Asia, al Qaeda continues to operate as part of a 
terror ``syndicate,'' owing to its decades-long ties to extremist 
organizations that share its ideology. Al Qaeda continues to cooperate 
closely with the Taliban, Lashkar-e-Taiba, and an alphabet soup of 
other groups based in Pakistan. They are jointly seeking to re-
establish the Taliban's Islamic state in Afghanistan.
    The degree of command and control exercised by al Qaeda's senior 
leaders over this global network is hotly debated. But the minimalists 
have to ignore a substantial body of evidence showing that Zawahiri and 
his lieutenants maintain a significant amount of influence, despite the 
management problems that any human organization faces.

The Enemy Gets a Vote
    The debate between Obama and Petraeus in 2008 has not been 
resolved. If anything, Obama now defines al Qaeda more narrowly than 
ever before, even as al Qaeda's many branches have become more 
virulent.
    To hear the Obama administration explain the current state of the 
war, you would never know that al Qaeda seeks to establish Islamic 
states, or that the group has made stunning advances toward this end. 
Instead, the president and his surrogates consistently draw a hard line 
between al Qaeda's ``core'' in South Asia and ``affiliated'' groups 
everywhere else. Some are quick to brand virtually any jihadist group, 
even if it is openly pro-al Qaeda and has well-known ties to one or 
more of al Qaeda's branches, as a ``local'' nuisance that should not be 
considered part of al Qaeda's network. Such arguments miss the entire 
reason for al Qaeda's existence, which has always been to acquire power 
in ``local'' settings. This is why al Qaeda has always devoted most of 
its resources to fueling insurgencies.
    It would be naive to assume that the Obama administration's 
definition of al Qaeda is not directly tied to its preferred policies. 
President Obama is dedicated to decreasing the American military's 
footprint, even as al Qaeda has increased its own. U.S. troops were 
pulled out of Iraq by the end of 2011. And a short-lived surge of 
forces in Afghanistan was ended, with the goal of removing most of 
America's forces in the near future. While Obama argued in 2008 that 
Afghanistan, not Iraq, must be our ``central front,'' it quickly became 
apparent that this was political rhetoric, not a real strategy. Drone 
strikes, Special Forces raids, and other covert activities are 
sufficient, in the Obama administration's view.
    This is not to suggest that large-scale American military 
deployments are necessary everywhere al Qaeda's branches prosper. But 
in the coming months, there simply will be no central front in 
America's fight against al Qaeda and its allies.
    President Obama's plan for fighting al Qaeda, therefore, rests on a 
gamble. As long as al Qaeda's various branches do not successfully 
attack the continental United States, then the United States will not 
treat them as first-order security threats. In countries where America 
has semi-reliable allies, others will take the fight to al Qaeda. In 
countries where no allied forces exist, such as Syria, America and the 
West will simply hope for the best. Well over 100,000 Syrians have been 
killed since the uprising against Assad's regime began; thousands of 
them have been killed by al Qaeda's branches. In Obama's estimation, al 
Qaeda's victims inside Syria and Iraq are not America's concern.
    But there are already indications that Obama's understanding of the 
enemy cannot be sustained. Al Qaeda's branches, especially Al Qaeda in 
the Arabian Peninsula (AQAP), and closely allied groups, such as the 
Pakistani Taliban, now threaten the U.S. homeland. The threats to 
American security from al Qaeda's global network are multiplying, not 
receding.
    And during a press briefing on October 30, an anonymous senior 
White House official explained to reporters that Al Qaeda in Iraq and 
Syria is ``really a transnational threat network'' now. ``This is 
really a major and increasing threat to Iraq's stability, it's [an] 
increasing threat to our regional partners, and it's an increasing 
threat to us,'' the official continued.
    That is, General Petraeus had a point about Iraq all along.
    Meanwhile, al Qaeda strives on towards its real goal. It is a 
difficult course, and success is far from certain. But history tells us 
that a lot of carnage can be wrought in pursuit of violent fantasies.
    In one of the documents recovered in his Abbottabad compound, Osama 
bin Laden wrote that ``the jihad war is ongoing, and on several 
fronts.'' The strategy is simple: ``Once America is weak, we can build 
our Muslim state.''

    Chairman McCaul. Chair recognizes my colleague from Texas 
to wrap up this hearing, Mr. O'Rourke.
    Mr. O'Rourke. Thank you, Mr. Chairman.
    I am certainly no apologist for the administration's 
National security strategy, and I have some significant 
concerns with it. But a lack of focus or vigor in the 
prosecution of the war on terror are not among them. And if you 
look at the unprecedented level of both domestic and 
international surveillance that have come to light recently--
the drone strikes against terrorist targets who present a 
direct threat to this country, and also targets who are the 
enemies of our allies that don't present a direct threat to 
this country, the surge of forces in Afghanistan in the first 
term of this administration, and as has been mentioned before, 
the killing of bin Laden--it is hard to see how one could reach 
the conclusion that there is a lack of focus or interest or 
intent to successfully prosecute the war on terror in this 
administration.
    To General Keane's point, to use his phrase, that the mess 
in Iraq is the result of--again, his word--the bungling of the 
administration's negotiators in Iraq, I reach a different 
conclusion. I think that, to use that word, the mess we are in 
is a result of our invasion of that country in the first place, 
the lack of critical questions to the assumptions that we made 
prior to that invasion, and the inability to think through the 
consequences of that invasion.
    So I hear a lot of military solutions to the very complex 
terrorism problems and threats that our country faces in the 
Middle East. I would love to hear, General Keane, Senator 
Lieberman, Congresswoman Harman, Dr. Jones, if there is time, 
like to hear you reflect on some of the perhaps unintended 
consequences of military action, of invasions, of military 
presence in the Middle East, of drone strikes, and what those 
activities do to perhaps increase the threat or complicate the 
threat that we have over there.
    Again to use General Keane's, I think, excellent idea of 
what that might mean to a comprehensive strategy beyond a 
military presence or a remainder of forces in Afghanistan and 
Iraq. I guess I would like to start with Senator Lieberman.
    Mr. Lieberman. Thanks. Thanks, Congressman.
    So I would say that the positive aspects of the Obama 
administration's record in counterterrorism that you stated I 
agree with. But what I am saying here, and I will go back to 
what I said earlier, is that in many other ways what the 
administration is doing is not working. In other words, if we 
are not helping the moderates, nonextremists in Syria, if we 
are sitting back now as Iraq becomes a sanctuary for al-Qaeda, 
if we are doing the same essentially in Libya, if we are going 
to let Afghanistan basically go the way that Iraq did and not 
have an agreement to leave any troops there by the end of this 
year, we are inviting the whirlwind.
    So what I am saying is not to criticize the positive things 
you have said, but essentially to say, Mr. President, there are 
3 more years in which you are going to be our commander-in-
chief. A lot of what you are now doing, in my respectful 
opinion, is simply not working to protect our security, and it 
is diminishing our credibility in areas of the world way 
outside of the Middle East.
    I talk to people in Asia. I was just in Asia about a month 
ago. The world is small. When they see us pulling back from, 
well, countries that think are our close allies in the Middle 
East, they read it personally. They think, wow, what is going 
to happen if China makes a move on me? Can I rely on the United 
States? They think they can't.
    So I join you, and, as I said in my opening statement, 
appreciating what the Obama administration has done, including 
particularly here at home in supporting the Homeland Security 
Department and the various elements of National security that 
were adopted post-9/11. But I think there are large parts of 
the foreign policy approach of the administration that are 
simply not working and----
    Mr. O'Rourke. Senator Lieberman, excuse me. Respectfully.
    Mr. Lieberman. Go ahead.
    Mr. O'Rourke. But I guess to one of the points I was 
attempting to make: Do you acknowledge that there is another 
side to the more aggressive, robust presence that you and 
General Keane have been arguing for, and acknowledging it 
doesn't mean that you dispute its total or net value, but that 
a presence there also serves al-Qaeda's interests in being able 
to recruit additional people, drone strikes help in their 
recruiting? Again, not to argue against them, but to say that 
it is a much more complex picture and that more aggression or a 
greater or more robust presence doesn't necessarily mean that 
there aren't complications.
    Mr. Lieberman. Yes, of course, there are. I mean, this is 
the complication of life in a very dangerous world. But the 
bottom line here is, and General Keane was right earlier when 
he said this is going to go on for a large part of this 
century. We are facing a group of people, violent Islamist 
extremists. They represent a distinct minority in the Islamic 
world. And yet they are fearless, they are an ideologically-
driven killing machine, killing mostly Muslims. So, yes, a lot 
of the things we have done will have a counterreaction. But in 
the end, if we do nothing, the result will be worse.
    Again I think we have all said it today, none of us are 
calling for hundreds of thousands of troops back into Syria, 
Iraq, Afghanistan. But, you know, you can overlearn the lessons 
of the last war. One of them would be to just pull out because 
the consequences of that would be disastrous for our country 
and our people.
    Mr. O'Rourke. Thank you.
    Ms. Harman. I applaud your patience in sitting here for 
2\1/2\ hours. We are also patient. We are the witnesses.
    Mr. Lieberman. We were all each once the junior member of 
our committee.
    Ms. Harman. Yeah. Many stories to tell.
    Mr. Lieberman. We identify with your pain.
    Ms. Harman. I also applaud your question. I don't think 
anyone here is saying let's cut and run from the Middle East, 
if that is the area we are talking about. There are different 
nuances to what each of us is saying. So here is what I am 
saying. I am saying we need to continue a robust 
counterterrorism presence in the Middle East. But that does not 
mean that we have to have troops everywhere. We can have an 
over-the-horizon force in some places which we can stage into 
areas if we need to, to protect U.S. interests. That is one. I 
am saying we need a robust set of laws that allow us to do what 
we are all talking about, which is to learn the plans and 
intentions of bad guys and prevent and disrupt them from 
attacking us. That is another thing that we need to do.
    But just take Iraq. President Obama, as everybody knows, 
ran on a platform that he would disengage us militarily from 
Iraq. Many people in America in both parties support this. 
There is a democratically-elected leader of Iraq who is 
supposed to represent the whole population, not just the Shia 
population, and that is an issue. I think John Kerry is right 
in calling on Maliki to represent his entire population and to 
provide leadership.
    Similarly in Afghanistan, they are not the same country, 
not the same set of problems, but there is an elected leader. 
There hopefully will be a reasonably fair election. I am not 
optimistic because the last one was so unfair. But I think it 
is important that the countries themselves exercise leadership 
as we try to help them.
    My final point is, at least speaking for me, we should 
never disengage from that region. The history of every major 
religion is there, many of our allies are there. It is 
important to keep brain cells on the problem. But it is also 
important to continually revise the strategies that we use. I 
applaud especially Secretary Kerry for trying to do that.
    Mr. O'Rourke. Thank you.
    General Keane. Well, that is an excellent commentary, and I 
welcome the opportunity to respond to it.
    When you take a look at Iraq and Afghanistan and you look 
at troop presence and what happened there, the fact of the 
matter is until we got the right strategy in Iraq--I am not 
going to reargue should we or should we not have gone to Iraq. 
I have views on that as well. But the fact of the matter is, we 
were there, and we finally applied a counterinsurgency strategy 
which was designed to protect the people. Once the people saw 
that we were willing to die, and die we did, protecting them, 
something we had not done up to that point, and the Iraqis did 
not have the capability to do it, the war turned to our favor.
    Also strangely at the same time the al-Qaeda had fallen in 
on Iraq because of our presence. That is a true statement. So 
that was a huge negative outcome as a result of the invasion of 
Iraq. Al-Qaeda fell in on Iraq because they saw it as a huge 
opportunity to render a defeat to the United States. They 
feared strategically the United States would possibly turn Iraq 
into a country that had democratic principles and economic 
opportunity, something that they ideologically are 
fundamentally opposed to.
    But their message is so harsh and their means are so brutal 
that the Sunnis themselves rejected them, even though they were 
supporting them for 3 years. We would never have had the 
success we had with the surge, with the increase of forces 
applied differently, if we did not have the so-called awakening 
that took place with the Sunni tribal leaders who were 
rejecting the al-Qaeda, the brutality of 7th century Talibanism 
that they enforced upon them. So we have to understand that, 
that this message that they bring to Muslims is a very harsh, 
strident message, and we can leverage against that.
    In Afghanistan, and I have been there 15, 20 times, the 
people themselves, when you free the people from the harshness 
and brutality of the Taliban, we don't have to win their hearts 
and minds, all we have to do is kill the bad guy who is 
terrorizing them and just driving their life into the gutter. 
Once we do that, the people are very supportive of us.
    So my point to you is, is this cancer is out there, and we 
have the means to deal with some of it. Most of it has to be 
dealt with, with those countries. In doing that, I think we can 
help them intellectually to deal this, we can help them in 
terms of the kinds of government they have, in terms of 
improving those governments and the needs for their people. If 
you want to be an ally of the United States, then these are 
some of the conditions that we want to see.
    Also certainly we can go a long way with helping--we have 
learned an awful lot, Congressman about how to deal with this 
militarily. We forgot the lessons of Vietnam. That is one of 
the reasons why we had such a problem with this initially in 
Afghanistan and also in Iraq. But now we understand how to do 
this. We can truly help our partners in the region when they 
have to use military force, this gets you the best results in 
using that military force.
    So there is so much that we can do. I think it is learning 
the lessons that we have learned from the mistakes that we have 
made and applying those lessons and partnering and staying 
engaged. When we pull back, the enemy moves forward. That is 
what has happened right before our eyes. You know, the 
government in Libya is a moderate government, friendly to the 
United States. You know what they want from us? To provide 
assistance to train a proper security force so that they can 
disarm the militias and be a counterbalance against the al-
Qaeda radical Islamist threat. That is what they want. That is 
small for us, I think, to assist in. The payoff is enormous. 
Are we doing that? No. And that is tragic, in my view.
    Mr. O'Rourke. Thanks.
    Mr. Jones. Very briefly, I think you have put your finger, 
Congressman, on an important issue, and we have to think about 
the costs and benefits of how we intervene. There are costs.
    I would say, big picture, my concern is that the 
rebalancing--we heard this from General Keane earlier--the 
rebalancing to Asia and, in my view, the underfunded support to 
a U.S. Africa Command that has a very big problem on its hand, 
do cause some risk. Our decisions on Syria, future decisions on 
Afghanistan put us in a position where we may take on, in my 
view, risk.
    But I do think you are putting your finger on an important 
issue, which is, are there costs to how we intervene? I think 
the answer is yes. I think we have demonstrated that there are 
types and numbers of forces that can radicalize populations. I 
think some of the strikes that we have seen overseas when they 
have killed civilians, especially excessively, have tended to 
be more harmful than helpful. I would not deny that there have 
been strikes that have actually been quite helpful and saved 
American lives.
    But you can also overdo it. You can also assume that a 
drone campaign is the solution. It is an instrument. It is not 
the solution in and of itself. So I think when you look at this 
you have got to also see some of the benefits to intervention. 
I think we are at the position really where we are talking 
about a much lighter presence overseas, limited, one that 
includes not just military, but Treasury, State Department, and 
other officials, and one that does increasingly work with 
allies in doing this with us, in some cases for us. That is 
intervention, in my view, that is worth the cost.
    Mr. O'Rourke. Thank you.
    Thank you, Mr. Chairman.
    Chairman McCaul. The Chairman now recognizes the gentleman 
from Pennsylvania, Mr. Perry.
    Mr. Perry. Thank you, Mr. Chairman.
    I am sure you are all happy to see me show up. I can assure 
I was watching the hearing from the office. I had a couple 
other things and got a little bit of a cold here.
    I want to start with Dr. Jones. In your opening statement 
you kind of alluded to and maybe you need to clarify increased 
or continued monitoring or surveillance of all Americans for 
the sake of making sure that we catch or keep track of these 
al-Qaeda folks. I guess from my viewpoint it seems to me it 
would be, in a time of limited resources and in a place where 
our Constitution guarantees our liberties, that the best thing 
to do is to target specifically individuals, whatever the 
matrix is, whatever the metrics are, who travel to these 
places, who correspond with these folks, who live in 
communities that have a proclivity towards radicalization. I 
just want to get your thoughts on that, because to me that 
seems like the better approach.
    Also, if you could, to clarify maybe your thoughts on why 
we are doing the opposite, why we are looking at every single 
American for the sake of a few who would be bad actors, and is 
it from a standpoint of political correctness? Or why do we 
refuse to face this enemy head-on and target our energies and 
our resources?
    Mr. Jones. Sure. Just to be clear, I did not support 
monitoring all Americans, and I don't believe I said that 
either. But I did support having a capacity to be able to 
monitor extremists.
    Here is the challenge, though, and this is why this is not 
a black-and-white issue, a zero-sum issue, is because we can't 
know and we won't know everybody that has access on the 
internet and radicalizes. We won't know everybody that goes 
overseas. There are a range of individuals that may radicalize 
inside the United States, stay here.
    Mr. Perry. But I would say also, as far as I know, we have 
no proof of anyone, even a lone wolf, and even under the 
Patriot Act provisions which haven't been used regarding a lone 
wolf ever, who has ever been radicalized in the United States 
solely on their own. In other words, they have had contact with 
through one means or another, the internet or what-have-you. If 
the NSA has the capability and the ability, and I think they 
do, to monitor every single thing we do, that we can and should 
know that.
    I mean, Nidal Hasan was looking at websites that were 
known, corresponding with bad actors that were known, yet we 
did absolute nothing. Instead we are spending all this money 
watching all of us Americans. I guarantee you the only time I 
have traveled to places that are unsavory were not because I 
wanted to take my family on a vacation or myself to Afghanistan 
or the Middle East where there is a civil war going on. People 
that go to those places I think that they probably would not 
object to being suspect for their motives. I think that that is 
where we should be focusing our efforts.
    Mr. Jones. I agree. I would point out that you don't have 
to travel overseas anymore to get the kind of expertise we are 
talking about.
    Mr. Perry. Sure. But do you correspond, somehow or another, 
you do correspond with people that are known.
    Mr. Jones. You do correspond.
    Mr. Perry. To me, that is where we should be focusing our 
efforts as opposed to this broad approach to every American. I 
guarantee the people on my staff, you know, they have never 
traveled to these countries and they don't correspond with 
people that are engaged in these kind of things. So spending 
resources on them is a waste of time, energy, and resources.
    Senator would you like to----
    Mr. Lieberman. Yeah. Thanks, Congressman. So let me get 
into this because a lot of people ask this question. In my 
opinion, part of what you are talking about is the so-called 
metadata that the NSA goes after. That is one excellent way in 
which we can get to target. In other words, Congress 
established a law here, which, incidentally, though it has been 
subject to criticism, the Chinese don't have a law like this, 
the Russians don't have a law like this. We actually tried to 
create a system where there was due process involved.
    As you know, I think the metadata, which is looking at 
millions and millions of phone calls and emails, it is not the 
content, it is the connections. That is the way they get to 
target, when they see the connections. Then they have got to go 
to court to get a court order. I mean, just think about how 
crazy that would seem to somebody in China or Russia or to the 
members of al-Qaeda or Iran.
    Mr. Perry. While I agree with you, Senator, at the same 
time we were doing this, right, and we didn't pick up, we 
didn't pick up the Boston bombers, who were corresponding and 
making those connections. We didn't pick up Nidal Hasan.
    Mr. Lieberman. No system is perfect. But, I will tell you, 
the American Government has stopped a lot of terrorist plots 
against us because of these methods of surveillance.
    I want to say something else, I have been thinking about it 
lately. Every time I go on the internet to buy something, I am 
giving up more information than the NSA has gotten from those 
millions of phone calls and emails that they do metadata 
surveillance of. I just read an article somewhere in the last 
few days that there is a service now being sold to stores that 
sort of tells them where people have been, based on their cell 
phones, before they come into those stores. You know and I know 
that when I start to Google something or I go on different 
internet sites, I am getting advertising that is based on 
previous sites I have been at. So, you know, the private sector 
knows a lot more about almost every--every American--than the 
NSA does unless you have got a hit that raises their suspicion 
and then they have got to go to court.
    So I think it is really important for the Congress to be 
careful--and the President will announce a program tomorrow--
before upsetting this system, which I think has really 
protected our security.
    Ms. Harman. If I could just add, I deplore what Edward 
Snowden did. I don't think he was a whistleblower, and I think 
he in many respects compromised very important security 
interests. But I applaud the public debate. Where you are 
coming from is where a lot of Americans are coming from. I 
think you probably understand this better than they do. Again, 
metadata is just a list of phone numbers; it is not names, and 
it is certainly not content.
    But I was here when all these systems came into effect. 
Initially, the administration, the Bush administration in its 
first term went around Congress and ignored the Foreign 
Intelligence Surveillance Act, which I, when I discovered that, 
was very unhappy about. But then Congress amended FISA to reset 
the system of checks and balances, and there have not been any 
abuses.
    The President's Advisory Committee has recommended changing 
Section 215 and stopping the storing of this phone metadata by 
the Federal Government. One recommendation is to create an 
independent agency, a second is to push it out and have the 
phone companies store the data. The President, according to 
reports, is probably not going to do either because the phone 
companies have pushed back, and they don't want to store the 
data. But just as one person observing the debate in the 
country, it would certainly be acceptable to me if we took that 
recommendation and pushed the data into the private sector and 
tried to engage, adopt some of the recommendations that will 
make the American public more comfortable.
    We need a strong surveillance system. But it needs also to 
give comfort to Americans that their privacy is being 
respected. I think this debate should lead to changes, and I 
hope that the President will be forward-leading on Friday when 
he proposes changes.
    Mr. Perry. I appreciate--my time has long since expired, as 
you folks know--I appreciate the Chairman's indulgence. I guess 
my point is that I want us, our policy, our security policy to 
be targeted on those who would do us harm and do as much as it 
can to secure our God-given freedoms and our Constitutional 
freedoms as so enumerated. I appreciate your thoughts and 
opinions and your testimony today. Thank you.
    Chairman McCaul. I thank the gentleman.
    Let me just say just for the record, when I was a Federal 
prosecutor we did go to the private phone carriers. It was not 
amassed under, you know, giant warehouse under the NSA. I think 
that is what gives the American people some pause, quite 
frankly. But I do think it has been effective. It is a legal 
system.
    I just want, and I know it is getting late, but as Chairman 
I want to exercise my prerogative to throw one last question, 
because we have such great expertise on this panel. I want to 
thank you for being here today. It has to do with Afghanistan. 
I am very concerned. General Keane, as you mentioned, the 
status of forces agreement, we had a failure to negotiate that 
in Iraq. Now we are looking at al-Qaeda in Iraq taking over 
Fallujah, taking over large portions of the country. We are 
faced with that same dilemma now with Afghanistan. I think 
Karzai's playing a lot of politics with us. Lack of a better 
word, he is jerking our chain a little bit, trying to play to 
his local base, if you will, his local politics. There has been 
some talk of what is called a zero option, which would result 
in a complete, 100 percent withdrawal from the region.
    Can you tell me what impact that zero option, if exercised, 
would have on our security to the homeland and in our fight 
against al-Qaeda?
    General Keane. Certainly. Listen, Karzai, as we all know, 
is a mercurial figure, and he frustrates the daylights out of 
us for the entire time he has been there, at times. The fact of 
the matter is, he is going to be gone in the spring. Election 
is around April. I think from a policy perspective we should 
not react emotionally to him, although I understand why people 
would, but look beyond Karzai. There is going to be a new 
leader in Afghanistan. If we have to sign this with the new 
leader, so be it, because sign it we must. Certainly we need to 
keep residual forces there.
    Listen, the current situation, just so you get a grasp of 
the security situation, the surge forces were applied in the 
south, and it is relatively stable there as a result of that. 
We did not get all the forces we wanted, we got 75 percent of 
them, 30 versus 40, and we had to sequentially apply those 
forces in the north.
    The problem was the President pulled those forces out 
before we could apply them in the north. The original intent 
was put them in the east--excuse me--and put them in the south, 
simultaneously take the Taliban down at the same time with 
surge forces. Only could put them in the south. That situation 
is relatively stable, and the Afghans are holding their own.
    The problem we have is in the east. We never were able to 
generate the combat power there that we have in the south. As a 
result of that, we are leaving the Afghans with a bit of a 
problem, and we know that. The fact of the matter is we also 
conduct an aggressive counterterrorism program out of 
Afghanistan bases using the Central Intelligence Agency to do 
that. We conduct counterterrorism inside Afghanistan using 
special operations forces to do that against high-value 
targets. Both of those we need to keep. Both of those would be 
at risk seriously if we pulled our forces out. It is hard for 
me to imagine those operations, the Central Intelligence Agency 
operation being able to, as robust as it is, be conducted there 
without any of our security forces and intelligence that we are 
providing for them.
    So the situation in Afghanistan as residual forces, there 
are two other issues. One is we are providing enablers for the 
Afghan forces. They are essentially an infantry organization. 
We need to continue to provide some enablers for them, not for 
10 years, but at least for a few more years after 2014, until 
they are able to have that capacity themselves, logistics, 
intelligence, some communication. Some of the residual force 
would do that.
    Then also we need some trainers and assistance at the 
headquarters level to help shape the Afghan military's thinking 
about how to cope with some of the problems. We are not going 
to have trigger-pullers on the ground side-by-side with them, 
but just some relatively senior officers and senior NCOs to 
help them do that. That is probably about 15,000 to 20,000 
troops is what we need to do that. We pull that away, all those 
functions go down the tube, the terrorist operation in 
Pakistan, which directly relates to the security of the 
American people, is at risk, and the gains we have made in 
Afghanistan to date would also be tragically at risk by pulling 
those forces out.
    Chairman McCaul. I couldn't agree with you more.
    Senator Lieberman, is the zero option an option?
    Mr. Lieberman. I hope not. I mean, to me, the zero option 
for Afghanistan is the worst option for the United States of 
America. It does dishonor the men and women of the American 
military who fought there, were wounded there, and died there. 
It also creates all the danger for the United States that 
General Keane has talked about.
    We have got to have some patience here. I know we set the 
deadline for making a decision on this is December 2014. But as 
General Keane has said, there is going to be an election coming 
up. President Karzai has taken this position. Incidentally, 
let's not forget that just a short while ago he summoned a loya 
jirga, one of the sort of people's meetings, leaders from 
around the country on this subject. What did they do? They 
voted to urge him to quickly enter into a security or status of 
forces agreement, bilateral, with the United States of America. 
The Afghan people know the terrible fate that awaits them if we 
pull out.
    It will be terrible for us, not only in terms of it 
becoming a sanctuary for terrorists who will strike us again, 
but that is a critically important part of the world 
geostrategically. It will be important for our security and our 
prosperity to have an American presence there for some time to 
come. So zero option for Afghanistan is the worst option for 
America.
    Chairman McCaul. Excellent point.
    Ms. Harman.
    Ms. Harman. We can't leave a force there without a status 
of forces agreement. That would compromise their security. I 
think the SOFA will be signed this year, either by Karzai or 
his successor, and I think the administration will decide to 
leave a force of some size, small force there.
    But that doesn't fix the problem of Afghanistan. The 
government of Afghanistan has to show more responsibility for 
the whole country. The government of Pakistan, some impressive 
early start by Nawaz Sharif, has to show responsibility there, 
close neighbor of Afghanistan, for doing more to quell the 
existence of terror cells, terror organizations inside of 
Pakistan. Similarly in Iraq. Maliki has to govern all of Iraq. 
Other governments in the Middle East also have to step up.
    So my bottom line is we do have a responsibility to project 
our values and be helpful in the Middle East. I don't think we 
should retreat. I do think our narrative is not where it needs 
to be. We also have a responsibility to use all of our 
Government power, soft, smart, and hard, against terror cells 
there which might have the capability to attack our interests 
or attack our homeland.
    This committee has done a good job of staying focused on 
it. I am very pleased you asked me to participate on the panel. 
I would just urge one more time that on a bipartisan basis you 
attack these problems and show the rest of the House that 
bipartisanship can thrive, especially when the critical 
interests of the United States are at stake.
    Chairman McCaul. We thank you for being here today as well.
    Dr. Jones.
    Mr. Jones. I was recently in Afghanistan, so my views are 
formed at least in part by that recent visit and my service 
there and my time since 2001 there.
    I think an exit, the zero option would be extremely 
dangerous for the United States. In my most recent trip I 
visited several of the countries in the region. Their 
leadership, from India, from Russia, even from Pakistan itself, 
and from several of the Central Asian governments, the 
assessments from those countries is dire if there was an 
American withdrawal from Afghanistan. So that view is shared by 
all of Afghanistan's neighbors. I think the kinds of 
discussions we have had here about a lighter footprint, 
training, I think are exactly what we are talking about and 
exactly what we need for Afghanistan.
    I would just say I have been somewhat impressed by at least 
some of the Afghan security services' ability to keep key 
provinces like Kandahar. It is the center of gravity for the 
Taliban, it is where their inner shura was, that is largely in 
the control, at least much of it is, by Afghan and allied 
forces. So there has been some positive developments.
    This is more than just about security. I think, as 
Congresswoman Harman, said this is an Afghan government 
responsibility. But we cannot leave. We did that once. We left 
the region after the Soviet withdrawal and we paid a major 
price for that.
    Chairman McCaul. Well, thank you, Dr. Jones.
    Let me just end by saying that I do believe we need a 
counterterrorism footprint there after we withdraw in 2014. 
General Keane, perhaps you are correct, we need to wait until 
the next election to achieve that.
    But I do believe--and, Jane, as you have mentioned--this is 
a bipartisan, I think most people on both sides of the aisle 
agree with your assessment on this issue. I know the 
administration is working hard towards that end.
    So let me just close by saying thank you to all of the 
witnesses. This has been very insightful and a very 
distinguished panel. As you know, there will be additional 
questions in writing from Members. I ask that you respond to 
those. The record will be held open for 10 days.
    And, without objection, the committee stands adjourned.
    [Whereupon, at 12:49 p.m., the committee was adjourned.]


                            A P P E N D I X

                              ----------                              

    Questions From Honorable Paul C. Broun for Honorable Joseph I. 
                               Lieberman

    Question 1. The first step of addressing any problem is to honestly 
identify it, yet this administration repeatedly refuses to acknowledge 
the nature of our threat overseas and at home. From Benghazi to 
Falluja, the administration seems more focused on protecting their 
political message than confronting the threats still posed by radical 
Islamic groups operating under the ideology of al-Qaeda. Do you view 
this forced ignorance as a major threat to our security? Do you see any 
way the Obama administration will pivot towards a more honest foreign 
policy?
    Answer. Response was not received at the time of publication.
    Question 2. Our National defense is one of the few areas the 
Federal Government SHOULD be spending money on according to the 
Constitution, yet many in the administration would like to preserve 
other, questionable spending in favor of cutting our defense. With the 
Asia Pivot and growing threats in the Middle East, is that position by 
the administration irresponsible?
    Answer. Response was not received at the time of publication.

    Questions From Honorable Richard Hudson for Honorable Joseph I. 
                               Lieberman

    Question 1a. My subcommittee oversees the Transportation Security 
Administration, so I know all too well, from Classified meetings and 
briefings, just how real the threats are to our transportation systems. 
TSA Administrator John Pistole has stated publicly that terrorists are 
developing more sophisticated ways of smuggling explosives onto U.S.-
bound aircraft from overseas through advanced designs and concealment 
methods. In 2012, we thwarted an attack by AQAP so to me it's clear the 
terrorists are making progress. The question I think we need to ask 
ourselves is--are we one step ahead or one step behind?
    Answer. Response was not received at the time of publication.
    Question 1b. In your assessment, are our homeland security efforts 
adequately adapting resources, technology, and manpower to counter the 
ever-changing threats to transportation security?
    Answer. Response was not received at the time of publication.
    Question 1c. Does the Obama administration's narrative help or hurt 
in this regard?
    Answer. Response was not received at the time of publication.
    Question 1d. What suggestions do you have that will help us stay 
flexible and adaptive in our approach to protecting our aviation 
systems?
    Answer. Response was not received at the time of publication.
    Question 2. How would you describe the command and control from al-
Qaeda in Pakistan, led by Zawahiri, over al-Qaeda ideologically-aligned 
groups such as AQAP, ISIL, al-Shabaab, Ansar al Sharia, etc. 
Specifically how are we adapting our procedures, intelligence-gathering 
methods, and resources to ensure we're infiltrating and collecting 
accurate information on these smaller, decentralized, localized groups?
    Answer. Response was not received at the time of publication.
    Question 3. What impact to our homeland do you see from a complete 
withdrawal from Afghanistan?
    Answer. Response was not received at the time of publication.
    Question 4. Prior to the September 11, 2012 attack on our consulate 
in Benghazi, there was a great deal of reporting that al-Qaeda 
ideologically-aligned groups were operating in and around Benghazi. Why 
do you think that administration did not see those groups as a 
significant threat to United States operations in the area?
    Answer. Response was not received at the time of publication.

    Questions From Honorable Paul C. Broun for Honorable Jane Harman

    Question 1. The first step of addressing any problem is to honestly 
identify it, yet this administration repeatedly refuses to acknowledge 
the nature of our threat overseas and at home. From Benghazi to 
Falluja, the administration seems more focused on protecting their 
political message than confronting the threats still posed by radical 
Islamic groups operating under the ideology of al-Qaeda. Do you view 
this forced ignorance as a major threat to our security? Do you see any 
way the Obama administration will pivot towards a more honest foreign 
policy?
    Answer. Response was not received at the time of publication.
    Question 2. Our National defense is one of the few areas the 
Federal Government SHOULD be spending money on according to the 
Constitution, yet many in the administration would like to preserve 
other, questionable spending in favor of cutting our defense. With the 
Asia Pivot and growing threats in the Middle East, is that position by 
the administration irresponsible?
    Answer. Response was not received at the time of publication.
   Questions From Honorable Richard Hudson for Honorable Jane Harman
    Question 1a. My subcommittee oversees the Transportation Security 
Administration, so I know all too well, from Classified meetings and 
briefings, just how real the threats are to our transportation systems. 
TSA Administrator John Pistole has stated publicly that terrorists are 
developing more sophisticated ways of smuggling explosives onto U.S.-
bound aircraft from overseas through advanced designs and concealment 
methods. In 2012, we thwarted an attack by AQAP so to me it's clear the 
terrorists are making progress. The question I think we need to ask 
ourselves is--are we one step ahead or one step behind?
    In your assessment, are our homeland security efforts adequately 
adapting resources, technology, and manpower to counter the ever-
changing threats to transportation security?
    Answer. Response was not received at the time of publication.
    Question 1b. Does the Obama administration's narrative help or hurt 
in this regard?
    Answer. Response was not received at the time of publication.
    Question 1c. What suggestions do you have that will help us stay 
flexible and adaptive in our approach to protecting our aviation 
systems?
    Answer. Response was not received at the time of publication.
    Question 2. How would you describe the command and control from al-
Qaeda in Pakistan, led by Zawahiri, over al-Qaeda ideologically-aligned 
groups such as AQAP, ISIL, al-Shabaab, Ansar al Sharia, etc. 
Specifically how are we adapting our procedures, intelligence-gathering 
methods, and resources to ensure we're infiltrating and collecting 
accurate information on these smaller, decentralized, localized groups?
    Answer. Response was not received at the time of publication.
    Question 3. What impact to our homeland do you see from a complete 
withdrawal from Afghanistan?
    Answer. Response was not received at the time of publication.
    Question 4. Prior to the September 11, 2012 attack on our consulate 
in Benghazi, there was a great deal of reporting that al-Qaeda 
ideologically-aligned groups were operating in and around Benghazi. Why 
do you think that administration did not see those groups as a 
significant threat to United States operations in the area?
    Answer. Response was not received at the time of publication.

        Questions From Honorable Paul C. Broun for John M. Keane

    Question 1. The first step of addressing any problem is to honestly 
identify it, yet this administration repeatedly refuses to acknowledge 
the nature of our threat overseas and at home. From Benghazi to 
Falluja, the administration seems more focused on protecting their 
political message than confronting the threats still posed by radical 
Islamic groups operating under the ideology of al-Qaeda. Do you view 
this forced ignorance as a major threat to our security? Do you see any 
way the Obama administration will pivot towards a more honest foreign 
policy?
    Answer. Response was not received at the time of publication.
    Question 2. Our National defense is one of the few areas the 
Federal Government SHOULD be spending money on according to the 
Constitution, yet many in the administration would like to preserve 
other, questionable spending in favor of cutting our defense. With the 
Asia Pivot and growing threats in the Middle East, is that position by 
the administration irresponsible?
    Answer. Response was not received at the time of publication.

       Questions From Honorable Richard Hudson for John M. Keane

    Question 1a. My subcommittee oversees the Transportation Security 
Administration, so I know all too well, from Classified meetings and 
briefings, just how real the threats are to our transportation systems. 
TSA Administrator John Pistole has stated publicly that terrorists are 
developing more sophisticated ways of smuggling explosives onto U.S.-
bound aircraft from overseas through advanced designs and concealment 
methods. In 2012, we thwarted an attack by AQAP so to me it's clear the 
terrorists are making progress. The question I think we need to ask 
ourselves is--are we one step ahead or one step behind?
    Answer. Response was not received at the time of publication.
    Question 1b. In your assessment, are our homeland security efforts 
adequately adapting resources, technology, and manpower to counter the 
ever-changing threats to transportation security?
    Answer. Response was not received at the time of publication.
    Question 1c. Does the Obama administration's narrative help or hurt 
in this regard?
    Answer. Response was not received at the time of publication.
    Question 1d. What suggestions do you have that will help us stay 
flexible and adaptive in our approach to protecting our aviation 
systems?
    Answer. Response was not received at the time of publication.
    Question 2. How would you describe the command and control from al-
Qaeda in Pakistan, led by Zawahiri, over al-Qaeda ideologically-aligned 
groups such as AQAP, ISIL, al-Shabaab, Ansar al Sharia, etc. 
Specifically how are we adapting our procedures, intelligence-gathering 
methods, and resources to ensure we're infiltrating and collecting 
accurate information on these smaller, decentralized, localized groups?
    Answer. Response was not received at the time of publication.
    Question 3. What impact to our homeland do you see from a complete 
withdrawal from Afghanistan?
    Answer. Response was not received at the time of publication.
    Question 4. Prior to the September 11, 2012 attack on our consulate 
in Benghazi, there was a great deal of reporting that al-Qaeda 
ideologically-aligned groups were operating in and around Benghazi. Why 
do you think that administration did not see those groups as a 
significant threat to United States operations in the area?
    Answer. Response was not received at the time of publication.

        Questions From Honorable Paul C. Broun for Seth G. Jones

    Question 1. The first step of addressing any problem is to honestly 
identify it, yet this administration repeatedly refuses to acknowledge 
the nature of our threat overseas and at home. From Benghazi to 
Falluja, the administration seems more focused on protecting their 
political message than confronting the threats still posed by radical 
Islamic groups operating under the ideology of al-Qaeda. Do you view 
this forced ignorance as a major threat to our security? Do you see any 
way the Obama administration will pivot towards a more honest foreign 
policy?
    Answer. My current research and past counterterrorism experience in 
the U.S. Department of Defense indicates that the threat from al-Qaeda 
and other Salafi-jihadist groups remains significant. The number of 
Salafi-jihadist groups, fighters, and attacks has increased since 2010. 
Most of the attacks are occurring in North Africa and the Middle East 
in such countries as Yemen, Somalia, Iraq, and Syria. Indeed, the war 
in Syria has been the single most important attraction for Salafi-
jihadist fighters. This increase in Salafi-jihadist groups has likely 
been caused by weakening governments across North Africa and the Middle 
East, as well as the expansion of Salafi-jihadist operatives that have 
spent time at terrorist training camps, fought on jihadist 
battlefields, or been released or escaped from prison.
    The threat posed by this diverse set of Salafi-jihadist groups 
varies widely. Some are locally-focused and have shown little interest 
in attacking Western targets. Others, like al-Qaeda in the Arabian 
Peninsula, present a substantial threat to the U.S. homeland, along 
with inspired individuals like the Tsarnaev brothers that perpetrated 
the April 2013 Boston Marathon bombings. In addition, several Salafi-
jihadist groups pose a medium-level threat because of their desire and 
ability to target U.S. citizens and structures overseas, including U.S. 
embassies. Examples include Ansar al-Sharia Tunisia, al-Shabaab, the 
Muhammad Jamal Network, al-Qaeda in the Islamic Maghreb, and the 
various Ansar al-Sharia groups in Libya. As explained below in response 
to the second question, there are significant risks in downplaying the 
threat from al-Qaeda and other groups plotting attacks against the U.S. 
homeland and U.S. interests abroad (such as embassies).
    Question 2. Our National defense is one of the few areas the 
Federal Government SHOULD be spending money on according to the 
Constitution, yet many in the administration would like to preserve 
other, questionable spending in favor of cutting our defense. With the 
Asia Pivot and growing threats in the Middle East, is that position by 
the administration irresponsible?
    Answer. It is vital that the United States retains a defense budget 
capable of defeating and deterring terrorist groups plotting attacks 
against the U.S. homeland and U.S. interests overseas. The trends noted 
above suggest that the United States needs to remain focused on 
countering the proliferation of Salafi-jihadist groups, despite the 
temptation to shift attention and resources to the Asia-Pacific region 
and to significantly decrease counterterrorism budgets in an era of 
fiscal constraint. The U.S. Department of Defense's 2014 Quadrennial 
Defense Review, for example, notes that the United States should be 
``principally focused on preparing for the future by rebalancing our 
defense efforts in a period of increasing fiscal constraint.'' It also 
emphasizes the importance of the Asia-Pacific region as ``increasingly 
central to global commerce, politics and security.''\1\ Not 
surprisingly, much of the U.S. military--including the Army, Air Force, 
Navy, and Marine Corps--is shifting its attention to the Asia-Pacific 
theater, including such issues as force posture, acquisitions, campaign 
planning, and response anti-access area-denial (A2AD) challenges.
---------------------------------------------------------------------------
    \1\ U.S. Department of Defense, Quadrennial Defense Review 2014 
(Washington, DC: U.S. Department of Defense, 2014), pp. IV, 4.
---------------------------------------------------------------------------
    This rebalance entails risks, particularly if it involves 
decreasing attention and resources from countering the resurgence of 
al-Qaeda and other Salafi-jihadists in North Africa and the Middle 
East. For the near future, some of the most acute security threats to 
the U.S. homeland and its interests overseas will come from terrorist 
groups and state sponsors of terror in North Africa and the Middle 
East, not countries in the Asia-Pacific. To complicate matters, most 
U.S. Government agencies involved in counterterrorism have not 
systematically apportioned or adequately synchronized their declining 
resources to focus on the most serious terrorism threats.
    With the U.S. shift to Asia, it is important that the United States 
continue to provide sufficient resources and attention to North Africa 
and the Middle East for the use of special operations, intelligence, 
diplomatic, and other capabilities to conduct precision targeting of 
groups and their financial, logistical, and political support networks. 
The United States also needs to continue training, advising, and 
assisting local governments in their struggle against terrorism. For 
the foreseeable future, the United States will need to orchestrate 
covert raids to capture or kill terrorists, seize their supplies, and 
target their finances; conduct air strikes from drones, fixed-wing 
aircraft, and helicopters; oversee psychological operations to 
undermine terrorist support; collect and analyze intelligence about 
terrorist groups (their networks, locations, capabilities, and 
intentions); and engage with Tribal and other local actors.

       Questions From Honorable Richard Hudson for Seth G. Jones

    Question 1a. My subcommittee oversees the Transportation Security 
Administration, so I know all too well, from Classified meetings and 
briefings, just how real the threats are to our transportation systems. 
TSA Administrator John Pistole has stated publicly that terrorists are 
developing more sophisticated ways of smuggling explosives onto U.S.-
bound aircraft from overseas through advanced designs and concealment 
methods. In 2012, we thwarted an attack by AQAP so to me it's clear the 
terrorists are making progress. The question I think we need to ask 
ourselves is--are we one step ahead or one step behind?
    Answer. Whether we are one step ahead or one step behind depends, 
in part, on the issue. According to several documents found in Osama 
bin Laden's Abbotabad residence, some senior al-Qaeda leaders were 
frustrated about the difficulties in smuggling operatives into the 
United States because of improvements in U.S. border security, 
intelligence collection and analysis, and databases such as the No-Fly 
List. However, terrorists--including al-Qaeda and its affiliates--
continue to innovate. In Somalia, al-Shabaab has explored the 
possibility of concealing bombs inside consumer electronic items, such 
as laptop computers, cameras, and tape recorders. And al-Qaeda in the 
Arabian Peninsula bomb makers continue their efforts to build 
improvised explosive devices using components that may not be detected 
by airport screeners.
    Perhaps most concerning, al-Qaeda is a different organization than 
it was a decade ago--a development that some officials have not fully 
appreciated. The broader Salafi-jihadist movement has become more 
decentralized among four tiers: (1) Core al-Qaeda in Pakistan, led by 
Ayman al-Zawahiri; (2) formal affiliates that have sworn allegiance (or 
bayat) to core al-Qaeda (located in Syria, Somalia, Yemen, and North 
Africa); (3) a panoply of Salafi-jihadist groups that have not sworn 
allegiance to al-Qaeda but are committed to establishing an extremist 
Islamic emirate; and (4) inspired individuals and networks. Using the 
state of core al-Qaeda in Pakistan as a gauge of the group's strengths 
(or weaknesses)--as some have done--is increasingly anachronistic. 
Overall, I am concerned that the United States is one step behind in 
understanding the nature of the threat from a heterogeneous and 
decentralized movement.
    Question 1b. In your assessment, are our homeland security efforts 
adequately adapting resources, technology, and manpower to counter the 
ever-changing threats to transportation security?
    Answer. I have not done a thorough analysis of whether--and how 
much--U.S. homeland security efforts are adequately adapting resources, 
technology, and manpower to counter the evolving threats to 
transportation security. However, other RAND researchers have examined 
various aspects of transportation security.\2\ One of the biggest gaps 
in U.S. homeland security efforts is the absence of a veritable 
counterterrorism strategy. A strategy refers to a plan to defeat or 
degrade terrorist groups. Government officials need to consider how to 
use their military, law enforcement, diplomatic, financial, and other 
tools against terrorist groups. The British government, for example, 
has a comprehensive counterterrorism strategy referred to as CONTEST, 
which covers transportation and other types of security. It is based on 
four areas of work: Pursue (to stop terrorist attacks); prevent (to 
stop people becoming terrorists or supporting terrorism); protect (to 
strengthen our protection against a terrorist attack); and prepare (to 
mitigate the impact of a terrorist attack). While the United States 
does have a National Strategy for Counterterrorism in name, it does not 
offer a veritable plan for how to combine resources, technology, 
manpower, and other key ingredients to defeat terrorist groups.\3\ This 
is a notable gap in countering the ever-changing threats to 
transportation and other types of security.
---------------------------------------------------------------------------
    \2\ See, for example, Andrew R. Morral, et al., Modeling Terrorism 
Risk to the Air Transportation System: An Independent Assessment of 
TSA's Risk Management Analysis Tool and Associated Methods (Santa 
Monica, CA: RAND, 2012); Brian Michael Jenkins, Aviation Security: 
After Four Decades, It's Time for a Fundamental Review (Santa Monica, 
CA: RAND, 2012); Kevin Jack Riley, Air Travel Since 9/11 (Santa Monica, 
CA: RAND, 011); Brian A. Jackson, Efficient Aviation Security: 
Strengthening the Analytic Foundation for Making Air Transportation 
Security Decisions (Santa Monica, CA: RAND, 2012).
    \3\ White House, National Strategy for Counterterrorism 
(Washington, DC: White House, June 2011).
---------------------------------------------------------------------------
    Question 1c. Does the Obama administration's narrative help or hurt 
in this regard?
    Answer. My current research and past counterterrorism experience in 
the U.S. Department of Defense indicates that the threat from al-Qaeda 
and other Salafi-jihadist groups remains significant. According to my 
analysis, the number of Salafi-jihadist groups, fighters, and attacks 
has increased since 2010. Approximately 98 percent of the attacks are 
occurring against local targets, particularly in North Africa and the 
Middle East. Examples include groups operating in Tunisia, Algeria, 
Mali, Libya, Egypt (including the Sinai), Lebanon, and Syria. In fact, 
the war in Syria has been the single most important attraction for 
Salafi-jihadist fighters.
    More broadly, the United States lacks a coherent narrative to 
combat the narrative of al-Qaeda and other Salafi-jihadists. In 1999, 
the State Department disbanded the U.S. Information Agency, which 
played a prominent role in countering Soviet ideology during the Cold 
War. Today, no U.S. Government agency has the lead role for countering 
the ideology of al-Qaeda and its broader movement. The State Department 
has the lead for public diplomacy, including through such organizations 
as the Center for Strategic Counterterrorism Communications. But the 
State Department has not developed--nor has the mandate for--a 
comprehensive inter-agency strategy to counter al-Qaeda's ideology. The 
CIA is involved in some clandestine activity, but most senior officials 
do not view undermining al-Qaeda's ideology as its core mission. The 
Department of Defense is also involved in some efforts, but they are 
dispersed among U.S. Central Command, U.S. Special Operations Command, 
and other organizations. Ultimately, it is the President and the 
National Security Staff's responsibility to appoint a lead agency and 
hold it responsible. An effective campaign has to be done carefully, 
covertly, and led by credible Muslims in these countries. In the end, 
the struggle against the al-Qaeda movement will be long--measured in 
decades, not months or years. Much like the Cold War, it is also 
predominantly an ideological struggle.
    Question 1d. What suggestions do you have that will help us stay 
flexible and adaptive in our approach to protecting our aviation 
systems?
    Answer. The recent tragedy with Malaysia Airlines flight MH370 
highlights the need to improve passport security, with two passengers 
that boarded the flight using stolen passports. Both of the stolen 
passports had been on Interpol's Stolen and Lost Travel Documents 
(SLTD) database, but the airport and airline staff failed to make the 
necessary checks. This is a gaping loophole for terrorist organizations 
and poses a threat to Americans traveling overseas. Interpol created 
its Stolen and Lost Travel Documents database in 2002, and it now 
contains more than 40 million records. The SLTD database is available 
to Interpol's 190 member states, but only a few countries 
systematically search the database--such as the United States, United 
Kingdom, and United Arab Emirates. According to Interpol, passengers 
were able to board planes more than a billion times in 2013 without 
having had their passports screened.\4\ Additional measures are being 
made to enhance passport security such as the installation of chip and 
fingerprints in the documents, but it is still a vulnerable system. The 
United States should take the lead in encouraging and assisting other 
governments in fixing these loopholes.
---------------------------------------------------------------------------
    \4\ Mike Hills, ``Mystery of Flight MH370 Raises Fears of Passport 
Fraud,'' BBC, March 11, 2014.
---------------------------------------------------------------------------
    In addition, one of the most important steps to protecting U.S. 
aviation systems is to ensure U.S. intelligence agencies are providing 
U.S. Government agencies dedicated to protecting U.S. aviation systems 
with sufficient information about the types of plots and improvised 
explosive devices being developed--or considered--by terrorist groups.
    Question 2. How would you describe the command and control from al-
Qaeda in Pakistan, led by Zawahiri, over al-Qaeda ideologically-aligned 
groups such as AQAP, ISIL, al-Shabaab, Ansar al Sharia, etc.? 
Specifically how are we adapting our procedures, intelligence-gathering 
methods, and resources to ensure we're infiltrating and collecting 
accurate information on these smaller, decentralized, localized groups?
    Answer. Al-Qaeda's command and control is increasingly 
decentralized. Core al-Qaeda includes the organization's leaders, most 
of which are based in Pakistan. Al-Qaeda's senior leadership retains 
some oversight of the affiliates and, when necessary, may attempt to 
adjudicate disputes among affiliates or provide strategic guidance. But 
Zawahiri's failure to mediate the dispute between Jabhat al-Nusrah and 
the Islamic State of Iraq and al-Sham highlights core al-Qaeda's 
limitations.\5\ However, the U.S. Government needs to better adapt its 
procedures, intelligence-gathering methods, and resources to an 
expanding number of Salafi-jihadist groups. Most U.S. Government 
agencies involved in counterterrorism have not systematically 
apportioned or adequately synchronized their declining resources to 
focus on the most serious terrorism threats.
---------------------------------------------------------------------------
    \5\ See, for example, Qaedat al-Jihad Organization--General 
Command, ``Statement Regarding the Relationship of the Group of Qaedat 
al-Jihad with the Group of the Islamic State in Iraq and al-Sham,'' 
various jihadist forums, February 2014.
---------------------------------------------------------------------------
    Question 3. What impact to our homeland do you see from a complete 
withdrawal from Afghanistan?
    Answer. A complete U.S. withdrawal from Afghanistan could seriously 
jeopardize U.S. security interests because of the continuing presence 
of al-Qaeda and other terrorist groups in Afghanistan and Pakistan. 
U.S. forces would have little or no mandate and limited or no 
capabilities after 2015 to assist the Afghan government if the Taliban 
or other groups associated with al-Qaeda threatened to overrun a major 
city or even topple the government. A U.S. withdrawal would also 
increase the probability that Afghanistan would be used as a beachhead 
for al-Qaeda and other militant groups. Iraq after the U.S. withdrawal 
is illustrative: al-Qaeda in Iraq has regrouped since 2011. It conducts 
attacks at a high tempo and was instrumental in establishing an 
affiliate, Jabhat al-Nusrah, in Syria.
    A civil war or successful Taliban-led insurgency would likely allow 
al-Qaeda and other terrorist groups such as the Tehreek-e-Taliban 
Pakistan, Haqqani network, and Lashkar-e-Taiba to increase their 
presence in Afghanistan. Most of these groups have already expanded 
their presence in Afghanistan over the past several years and have 
conducted attacks either against the U.S. homeland (al-Qaeda and 
Tehreek-e-Taliban Pakistan), U.S. forces and U.S. Government 
installations in Afghanistan (Taliban and Haqqani network), or U.S. 
citizens in the region (Lashkar-e-Taiba and al-Qaeda).
    In addition, al-Qaeda and associated movements would likely view 
the withdrawal of U.S. military forces from Afghanistan as their most 
important victory since the departure of Soviet forces from Afghanistan 
in 1989.
    Question 4. Prior to the September 11, 2012 attack on our consulate 
in Benghazi, there was a great deal of reporting that al-Qaeda 
ideologically-aligned groups were operating in and around Benghazi. Why 
do you think that administration did not see those groups as a 
significant threat to United States operations in the area?
    Answer. Prior to the September 2012 attack in Benghazi, U.S. 
Government agencies had warned of terrorist activity in the area, 
including from groups like Ansar al-Sharia Libya, al-Qaeda in the 
Islamic Maghreb, and the Muhammad Jamal Network. Going forward, as some 
RAND work has concluded, the security plan for the U.S. diplomatic 
presence abroad must include well-developed strategies to both detect 
and prevent an assault like the one in Libya before it occurs.\8\ 
Technology, for example, can help. Cameras with pattern-recognition 
software positioned around the embassy to monitor the streets can show 
what those streets look like on a normal day and what they look like on 
a day when there may be protests or an attack. They can capture 
protesters mobilizing or attackers prepositioning themselves before an 
assault. Similarly, predictive analytics can be applied to social media 
collected from Facebook, Twitter, and other accounts to determine when 
crowds might form or when an attack is being planned.
---------------------------------------------------------------------------
    \6\ William Young, Embassy Security: From the Outside In (Santa 
Monica, CA: RAND, 2013).
---------------------------------------------------------------------------

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
